<html>
<title> - CASES OF CHILD NEGLECT AND ABUSE AT PRIVATE RESIDENTIAL TREATMENT FACILITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   CASES OF CHILD NEGLECT AND ABUSE AT PRIVATE RESIDENTIAL TREATMENT 
                               FACILITIES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 10, 2007

                               __________

                           Serial No. 110-68

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
38-055                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 10, 2007.................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............   132
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     5
        Prepared statement of....................................     6
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        American Bar Association recommendations.................     7
        Alliance for the Safe, Therapeutic, and Appropriate Use 
          of Residential Treatment (ASTART), statement of........   132
        Letters submitted for the record.........................    11
        Questions for the record submitted to Dr. Pinto..........    26
        Questions for the record submitted to Mr. Kutz...........    27
        Questions for the record submitted to Ms. Moss...........    27

Statement of Witnesses:
    Bacon, Bob, father of Aaron Bacon............................    41
        Prepared statement of....................................    43
    Harvey, Cynthia Clark, mother of Erica Clark Harvey..........    38
        Prepared statement of....................................    40
    Kutz, Greg, Managing Director, Forensic Audits and Special 
      Investigations Unit, Government Accountability Office......    30
        Prepared statement and the GAO report, ``Residential 
          Treatment Programs: Concerns Regarding Abuse and Death 
          in Certain Programs for Troubled Youth,'' Internet 
          address................................................    32
        Responses to questions for the record....................    32
    Lewis, Paul, father of Ryan Lewis............................    34
        Prepared statement of....................................    36
    Moss, Jan, executive director, National Association of 
      Therapeutic Schools and Programs...........................    44
        Prepared statement of....................................    46
        Additional materials submitted...........................    50
        Responses to questions for the record....................    64
    Pinto, Ph.D., Allison, research psychologist and assistant 
      research professor, Louis de la Parte Florida Medical 
      Health Institute, University of South Florida..............    75
        Prepared statement of....................................    77
        Additional materials submitted...........................    81
        Responses to questions for the record....................    79


                       CASES OF CHILD NEGLECT AND
                      ABUSE AT PRIVATE RESIDENTIAL
                          TREATMENT FACILITIES

                              ----------                              


                      Wednesday, October 10, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:33 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Woolsey, 
Hinojosa, McCarthy, Tierney, Kuchinich, Wu, Bishop of New York, 
Sarbanes, Sestak, Loebsack, Hirono, Altmire, Clarke, McKeon, 
Petri, Castle, Platts, Kline, Boustany, and Kuhl.
    Staff present: Tylease Alli, Hearing Clerk; Jeff Appel, GAO 
Detailee; Sarah Dyson, Investigative Associate, Oversight; 
Patrick Findlay, Investigative Counsel; Denise Forte, Director 
of Education Policy; Ruth Friedman, Senior Education Policy 
Advisor (Early Childhood); Ryan Holden, Senior Investigator, 
Oversight; Lamont Ivey, Staff Assistant, Education; Thomas 
Kiley, Communications Director; Ann-Frances Lambert, 
Administrative Assistant to Director of Education Policy; 
Danielle Lee, Press/Outreach Assistant; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Rachel Racusen, Deputy 
Communications Director; Dray Thorne, Senior Systems 
Administrator; Margaret Young, Staff Assistant, Education; 
Michael Zola, Chief Investigative Counsel, Oversight; Mark 
Zuckerman, Staff Director; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Robert Borden, 
Minority General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Kirsten Duncan, Minority Professional 
Staff Member; Taylor Hansen, Minority Legislative Assistant; 
Victor Klatt, Minority Staff Director; Alexa Marrero, Minority 
Communications Director; Susan Ross, Minority Director of 
Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller [presiding]. A quorum being present, the 
investigative hearing of the Committee on Education and Labor 
titled ``Cases of Child Neglect and Abuse in Private 
Residential Treatment Facilities'' will come to order.
    Pursuant to Committee Rule 12(a), any member may submit an 
opening statement in writing which will be made part of the 
permanent record, and I will recognize myself, followed by the 
senior Republican member, Mr. McKeon, for an opening statement.
    I want to welcome everybody to today's hearing on cases of 
child neglect and abuse at private residential treatment 
facilities. For a number of years now, I have been deeply 
concerned about the allegations of child abuse in private 
residential treatment programs, which are often referred to as 
boot camps or wilderness programs or behavior modification 
facilities. These allegations range from neglect to torture, a 
word I do not use lightly.
    Today, we will hear about neglect and abuse cases where the 
outcome was the worst one imaginable, the death of a child. We 
will hear testimony from parents of children who died, and I 
thank them for joining us today and for having the courage to 
speak publicly about their ordeals.
    It is estimated that hundreds of private residential 
treatment programs operate nationwide. The programs are 
governed for the most part by a weak patchwork of state 
regulations. In many states, these programs operate without 
regulation, licensing or accreditation of any kind, despite 
often exorbitant prices of tuition.
    Parents often send their children to these programs when 
they feel they have exhausted their alternatives. Their 
children may be abusing drugs or alcohol, attempting to run 
away or physically harm themselves, or otherwise acting out. 
They send their children to these programs because the promises 
of staff members to be able to help children straighten out 
their lives.
    In far too many cases, however, the very people entrusted 
with the safety, the health and the welfare of these children 
are the ones who violate the trust in some of the more horrific 
ways imaginable. We are aware of stories where program staff 
members have forced children to remain in seclusion for days at 
a time, to remain in so-called stress positions for hours at a 
time, to undergo extreme physical exertion without sufficient 
food or water.
    And, today, we will hear evidence of even more horrifying 
stories of the children denied access to bathrooms, forced to 
defecate on themselves, or children forced to eat dirt or their 
own vomit, of children paired with older children, their so-
called buddies, whose job it essentially was to abuse them. 
There is only one word for this behavior, and that is inhumane.
    This nightmare has remained an open secret for years. 
Sporadic news accounts of specific incidents have built a 
record that should never have been ignored, but shamefully it 
was and the federal government has completely failed to grasp 
the urgency of this situation.
    In 2003, I urged then Attorney General John Ashcroft to 
begin an immediate investigation into reports of child abuse at 
private residential treatment programs. The attorney general 
refused, as did his successor, Alberto Gonzales.
    I also then wrote Secretary of State Colin Powell asking 
him to investigate the treatment of children in facilities 
located overseas but serving American children and operated by 
U.S. companies. Secretary Powell's response was insufficient.
    We will learn today that a number of these programs 
actually operate on federal land, yet no federal agency, not 
the Bureau of Land Management nor the Department of Interior, 
no one, has thought to review problems associated with these 
federal tenants, despite repeated incidents of injury or death 
of a child.
    No federal agency keeps official data about the number of 
children enrolled in private residential treatment programs, 
despite the fact that children are typically transported across 
state lines, sometimes even by force, in order to be enrolled 
in the programs, and I believe that that is an outrage.
    In late 2005, I asked the Government Accountability Office 
to launch an investigation of private residential treatment 
programs. The GAO agreed, and I am pleased that the GAO has 
devoted its significant resources to this important issue.
    Today, the GAO will present case studies of programs where 
death has occurred. Next year, GAO expects to release an 
industrywide review, thus providing us with a comprehensive 
look at the industry.
    In the past, it has been estimated that anywhere from 
10,000 to 20,000 children are enrolled in these programs at any 
one time. I am sure that there are programs staffed by caring 
professional and competent staff members who do help to improve 
children's lives, yet there are clearly a number of programs 
staffed by untrained, unlicensed, poorly paid staff members who 
simply cannot be entrusted with the child's welfare.
    As a result, without regulation, the industry as a whole 
will continue to present unacceptable risks to children it 
serves. That is why in 2005 I proposed legislation to provide 
resources to states to help them create licensing standards for 
private residential treatment programs. The legislation would 
also boost the oversight of facilities overseas operated by 
U.S. companies.
    This hearing, as well as the ongoing work by GAO and by the 
committee's investigative staff, will help determine if it is 
the appropriate legislative response or if the situation 
demands something else.
    One thing is clear, however, that in light of the findings 
we will hear today, Congress must act and it must act swiftly 
to ensure the wellbeing of children participating in these 
programs. We can all agree we have no mandate more urgent than 
keeping children safe.
    I would like to thank all of our witnesses for joining us 
today. We will look forward to your testimony and working with 
you to put a stop to these abuses.
    And now I would like to yield to Congressman McKeon for his 
opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning.
    Welcome to today's hearing on ``Cases of Child Neglect and Abuse at 
Private Residential Treatment Facilities.''
    For a number of years now, I have been deeply concerned about 
allegations of child abuse in private residential treatment programs, 
which are often referred to as ``boot camps,'' ``wilderness programs,'' 
or ``behavior modification facilities.''
    These allegations range from neglect to torture--a word that I 
don't use lightly.
    Today, we will hear about neglect and abuse cases where the outcome 
was the worst one imaginable: the death of a child. We will hear 
testimony from the parents of children who died. I thank them for 
joining us today and for having the courage to speak publicly about 
their ordeals.
    It is estimated that hundreds of private residential treatment 
programs operate nationwide. The programs are governed by a weak 
patchwork of state regulations. In many states, these programs operate 
without regulations, licensing, or accreditation of any kind, despite 
the often exorbitant price of tuition.
    Parents often send their children to these programs when they feel 
they have exhausted their alternatives. Their children may be abusing 
drugs or alcohol, attempting to run away or physically harm themselves, 
or otherwise acting out. They send their children to these programs 
because of the promise that staff members will be able to help children 
straighten their lives out.
    In far too many cases, however, the very people entrusted with the 
safety, health, and welfare of these children are the ones who violate 
that trust in some of the most horrific ways imaginable.
    We have heard stories where program staff members forced children 
to remain in seclusion for days at a time; to remain in so-called 
``stress'' positions for hours at a time; or to undergo extreme 
physical exertion without sufficient food and water.
    Today, we will hear even more horrifying stories, of children 
denied access to bathrooms and forced to defecate on themselves. Of 
children forced to eat dirt or their own vomit. Of children paired with 
older children--so-called ``buddies''--whose job it is, essentially, to 
abuse them.
    There is only one word for these behaviors: Inhuman.
    This nightmare has remained an open secret for years. Sporadic news 
accounts of specific incidents have built a record that should never 
have been ignored, but shamefully was.
    The federal government has completely failed to grasp the urgency 
of this situation.
    In 2003, I urged then-Attorney General John Ashcroft to begin an 
immediate investigation into reports of child abuse at private 
residential treatment programs. The Attorney General refused, as did 
his successor, Alberto Gonzales.
    I also wrote to then-Secretary of State Colin Powell asking him to 
investigate the treatment of children in facilities located overseas 
but serving American children and operated by U.S. companies. Secretary 
Powell's response was insufficient.
    We will learn today that a number of these programs actually 
operate on federal land. Yet no federal agency--not the Bureau of Land 
Management, not the Department of the Interior, no one--has thought to 
review problems associated with these federal tenants, despite repeated 
incidents ending in the injury or death of a child.
    No federal agency keeps official data about the number of children 
enrolled in private residential treatment programs, despite that fact 
that children are typically transported across state lines--sometimes 
even by force--in order to be enrolled in the programs.
    This is an outrage.
    In late 2005, I asked the Government Accountability Office to 
launch an investigation of private residential treatment programs. The 
GAO agreed, and I am pleased that GAO has devoted significant resources 
to this important issue. Today, the GAO will present case studies of 
programs where deaths occurred. Next year, GAO expects to release an 
industry-wide review, thus providing us with a comprehensive look at 
the industry.
    In the past, it has been estimated that anywhere from 10,000 to 
20,000 children have been enrolled in these programs at any one time.
    I am sure that there are programs staffed by caring, professional, 
competent staff members, who do help to improve children's lives. Yet 
there are clearly a number of programs staffed by untrained, 
unlicensed, poorly paid staff members who simply cannot be entrusted 
with children's welfare. As a result, without regulations, the industry 
as a whole will continue to present unacceptable risks to the children 
it serves.
    That is why, in 2005, I proposed legislation to provide resources 
to states to help them create licensing standards for private 
residential treatment programs. The legislation would also boost 
oversight of facilities overseas operated by U.S. companies.
    This hearing, as well as the ongoing work by GAO and by the 
Committee's investigative staff, will help determine if that is the 
appropriate legislative response or if the situation demands something 
else.
    One thing is clear, however: In light of the findings we will hear 
today, Congress must act, and it must act swiftly, to ensure the well-
being of children participating in these programs. We can all agree 
that we have no mandate more urgent than keeping children safe.
    I'd like to thank all of our witnesses for joining us today. We 
look forward to your testimony and to working with you to put a stop to 
these abuses.
    Thank you.
                                 ______
                                 
    Mr. McKeon. I thank the chairman for yielding.
    Today's hearing will explore a difficult topic. The 
facilities we will be looking at receive no federal funding 
and, therefore, are not regulated by the federal juvenile 
justice legislation under this committee's jurisdiction. 
Nonetheless, the allegations of mistreatment raise a number of 
serious questions.
    I want to recognize the families who are here today and 
thank them for their willingness to share their personal 
stories. The loss of a child is something no parent should have 
to endure.
    I also want to take the opportunity to recognize the 
Government Accountability Office for its work in this area. 
Often on issues like these where our jurisdiction as federal 
lawmakers may be uncertain, the GAO's work can help provide 
clarity. This includes an analysis of how these programs are 
funded and regulated and what efforts are in place currently at 
the state level, but also perhaps at the federal level to 
ensure the safety and effectiveness of the programs.
    We will also hear today from a researcher in this field 
and, on behalf of practitioners, the National Association of 
Therapeutic Schools and Programs, who can offer perspectives on 
the regulatory framework in place as well as steps that can be 
taken to improve upon current requirements to protect the youth 
in these facilities.
    As I understand it, the work of the GAO has focused on the 
question of whether allegations of abuse and death at these 
residential treatment facilities are widespread and on 
providing a review of the case studies. The GAO was unable to 
differentiate between public and private programs in 
determining how prevalent these allegations are, which 
demonstrates how difficult it may be to address this issue at 
the federal level.
    It seems to me that the question of how widespread these 
alleged incidents of mistreatment are is critical. Of course, 
even one incident of abuse or, worse, the loss of life is 
unacceptable.
    But before we consider federal intervention, we need to 
better understand the breadth of the problem so we can 
determine the best way to protect the youth in these programs. 
We need to take a step back to evaluate what an appropriate 
federal role would be, if any, in regulating these programs. 
This requires that we first understand current federal 
involvement, an area I hope we will explore today.
    Many of these facilities have been established to serve 
children who are deeply troubled, whether they are suffering 
from drug addiction or severe emotional or behavioral problems. 
Many of the youth who enter these facilities are placed there 
by their parents as a last resort.
    This committee has held a series of hearings this year to 
examine how we can improve our juvenile justice system. Our 
efforts have focused on identifying effective strategies that 
prevent juvenile delinquency and encourage healthy child 
development. Although these privately funded programs are not 
currently governed by the juvenile justice statute under our 
jurisdiction, I hope we can examine this issue through the 
broader context of juvenile delinquency prevention in order to 
understand how existing programs can meet the needs of troubled 
youth.
    Once again, let me thank the witnesses for being here to 
help shed light on these facilities, the role they play in 
serving troubled youth and the efforts at the state and local 
level to ensure safety.
    I yield back the balance of my time.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    I thank the gentleman for yielding.
    Today's hearing will explore a difficult topic. The facilities we 
will be looking at receive no federal funding, and therefore are not 
regulated by the federal juvenile justice legislation under this 
Committee's jurisdiction. Nonetheless, the allegations of mistreatment 
raise a number of serious questions.
    I want to recognize the families who are here today and thank them 
for their willingness to share their personal stories. The loss of a 
child is something no parent should have to endure.
    I also want to take the opportunity to recognize the Government 
Accountability Office for its work in this area. Often on issues like 
these, where our jurisdiction as federal lawmakers may be uncertain, 
the GAO's work can help provide clarity. This includes an analysis of 
how these programs are funded and regulated, and what efforts are in 
place currently--at the state level, but also perhaps at the federal 
level--to ensure the safety and effectiveness of the programs.
    We will also hear today from a researcher in this field and, on 
behalf of practitioners, the National Association of Therapeutic 
Schools and Programs, who can offer perspectives on the regulatory 
framework in place, as well as steps that can be taken to improve upon 
current requirements to protect the youth in these facilities.
    As I understand it, the work of the GAO has focused on the question 
of whether allegations of abuse and death at these residential 
treatment facilities are widespread, and on providing a review of case 
studies. The GAO was unable to differentiate between public and private 
programs in determining how prevalent these allegations are, which 
demonstrates how difficult it may be to address this issue at the 
federal level.
    It seems to me that the question of how widespread these alleged 
incidents of mistreatment are is critical. Of course even one incident 
of abuse or worse, the loss of life, is unacceptable. But before we 
even consider federal intervention, we need to better understand the 
breadth of the problem so we can determine the best way to protect the 
youth in these programs. We need to take a step back to evaluate what 
an appropriate federal role would be, if any, in regulating these 
programs. This requires that we first understand current federal 
involvement, an area I hope we will explore today.
    Many of these facilities have been established to serve children 
who are deeply troubled. Whether they are suffering from drug addiction 
or severe emotional or behavioral problems, many of the youth who enter 
these facilities are placed there by their parents as a last resort.
    This Committee has held a series of hearings this year to examine 
how we can improve our juvenile justice system. Our efforts have 
focused on identifying effective strategies that prevent juvenile 
delinquency and encourage healthy child development. Although these 
privately-funded programs are not currently governed by the juvenile 
justice statute under our jurisdiction, I hope we can examine this 
issue through the broader context of juvenile delinquency prevention in 
order to understand how existing programs can meet the needs of 
troubled youth.
    Once again, let me thank the witnesses for being here to help shed 
light on these facilities, the role they play in serving troubled 
youth, and the efforts at the state and local level to ensure safety. I 
yield back the balance of my time.
                                 ______
                                 
    Chairman Miller. I thank the gentleman for his statement.
    Without objection, all members will have 14 days to submit 
additional materials and questions for the hearing record.
    [The American Bar Association Recommendations, submitted by 
Mr. Miller, follow:]

                American Bar Association Recommendations

                           February 12, 2007

    RESOLVED, That the American Bar Association urges state, 
territorial, and tribal legislatures to enact laws that require the 
licensing, regulating, and monitoring of residential treatment 
facilities that are not funded by public or government systems, but are 
privately-operated overnight facilities that offer treatment to at-risk 
children and youth under age 18 for emotional, behavioral, educational, 
substance abuse, and social issues and problems, including strenuous 
athletic, mental health, and tough love programs. This legislation 
should:
    1. Require licensure of, or otherwise regulate, private residential 
treatment facilities by defining clearly which programs must comply 
with the statute and impose minimum legal requirements to operate and 
maintain them, including standards regarding staff qualifications and 
residents' physical and emotional safety, educational, mental health, 
and other treatment needs.
    2. Require government monitoring and enforcement of the operational 
standards outlined in the statute.
    3. Promote the preferred use of appropriate in-home and community-
based prevention and intervention programs for at-risk children and 
youth by requiring enhanced governmental support that provides families 
with better access to these programs.
    FURTHER RESOLVED, That the American Bar Association urges the 
Congress to enact legislation that would assure the safety of American 
children and youth placed in U.S-owned, but foreign-based unregulated 
private residential treatment facilities by requiring U.S. federal 
agencies to work with foreign governments to monitor such facilities 
regularly.
Report: The ABA Youth at Risk Initiative and Relevant ABA Policy
    In August 2006, American Bar Association (ABA) President Karen 
Mathis launched the ABA Youth at Risk Initiative geared towards youth 
ages 13 to 19 who are at risk of entering juvenile and criminal justice 
systems. Many of these youth and families face problems that elevate 
this risk, including serious unmet mental health needs, serious 
emotional or behavioral problems, bad peer choices, and gang 
involvement.
    They require the use of proven, ``evidence-based'' services 
including appropriate in-home services that resolve these problems with 
the youth's family and in the community.\1\ Also in August 2006, the 
ABA House of Delegates approved a recommendation urging state, 
territorial, and tribal governments to ensure that ``community mental 
health systems serving youth are reinvigorated and significantly 
expanded to provide greater access to troubled youth and their 
caretakers.''
    The ABA has long supported appropriate government regulation and 
oversight of residential facilities serving children and youth. In 
1979, the House of Delegates approved the Institute of Judicial 
Administration/American Bar Association Juvenile Justice Standards, in 
which the ABA called for ``the provision of a safe, humane, caring 
environment, and access to required services for juveniles'' with the 
``least possible restriction of liberty'' necessary and a ``careful 
adherence to legal rights'' (Standard 1.2, Standards Relating to 
Correctional Administration). The standards also encouraged governments 
and independent agencies to assure the protection of juveniles' 
substantive and procedural rights and pertinent laws and regulations 
were ``continuously complied with'' (Standards 1.2, 1.3, Standards 
Relating to Monitoring).
    More recent ABA resolutions have addressed similar and related 
issues. In 2004, an ABA resolution encouraged the use of law to ensure 
foster care children have ``uninterrupted education access'' (August 
2004). The ABA has also called for an increase in funding and financing 
``for public mental health services so that * * * juveniles with mental 
health or emotional illness or disorders can obtain the support 
necessary to enable them to live independently in the community, and to 
avoid contact with the criminal and juvenile justice systems.'' 
(February 2004). In 1990, the ABA passed a resolution supporting 
juveniles' right to physical safety ``to be protected from abuse, 
physical violence, and sexual assault while in foster custody'' (August 
1990).
    In August 2004, the ABA approved Standards for the Custody, 
Placement and Care; Legal Representation; and Adjudication of 
Unaccompanied Alien Children in the United States. The standards state 
that unaccompanied alien children in residential facilities must always 
``be treated with dignity, respect and special concern for [their] 
particular vulnerability as a child'' (III.B). They are ``entitled to a 
reasonable right of privacy'' including ``the ability to talk privately 
on the phone without automatic monitoring; to receive and send 
uncensored mail; and to meet privately with attorneys and other 
visitors'' (III.K). The standards also state that unaccompanied alien 
children must be protected ``from all forms of physical, sexual or 
mental violence, injury or abuse, as well as neglect, abandonment, 
maltreatment and exploitation'' while in residential care (III.L). 
United States citizen children and youth placed by their parents or 
others in purportedly ``therapeutic'' unregulated private residential 
facilities require and deserve no less protection.
    This is by no means the first time the ABA has called for the 
protection of American children from harm in the international context. 
Indeed, the safety of American youth who might be placed in foreign-
based facilities is also related to earlier concerns for children 
addressed by the House of Delegates. In August 1997, the Association 
endorsed U.S. ratification and full implementation of the Hague 
Convention on Jurisdiction, Applicable Law, Recognition, Enforcement 
and Co-operation in Respect of Parental Responsibility and Measures for 
the Protection of Children, which calls for protection of children who 
cross national borders. In February 1991, the ABA urged U.S. 
ratification of the Convention on the Rights of the Child (now ratified 
by over 190 nations but not the U.S.) which contains several provisions 
focused on the protection of children who cross national borders. Much 
earlier, the ABA's call for the U.S. ratification of the Hague 
Convention on Civil Aspects of International Child Abduction (of which 
the U.S. is a party) demonstrates another instance of the ABA's concern 
for children's welfare when they are victims of international care and 
custody disputes.
Unregulated Private Residential Treatment Facilities
    Since the early-1990s, parents have been placing their children and 
youth in unregulated private residential treatment facilities at an 
increasing rate. Hundreds of U.S. and foreign-based facilities have 
opened in the last ten years. It is estimated that these facilities 
serve between 10,000 and 14,000 American youth per year.\2\ Despite 
research on the efficacy of community-based and family-centered 
intervention and prevention programs and treatment, thousands of 
parents bypass available public systems and send, at their own expense, 
their ``troubled'' children and youth to unregulated private 
residential treatment facilities.
    As relayed in numerous newspaper articles and exposes, many 
children and youth enrolled in these programs are not afforded basic 
and fundamental rights and protections. Public media accounts share 
disturbing reports by youth and parents describing inferior treatments, 
educational access violations, and instances of mental, physical, and 
sexual maltreatment, neglect, and abuse.\3\ The Bazelon Center for 
Mental Health Law collected the following documented accounts (through 
media and Bazelon Center investigations and interviews) that represent 
only a fraction of the abuses children and youth have experienced: \4\
    <bullet> Limitations on the ability to contact parents for extended 
periods of time;
    <bullet> Overuse of medication to control behaviors. In some cases 
children and youth were permanently disfigured because of over-
medication;
    <bullet> Confiscation of children's and youths' shoes to prevent 
them from running away;
    <bullet> Use of physical restraint techniques that last for hours 
at a time. The overuse of restraints has led to the death of some 
children and youth; and
    <bullet> Sexual abuse by facility staff members, in some instances 
having young girls exchange sexual favors for food.
    Despite egregious abuses, these facilities continue to grow in 
number and size. The industry is booming and reportedly worth over a 
billion dollars.\5\ A parent may pay between $3,000 and $5,000 dollars 
a month to send their child or youth to an unregulated private 
residential treatment facility and not be able to monitor his or her 
progress because of rules limiting family contact.\6\ The industry 
prospers on promises to modify troublesome behaviors and to make 
``bad'' kids good. Its financial sustainability is assured by frequent 
deceptive advertising on the internet that market facilities as 
offering an array of mental health and educational services that are 
often not available or provided by unqualified staff.\7\
    In 2005, Representative George Miller (D-CA) asked the U.S. 
Government Accountability Office (GAO) to conduct a comprehensive 
investigation of unregulated private residential treatment facilities 
in light of repeated reports and allegations of child abuse and fraud. 
In August of 2005, the Children's Welfare League of America also called 
upon the GAO to conduct such an investigation, but it has not yet done 
so.
Regulation, Oversight, and Monitoring of U.S.-Based Unregulated Private 
        Residential Treatment Facilities
    The first part of this recommendation calls for state legislatures 
to pass laws that require states to license, regulate, and monitor 
unregulated private residential treatment facilities for children and 
youth. First, the recommendation encourages state legislators to define 
clearly which programs must comply with the law. Many unregulated 
private facilities have easily avoided state licensure and monitoring 
by claiming exemption in vague exceptions to state licensure 
requirements. For example, one facility skirted state oversight by 
designating itself as a ``boarding school'' rather than a residential 
treatment facility, despite its lack of educational services.\8\ Many 
state laws include broad provisions regarding oversight of residential 
treatment facilities that are easily avoided by programs that chose to 
designate themselves as something else, e.g., a ``boot camp'' or 
``boarding school.''
    The first part of the recommendation also encourages states to 
establish and enforce standards for licensure that assure the safety, 
health, and well-being of children and youth placed in these 
facilities. This standards requirement intends to combat the human 
rights violations and abuses that have occurred at so many facilities 
that remain unregulated by state law. Only a handful of states have 
proposed or passed comprehensive legislation that establish standards 
to monitor and regulate private residential treatment facilities for 
children and youth.
    For example, in 2005, the Utah legislature passed a law that 
expands state licensing requirements to all residential treatment 
programs, including ``therapeutic schools.'' \9\ The Utah law requires 
the Utah Department of Human Services, Office of Licensing to establish 
health and safety standards for residential treatment licensees that 
address client safety and protection, staff qualifications and 
training, and the administration of medical procedures and standards. 
The new law also empowers the licensing office to revoke licenses if 
covered residential programs fail to meet the law's standards or engage 
in conduct that poses a substantial risk of harm to any person. Any 
facility that continues to operate in violation of the law is guilty of 
a misdemeanor, if the violation endangers the welfare of clients. The 
law also requires the licensing office to designate local government 
officials as residential treatment facility inspectors who are charged 
with conducting compliance assessments.
    Finally, the first part of this recommendation encourages state 
legislatures to assure families access to in-home and community-based 
prevention services that have proven effective instead of unregulated 
private residential treatment facilities that have not shown their 
efficacy.\10\ Studies show that community mental health programs for 
children and youth with significant mental health and behavioral 
problems are more effective and less costly.\11\ In 1999, the U.S. 
Surgeon General, in his report on mental health, found that admissions 
to residential treatment facilities had been justified on the basis of 
community and child protection. These justifications, however, do not 
stand up to research scrutiny. Seriously violent and aggressive 
children and youth do not improve in these settings and community 
interventions that target change in peer associations are highly 
effective at reducing aggressive behaviors. Moreover, children and 
youth who need protection from themselves (i.e., who attempt suicide, 
persistently run away, or abuse drugs) may require a brief 
hospitalization for an acute crisis, but subsequent intensive 
community-based services may be more appropriate than a residential 
treatment facility.\12\
    In 2003, the U.S. President's New Freedom Commission on Mental 
Health called for better systems of care to detect early childhood 
emotional disturbances and provide prevention and intervention services 
to prevent these problems from worsening.\13\ A year later, the 
National Institutes of Health, State of the Science Conference--
Preventing Violence and Related Health Risking Social Behaviors in 
Adolescents issued a statement affirming that ``scare tactics'' used at 
``get tough'' programs and boot camps don't work and in fact may make 
children's and youths' behavioral problems worse.\14\ Finally, 
communities all over the country have begun to implement evidence-based 
community programs for at-risk children and youth, such as treatment 
foster care, wraparound services, multisystemic therapy, and functional 
family therapy.
Regulation, Oversight, and Monitoring of Foreign-Based Unregulated 
        Private Residential Treatment Facilities
    The second part of this recommendation calls upon the federal 
government to oversee the operations of U.S.-owned unregulated private 
residential treatment facilities that are located abroad. To avoid 
state regulation and monitoring, many U.S. companies have opened 
private residential treatment facilities in the Caribbean or overseas. 
Some of the most egregious human rights violations against American 
children and youth have occurred in foreign-based unregulated 
facilities where they are restricted from communicating with 
family.\15\
    To respond to these abuses, in 2004, the U.S. Department of State 
issued a fact sheet on privately-owned overseas behavior modification 
facilities stating that some facilities ask parents to sign contracts 
giving staff broad authority to take any action deemed necessary to 
assure children's and youths' progress in the program.\16\ The fact 
sheet also warns that children's and youths' communication privileges 
and contact with family and the outside world may be restricted. 
Finally, it warns parents that:
    The Department of State has no authority to regulate these entities 
* * * and does not maintain information about their corporate or legal 
structures or their relationships to each other or to organizations in 
the United States. The host country where the facility is located is 
solely responsible for compliance with any local safety, health, 
sanitation, and educational laws and regulations, including all 
licensing requirements of the staff in that country. These standards 
may not be strictly enforced or meet the standards of similar 
facilities in the United States. The Department of State has, at 
various times, received complaints about nutrition, housing, education, 
health issues, and methods of punishment used at some facilities.
    Prior to enrolling their minor children in such overseas ``Behavior 
Modification Facilities,'' the Department of State strongly recommends 
parents/guardians visit the facility and thoroughly inform themselves 
about both the facility and the host country's rules governing it and 
its employees.
    In the 109th Congress (2005), Representative Miller (D-CA) proposed 
the ``End Institutional Abuse Against Children Act,'' \17\ which 
requires the U.S. Department of Justice to coordinate with foreign 
countries to investigate and inspect foreign-based private residential 
treatment facilities, periodically. The proposed legislation also 
requires the justice department to issue protection and safety rules 
for foreign-based programs and requires the U.S. Department of State to 
report any abuses of American children and youth.
Conclusion
    In February 2006, then ABA President-Elect Karen Mathis held a 
planning conference for her Youth at Risk Initiative. Sixty child 
welfare and juvenile justice experts participated in the conference and 
recommended that the ABA encourage the passage of legislation that:
    Prohibit[s] the operation of unlicensed, unregulated residential 
treatment facilities that operate programs whose efficacy has not been 
proven empirically, such as boot camps, tough love, and ``scared 
straight'' programs, and require the closing of such facilities. The 
law should provide for such facilities to be replaced with: better 
access to preventative services, with a focus on family involvement and 
community-based resources wherever possible; and carefully regulated 
``residential treatment facilities'' that are reserved for youth whose 
dangerous behavior cannot be controlled except in a secure setting.
    These recommendations are a step towards achieving these goals. 
State and federal legislators have begun to take action in light of the 
abuses that have befallen children and youth placed by their parents in 
unregulated private residential treatment facilities. However, there is 
no comprehensive collection of data available about the number of 
programs that exist or the extent to which they are licensed, monitored 
or regulated. In many states there is a paucity of regulatory oversight 
or monitoring for these programs and as of yet, there is no federal 
guidance on the issue. It is time for the ABA to respond to these 
problems. The ABA must educate itself on the issues relating to this 
disturbing trend and encourage change that emphasizes the regulation, 
monitoring, and evaluation of unregulated private residential treatment 
facilities.

    Respectfully submitted by Dwight Smith, Chairperson, Commission on 
Youth At Risk, February 2007.
Executive summary
            1. Summary of the Recommendation
    This recommendation encourages efforts to require the licensing, 
regulating, and monitoring of residential treatment facilities that are 
not funded by public or government systems, but are privately-operated 
overnight facilities that offer treatment to at-risk children and youth 
for emotional, behavioral, educational, substance abuse, and social 
issues and problems, including strenuous athletic, mental health, and 
tough love programs.
            2. Summary of the Issue Which the Recommendation Addresses
    This recommendation addresses the lack of government oversight and 
monitoring of private unregulated residential treatment facilities by 
outlining aspects of government regulation that should be instituted to 
impose minimum legal requirements to operate and maintain these 
facilities, including standards regarding residents' physical and 
emotional safety.
            3. Explanation of how the proposed policy will address the 
                    issue
    This resolution calls attention to the problems that face thousands 
of children and youth who are sent to private residential treatment 
facilities that are not regulated or monitored by government. It 
encourages such regulation and promotes the use of community-based 
services to ensure that these children and youth receive appropriate 
assistance that meets their educational, mental health and other 
treatment needs in a physically and emotionally safe environment. By 
bringing the ABA's influence to bear on the entities that should 
oversee these programs, this resolution will encourage greater 
awareness, increased knowledge, improved laws and policies for these 
children and youth at risk.
            4. Summary of Any Identified Minority Views or Opposition
    No opposition to this recommendation has been identified.

                                ENDNOTES

    \1\ ``Evidenced-based'' refers to intervention and prevention 
programs that have been carefully assessed to determine their long-term 
positive outcomes.
    \2\ Pinto, A., et. al., Exploitation in the Name of `Specialty 
Schooling:' What Counts as Sufficient Data? What are Psychologists to 
Do? Tampa, FL: Louis de la Parte Florida Mental Health Institute, 
University of South Florida, 2005. <http://www.nospank.net/pinto.htm>.
    \3\ Gorenfeld, J. ``No More Nightmares at Tranquility Bay?'' 
AlterNet, January 2006; Dibble, S. ``Scrutiny Increased on Centers for 
Teens,'' The San Diego Union Tribune, January 2005; Rowe, R. 
``Tranquility Bay: The Last Resort,'' BBC News-World Edition, December 
2004; Labi, N. ``Want Your Kid to Disappear?'' Legal Affairs, July/
August 2004; Kilzer, L. ``Desperate Measures,'' Denver Rocky Mountain 
News, July 1999.
    \4\ The Bazelon Center for Mental Health Law. Fact Sheet: Children 
in Residential Treatment Centers. Washington, DC. <http://
www.bazelon.org/issues/children/factsheets.rtcs.htm>.
    \5\ Chen, M. ``At Some Youth `Treatment' Facilities, `Tough Love' 
Takes Brutal Forms.'' The New Standard, November 2005.
    \6\ Szalavitz, M. ``The Trouble with Tough Love,'' Washington Post, 
January 2006.
    \7\ Pinto, A., Specialty Schooling, 2005.
    \8\ ``Desperate Measures,'' July 1999.
    \9\ Licensure of Programs and Facilities, Utah Senate Bill 107 
(2005).
    \10\ Bazelon Center. Fact Sheet; see also U.S. Department of Health 
and Human Services. Mental Health: A Report of the Surgeon General--
Executive Summary. Rockville, MD: U.S. Department of Health and Human 
Services, Substance Abuse and Mental Health Services Administration, 
Center for Mental Health Services, National Institutes of Health, 
National Institute of Mental Health, 1999, 169-171.
    \11\ Surgeon General, Mental Health, 1999, 169-171; McKechnie, M. 
Children's Mental Health System in Oregon--Past, Present and Future. 
Portland, OR: Juvenile Rights Project, Inc., 2004. <http://
www.jrplaw.org/MentalHealth.htm>; Chamberlain, P. ``Treatment Foster 
Care.'' Washington, DC: Juvenile Justice Bulletin, U.S. Department of 
Justice, Office of Justice Programs, Office of Juvenile Justice and 
Delinquency Prevention, 1998.
    \12\ Surgeon General, Mental Health, 1999, 169-171.
    \13\ President's New Freedom Commission on Mental Health. Achieving 
the Promise: Transforming Mental Health Care in America. Washington, 
DC, 2003. <http://www.mentalhealthcommission.gov/reports/Finalreport/
FullReport.htm>.
    \14\ National Institutes of Health. Preventing Violence and Related 
Health Risking Social Behaviors in Adolescents: an NIH State of the 
Science Conference Statement. Rockville, MD: U.S. National Institutes 
of Health, 2004.
    \15\ See, e.g., Bay, Gorenfeld, J. ``No More Nightmares at 
Tranquility Bay?'' AlterNet, January 2006; Rowe, R. ``Tranquility Bay: 
The Last Resort,'' BBC News-World Edition, December 2004.
    \16\ U.S. Department of State. Fact Sheet: Behavior Modification 
Facilities. Washington, DC: U.S. Department of State, 2004. <http://
travel.state.gov/travel/tips/brochures/brochures--1220.html>.
    \17\ End Institutional Abuse Against Children Act, H.R. 1738, 109th 
Cong. (2005).
                                 ______
                                 
    [Letters submitted for the record follow:]

                                                  October 15, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: As the mother of a 17 year old son who went 
through an exemplary wilderness program for eight weeks at the 
beginning of 2007, and is now in his sixth month of an 18 month program 
at a top notch therapeutic boarding school, it was with great interest 
that I watched the approximately two hour hearing referenced above. I 
want to commend the House Committee on Education and Labor for taking 
up this important matter. Nothing could possibly be more important than 
the safety and welfare of our children, especially when we are seeking 
help for them to overcome serious problems.
    Our particular story began in August 2006 just prior to our son 
starting his junior year in high school. Throughout August, we 
discovered that our son had been leading a double life, having 
successfully hidden his drug abuse from us. I refer to a ``double 
life'' because our son did not ditch school, always maintained a grade 
point average of at least 3.0, was not disrespectful to any large 
degree, participated in family life, was not out until all hours, etc. 
We discovered that most of his drug use was done (sometimes daily) at 
our local public high school in our upscale Southern Orange County, 
California neighborhood in the bathroom during school hours, and went 
completely undetected. Nevertheless, when it became apparent that our 
son was troubled more than what we considered to be within the range of 
normal adolescence angst, we took immediate action to get to the source 
of the problem. When he admitted to drug use, we took him to an 
adolescent psychologist, and a local drug education program followed by 
an intensive outpatient program through a hospital. In addition, at his 
request, he transferred schools so he could get away from his negative 
peer group. I cannot adequately express the hell we went through for 
six months frantically trying to get local help for our son. To say 
that we were in a state of shock, confusion, exhaustion and fear would 
be an understatement. Although our son managed to stay off drugs, we 
could see that his life was still not working; his grades began to 
fall, he seemed depressed, and appeared to need more help than we were 
able to find for him locally. When we came across a communication he 
had with a friend that indicated that although he had stayed away from 
substances, he missed them, he still identified with that way of life, 
and he was considering returning to using drugs, we knew we had to look 
for a different intervention.
    Finding a safe, effective residential program proved difficult at 
first. The personnel at the local drug education program suggested a 
small boys program in Utah. When we investigated the program and called 
parents whose children were at the program, we determined that it would 
not be an appropriate placement for our son. We were then referred by 
our psychologist to a marketing representative of a particular company 
that ran a number of programs in different states. She tried to 
convince us over the phone that we should send our son to one of their 
programs. Feeling uncomfortable with the limited choices that we were 
uncovering, I went on the internet and found an educational consultant. 
I called the consultant who spent a great deal of time explaining 
options to me, and then gave me other families he had worked with to 
call as a reference. I finally felt like I found someone who knew this 
industry well and would be diligent in finding a placement for our son. 
What still bothers me to this day is that as well read, involved 
people, my husband and I had no idea where to turn when we needed help 
for my son. We had to learn by trial and error about the options 
available, and could have very well made a terrible mistake.
    Sending our son out of state for treatment was one of the hardest 
decisions my husband and I have ever had to make. We are so grateful 
that through our educational consultant we were able to place our son 
in two superb programs. We believe with all our heart that our son's 
life was saved by these programs, and if you spoke directly to him, he 
would say the same thing. He was never in any physical or emotional 
danger while in the wilderness or at his school. Quite the contrary--he 
has been helped by highly competent, dedicated, trained and educated 
professionals who have mentored him with skill, honesty, love, 
understanding and compassion. The wilderness program has an incredibly 
high staff to student ratio, uses the highest quality equipment and 
communication systems, makes sure the participants are well fed and 
hydrated, checks their feet for frost bite daily (my son was in Utah 
during the winter), and watches the students' physical health (my son 
had a case of shingles when he was there and he was immediately put 
under the care of a physician who prescribed antibiotics). The clinical 
staff at the wilderness program are nothing less than brilliant, and 
they got through to my son with counseling, activities in the great 
outdoors, assigning books for him to read, having him do written 
assignments, etc. They included our family every step of the way with 
weekly family phone sessions and written communications, as well as two 
visits while our son was there. In March, our son left the wilderness 
to become a student at a therapeutic boarding school. He has continued 
on his journey of self-discovery, is taking a full load of college 
preparatory classes, will graduate high school, and we anticipate that 
he will go on to college after completing the program. He is 
rediscovering his talents and passions, and wants a different, better 
life for himself. Last week, I spoke to his college counselor at his 
boarding school for over an hour. I am so grateful for this because 
with the kind of substance abuse in which our son was involved, we very 
well could have been talking to law enforcement, hospital emergency 
personnel or even to a morgue instead of a college counselor. Although 
no one can predict the future, we feel so much hope and confidence for 
our son's life.
    After watching the hearing, and listening to the anguished stories 
of the parents who testified and the wrenching information brought out 
in the case studies that the Government Accountability Office (GAO) 
presented, there is no doubt in my mind that regulation, oversight, 
licensing and monitoring are needed. As Mr. McKeon so rightly stated, 
there are ``bad actors'' in every industry. The programs that deliver 
unsound, unsafe, abusive, neglectful, and sometimes even fatal, 
services to our children should be held accountable for their appalling 
actions. My heart goes out to the parents whose children died, and I 
understand that they shared their stories to prevent other families 
from having their children put in perilous situations.
    That being said, I hope that the more extensive industry-wide 
review that the GAO is preparing to present in early 2008 will include 
information on the many wonderful, clinically sound programs that have 
not only saved countless lives, but have given the teens the tools they 
need to have the opportunity to live full, productive and joyous lives. 
I encourage the Committee to take a bi-partisan approach (what could be 
more bi-partisan than our children?) in delving deeper into this issue 
in a careful, deliberate manner. We need sensible legislation, not 
legislation that could throw the baby out with the bath water and 
hamstring credible programs from helping our youth. There are programs 
that are operating ethically and effectively, and they should be 
consulted as a resource for safe standards and appropriate regulation. 
I'm sure that the ethical programs do not see it as a benefit to the 
industry to have substandard, dangerous programs in operation.
    The most disappointing facts to come out of the hearing is that the 
criminal justice system has not properly prosecuted the wrongdoers, and 
that the Forest Department wasn't even aware that one of the programs 
in question was in arrears on its rent and that its permit had expired 
eight years ago. These examples prove that legislating regulation is 
just the start; making sure that the initiative is backed by funding 
and training for those charged with oversight, is the only way to make 
a real difference.
    I realize this communication is lengthy; however, this issue is of 
the utmost importance to me. Please do not hesitate to contact me if 
you would like any other information.
            Respectfully,
                                             Marla Kaufman.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: 
    I am requesting that these comments be placed on the Official 
Record regarding the October 10, 2007 House Committee on Education and 
Labor hearing on cases of child abuse and neglect at residential 
treatment centers.
    My daughter and our family were the grateful recipients of the 
highly professional services of a therapeutic boarding school and a 
wilderness program. She was heavily into drugs and alchohol, and was 
eventually date raped, after dropping out of High School. We chose, 
after much research to not have her be part of the ``system'' that 
gives her a number and wants her to be like everyone else. We chose a 
wilderness program that had a great reputation with the backing of many 
educational conslutants. After this program, we sent her to a 
therapeutic emotional growth boarding school. To put this into 
perspective, we saved her life and have our independent, strong, 
willful, and beautiful daughter with us today. No, she is not the 
perfect person that we all envision as parents, however she is not 
branded after being in a ``system''.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. The majority can be effected by the few, so, I am 
requesting that your Committee defer from drafting a bill until 
complete due diligence is done on the complete impact of the entire 
situation, which is your responsibility, is known.
            Sincerely,
                                               Gregg Heyne.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I request that these comments be placed on 
the Official Record regarding the October 10, 2007 House Committee on 
Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    I am the parent of a child who has completely turned his life 
around as a result of both having a ``wilderness'' experience with 
highly trained and skilled psychologists and counselors and then being 
placed in a therapeutic residential campus where he has been able to 
learn the kinds of life skills that will allow him to be a productive 
and contributing member of society. This would not, under any 
circumstance, have happened had he not been spirited away from his 
destructive home environment and placed in the kind of supportive and 
substance free environment that allowed him to achieve his potential. 
One year ago, I would have guaranteed that he would be dead today. 
Sending him away, against his will (to the extent he had any 
independent judgment) was the hardest most wrenching moment of my life. 
He is now my best friend, has become the kind of man I dreamed he would 
become and is ready to take on society fully aware of his weaknesses, 
but with a determination to overcome them.
    I am concerned that the proposed legislation is seeking to address 
admittedly harmful ``schools'' by creating a one size fits all 
solution. My son's school is fully accredited by both the state and the 
independent accrediting bodies. It has a staff of highly qualified 
psychologists and persons trained to deal with adolescents who are at 
extreme risk. It is also expensive and my greatest sadness is the 
inability of so many other parents with lesser means to find schools 
like it. Not only will the creation of additional regulatory bodies 
create additional regulatory compliance- and yet more expense for 
parents who are truly at the end of all other options (and often of 
their finances), but variations among the states will create a 
nightmare for schools simply seeking to care for their wards. As a 
former school board president, I know that California's rules relating 
to residential facilities were created, much like the current proposed 
legislation, to prevent abuse by effectively banning residential care 
schools and non-voluntary programs. While this prevents abuse at one 
level, it does not save the children most in need. Applying those rules 
to schools in other states would effectively bar California children 
from participating in programs that are often a last resort.
    The wilderness programs of 8-10 weeks where most of the children 
are first taken before they can enter a therapeutic school are 
tremendous first steps and have a remarkable track record of awakening 
kids to the desperate state of their lives. These are regulated by the 
states and should remain as such. Without this first introduction to 
assuming responsibility for their actions, the children would never 
succeed in the longer programs at the therapeutic schools.
    I would hope that before this bill is reported out there will be 
some effort by members or staff to visit some of the very successful 
schools. If any of those members or staff have teenage children, there 
first response will probably be: ``How I wish my child were in a school 
like this!'' Stories of abuse are legion in our society. Preventing 
families from having the opportunity to take their children out of a 
poisonous environment (for the child) and placing him or her in a 
responsible and caring institution would be just as abusive as the 
supposed cure.
    Thank you for your consideration.
            Sincerely,
                                              Dewey Watson,
  Tierney Watson & Healy, Cornerstone Law Group, San Francisco, CA.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My son/daughter and our family were the grateful recipients of the 
highly professional services of a therapeutic boarding school and a 
wilderness program. My daughter had serious problems when she was a 
young teenager that led us to send her first to a wonderful wilderness 
program and then to an emotional growth boarding school. The daughter 
who came back to us after almost 2 years was a changed child and is now 
a productive young adult. Without these programs we do not think she 
could have become the person she is.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until complete due diligence is done on the complete 
impact of the entire situation, which is your responsibility, is known.
            Sincerely,
                                              Ilene Ferber.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My son and our family were the grateful recipients of the highly 
professional services of a therapeutic boarding school and a wilderness 
program. My 16 yr. old son was suffering from emotional issues ( poor 
identity, needy, phony face, mother issues, anger, violence, etc) which 
resulted in his joining a gang and dealing in drugs for acceptance 
while flunking out of a high quality high school. He has an IQ over 
160. We had him abducted into a wilderness program in Utah for 6 weeks 
which was the best thing in the world for him at that time. I visited 
the nomadic troop of troubled teens in the winter for only two nights 
but it was long enough to see the care, concern and love the 2 or 3 
ever present counselors had for the 10 or 12 in their particular group. 
There is no abuse, physical touching, corporal punishment or cold or 
hunger issues. They were fully equipped for the elements and I was 
impressed with how these VERY troubled inner city gang members 
eventually began to pull together, to hold each other accountable, to 
accept responsibility, to join in and follow the rules and to work like 
men. No matches, (rub sticks together for fire). They cook their own 
food over the fire every meal and change camp sites every day packing 
everything they own on their backs. No knives except with counselors 
for food preparation, no flash lights, no watches * * * only the sun to 
keep time. Some kids stayed for 4 to 5 months until clean and 
emotionally ready to move on. These kids were happy and proud, even 
while reluctantly accepting the idea of rules and responsibility.
    After the wilderness program he attended an emotional growth school 
for 24 months where he truly gain the life skills to put his life back 
on track. He accelerated his education (no TV, no phones, no ipods, no 
electronic games, etc.) and graduated from high school with a 3.1 GPA 
while also graduating from the schools emotional growth program. My son 
is now 19 and is a sophomore at Portland State University with a 3.2 
GPA. He chose to live with me rather than his mother and has become a 
very squared away young man. I am very proud of the work he did for 
himself at both wilderness program and the emotional growth school. He 
and many others would be lost with out these services. I feel sorry for 
the many families who cannot afford or are not aware of these fine 
schools. Unfortunately, many of kids will end up in our court and penal 
systems instead of these much better programs. The government should 
help fund, but not regulate this work. Look what the government has 
done to most school systems. Free enterprise does a much more 
efficient, effective and economical job.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until complete due diligence is done on the complete 
impact of the entire situation, which is your responsibility, is known.
                                                 Mike Duyn,
                         Macadam Forbes, Oncor Intl., Portland, OR.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I have heard about the bill you are 
sponsoring about child abuse at Residential treatment centers. I surely 
applaud any desire to end abuse, but wanted you to know the tremendous 
good the legit schools do. My son was going down a path of failure and 
drug abuse in high school. We had tried at the normal ways of helping 
him, drug counseling, tutors, special education plans, etc. but nothing 
worked. We were at wits end. Although we are middle class, I am a 
construction super and my wife was a gov't secretary, we got a second 
mortgage on our house and got a educational consultant involved. She 
found a wilderness program for my son, and then a residential emotional 
growth school. We were reluctant at first of course, sending away our 
son for someone else to parent. And we had heard some of the horror 
stories about programs (in Costa Rica I think). But we visited some 
schools and found one that fit. Our son spend two years there. Two 
years he may not have had otherwise. the school was amazing, full of 
love and caring people who helped not only my son, but my wife and I as 
parents also. My son learned so much there, mainly to have the self 
esteem to value himself more than he did. He still struggles, as most 
young people do, but he is alive and happy and drug free. That was a 
gift to us beyond value. So I wanted you to know that there are many 
good programs out there. And they do tremendous good for so many 
families. We could barely afford the school, and I am worried that the 
passing of this bill as is will only escalate the costs so only the 
very rich can afford them.
    So please in your efforts to help, consider the effect this bill 
will have on the good, no LIFESAVING programs. The added paperwork and 
buracratic requirements will only make it harder for the schools to 
exist.
    I have read that many of the states that have abuse problems are 
handling it themselves with their own bills too. I am sure there are 
State's right's issues here also. A federal bill might make a school in 
one state have to meet the licensing requirements in the home state, 
further adding to the mess.
    Your bill is for a noble cause, but please be careful you don't 
harm more families than you help.
    Please add my comments to the Official record regarding the Oct. 10 
2007 House Committee on Education and Labor hearing on cases of child 
abuse and neglect at residential treatment centers.
            Thank you for you time,
                                       Charles H. Bird Jr.,
                                                        Waldorf MD.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My son and our family are the grateful recipients of the highly 
professional services of a therapeutic boarding school and a wilderness 
program. Our son was going down a dangerous path of self-destruction 
and oppositional behavior. Without access to the wonderful wilderness 
program and unbelievably effective therapeutic boarding school that he 
is at, he would never have been able to make the incredible changes 
that were necessary to turn his life around. If all children could 
attend school like this our jails would be empty.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until complete due diligence is done on the complete 
impact of the entire situation, which is your responsibility, is known.
    Please exclude emotional growth and therapeutic boarding schools 
from your proposed bill. It will only serve to place an undue burden on 
the children, parents, and administrators of such schools by making 
them devote more time to filling out government forms than teaching and 
helping.
    Thanks for your time.
            Sincerely,
                                          Denise J. Grigst.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that my comments be placed on 
the Official Record regarding the October 10, 2007 House Committee on 
Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My son has been through an excellent Wilderness Program and is 
currently in a wonderful Therapeutic Boarding School. He has never been 
more happy or productive in his life. I think the end result of this 
therapy will be to develop a productive member of society in a young 
man who had little chance of this a year ago.
    As in most things, there are good and bad. My wife and I personally 
put in a great effort and expense to find the right placements for our 
son and I urge other families to do the same. I hope that your 
Committee will not throw the baby out with the bath water regarding 
these treatment programs. Please find a way to preserve the good ones 
without making them more expensive. They are already a financial burden 
for most of us who have had to send our child there in the hope of 
saving their life.
            Respectfully,
                                    Stephen J. Folzenlogen,
                                                    Houston, Texas.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My daughter and our family were the grateful recipients of the 
highly professional services of a therapeutic boarding school and a 
wilderness program. Our school district had no viable options for my 
daughter, and she was on a risky and self-destructive path. At our 
wits' end, our family life in disarray, we turned to an educational 
consultant who after meeting with us and interviewing my daughter 
recommended a wilderness program and therapeutic boarding school that I 
believe may have saved my daughter's life. As a result of this 
intervention, today my daughter is doing very well as a healthy and 
productive student at a major college of art.
    I'm sure you would agree that the vast majority of therapeutic 
emotional growth boarding schools and wilderness programs are 
professional, experienced, ethical and extremely valuable to children 
and families in crisis. As in our case and many others, they save lives 
and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until care and complete due diligence is accomplished 
on the complete impact the bill will have on the entire situation.
    Thank you.
            Respectfully,
                                               Neal Hirsch,
                                                 Highland Park, IL.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My son and our family were the grateful recipients of the highly 
professional services of a therapeutic boarding school and a wilderness 
program. My son had issues growing through adolescence, which as a 
family we were not able to solve at home. We tried for nearly 15 
months. He was and is an exceptionally bright child, who was heading on 
a path to jail or death. Until his issues surfaced, he was a perfect 
son, so to speak. Our need was to protect him, and provide a means for 
him to grow emotionally, in a safe and therapeutic environment. The 
program he attended was great for him and for our family. We re-
connected and learned a lot about his inner issues and his poor coping 
mechanisms to deal with stress. He graduated high school at his 
emotional growth boarding school, came home for the summer and now is 
off at UC Berkeley. Had we not intervened with this therapeutic 
boarding school program, he would probably be in a juvenile hall, and 
if lucky rebuilding his life through community colleges.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families. I appreciate the need to 
ensure ALL program are run safely, and as a parent it was a very scary 
process finding a good one. We found that educational consultants help 
identify schools, through their network and expertise.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until complete due diligence is done on the complete 
impact of the entire situation, which is your responsibility, is known. 
Placing a bureaucracy upon a system that in the most part is working, 
may increase costs and dis empower the schools to provide the structure 
they need. Unfortunately most of these kids have come from public 
schools, where for various reasons, all administration keep arms length 
with any issues with the kids, thus creating the legislated low-
boundary type environment that kids with emotional issues just flounder 
in.
            Thank you for reading my comments,
                                             Elaine Wuertz.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: Please place the following comments on the 
Official Record regarding the October 10, 2007, House Committee on 
Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    I understand that some recent, high-profile cases are propelling 
you to take action on wilderness programs and residential treatment 
centers. I would like to urge you to proceed with caution.
    My son recently spent several years attending wilderness programs 
and a therapeutic, emotional growth boarding school, following his 
explusion in rapid succession from several private and public schools 
in the Bay Area.
    He was making extremely bad choices and his behavior was out of 
control.
    Although he is extremely bright, my son also has ADHD, and his many 
teachers through the years had managed to instill in him the belief 
that he was stupid because he couldn't sit still in class. His recourse 
was to try to position himself as a ``bad boy,'' and he was able to 
indulge that fantasy to the extreme in the toxic social environment 
that children encounter in the Bay Area. I had to get him out of there 
and away from all the terrible peer pressure.
    My son spent 10 weeks in a Wilderness Program where he was able to 
detoxify his body, start to explore his behavior and motivations, and 
develop tremendous pride in his ability to ``bust'' a fire and move 
through the mountains without leaving a trace. He then spent a year at 
an emotional growth boarding school where he was enveloped in a loving 
culture far from the influences of TV, video games, gangsta rap, drugs, 
and negative peer pressure. He developed respect for his own intellect 
and started to do very well in his academic classes. He also learned to 
cook for the school, fell trees and remove tree stumps, care for the 
farm animals, sew clothes, cross-country and telemark ski, and numerous 
other skills that he never would have developed in the fast-paced, 
self-indulgent Bay Area.
    Our path was not a straight one. My son was not ready to give up 
his old image that easily, so he ended up back at Wilderness for 
another 10 weeks, and then attended a residential treatment center for 
about a year. He was finally able to leave the world of programs to 
attend his senior year at a more traditional boarding school, and he 
excelled. He is now enrolled as a freshman in the business school of a 
California university and is eager to get on with his life. He also 
believes that he has been fortunate to develop more emotional skills 
and maturity than any of his peers.
    The programs my son attended, along with the vast majority of 
wilderness programs, therapeutic emotional growth boarding schools, and 
residential treatment centers, are professional, experienced, ethical, 
and extremely valuable to children and families in crisis. As in our 
case and many others, they save lives and families. My son continues to 
tell me that he would be dead by now if I hadn't sent him away.
    I am extremely concerned that the problems of a few programs might 
result in harm to the majority of them because of legislative over-
reaction and heavy handedness. Harm to the programs will result in harm 
to the families that depend on them. Bad or unnecessary legislation 
will result in:
    <bullet> Higher costs and loss of resources to administrative 
functions. These programs are already extremely costly and present 
significant financial hardship to the families that rely on them. If 
they were to become more expensive due to unecessary bureaucracy, many 
families would find them completely unaffordable, and many children 
would be at risk.
    <bullet> The lumping of successful and ethical schools with abusive 
fringe programs.
    <bullet> Sensationalism that will further stigmatize the parents 
and children who have benefited so significantly from these programs. 
Most of us have had little support from our family and friends in this 
process because they just don't get it--they haven't had to live with 
our troubled children, and they don't understand what these kids need 
to get better.
    I understand the current hearings are based, in part, on a report 
requested by you and issued by the Government Accountability Office, 
entitled ``Residential Treatment Programs: Concerns Regarding Abuse and 
Death in Certain Programs for Troubled Youth.'' It should be noted that 
many of the cases cited in the report are over 10 years old. States 
have been and are currently adopting oversight and safety standards in 
response to these and other cases. This issue is a state's rights (10th 
Amendment) issue: the states should retain the authority to regulate 
such programs as each state feels is appropriate. The concerns are 
already being dealt with responsibly at the state level so no federal 
government action should be needed at this time.
    In conclusion, I am asking that your Committee defer from drafting 
a bill until complete due diligence is done and the complete impact of 
the entire situation is known. Children's lives are at risk if you make 
these programs less affordable and accessible. We need them.
            Sincerely,
                                           Barbara B. Kamm,
                                                     Los Altos, CA.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My son and our family were the grateful recipients of the highly 
professional services of a therapeutic boarding school and a wilderness 
program.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until complete due diligence is done on the complete 
impact of the entire situation, which is your responsibility, is known.
            Sincerely yours,
                                    Seth Finklestein, M.D.,
                                      Biotrofix, Inc., Needham, MA.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers. There must be a distinction drawn 
between the types of programs that any new law would cover. The 
radical, 60 Minutes type of hysteria of the yelling and screaming drill 
instructor is far different than the type of program my daughter 
experienced during her seven weeks spent in wilderness and then 
eighteen months at her boarding school.
    My daughter and our family were the grateful recipients of the 
highly professional services of a therapeutic boarding school and a 
wilderness program. The program is a highly successful emotional 
growth, therapeutic boarding school that provided a miracle by allowing 
my child to become a happy, resilient, contributing member of society. 
Many methods were employed to achieve this result, the greatest of all 
was learning to trust in a very loving encouraging atmosphere. No 
`military' tactics were ever allowed, it was not consistent with the 
founders vision.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until complete due diligence is done on the complete 
impact of the entire situation, which is your responsibility, is known.
                                            Howard L. Page,
                                   Residential & Commercial Broker.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    Our daughter and our family were the grateful recipients of the 
highly professional services of a therapeutic boarding school and a 
wilderness program. Our daughter, outside her past environment, has 
matured. She is now able to articulate her feelings and addressed many 
issues that were preventing her from being the whole and beautiful 
young woman, and better citizen, that she is now. This has changed our 
lives. If there were more attention being paid to the local public 
schools in our country, many of these problems would be lessened for 
sure.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families. The word 
``professional'' is key here. The professional schools are not the 
problem. They do not need the burden of beuracracy and they need to be 
subsidized, if anything.
    I am extremely concerned if problems of a few, and scattered, 
results in harm to the majority, that is doing good. So, I am 
requesting that your Committee defer from drafting a bill until 
complete due diligence is done on the complete impact of the entire 
situation, which is your responsibility, is known. STOP THE DRAFTING OF 
THIS BILL.
    Don't burden the parents and programs that are professional and 
well respected.
    I am a California resident, a citizen, a voter and a caring parent 
(who has to struggle with this issue, in large part, because of the 
abysmal public schools!).
            Very sincerely yours,
                                           Bill Smitrovich.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    Our son's life was saved by the Wilderness Program and following 
that, the emotional growth boarding school he attended. He went from 
being a child lost, on his way to certain death via drugs and alcohol 
(at the base of this behavior--low self-esteem) to a happy, productive, 
amazing young man who will contribute greatly to our society.
    We understand that there are programs that are unethical and can be 
abusive to children. This was our greatest fear in sending our son 
away. We did maniacal research on schools and while were fortunate to 
have found safe and beneficial environments, we certainly read about 
unethical facilities in business to profit from the tragedies and 
desperation of families in crisis. We are in complete agreement that 
these facilities should be closed. However, widespread legislation that 
forces the places that are helping our children, would be devastating.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. I can't imagine 
where we would be if we hadn't found such a place.
    It is vital that the schools that do help our youth are not 
negatively impacted by this bill. I am requesting that your Committee 
defer from drafting a bill until complete due diligence is done on the 
complete impact of the entire situation.
    I am happy to share our story and have attached a presentation that 
discusses the impact that low self-esteem can have on individuals and 
how powerful the change can be when they are in a safe, nurturing 
environment, with people who know how to deal with these issues. Please 
feel free to call us if you would like further information.
            Regards,
                                   Shelly and David Seeger,
                                                     Symantec Corp.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    Our daughter and our family were the grateful recipients of the 
highly professional services of a wilderness program and a therapeutic 
emotional growth boarding school from September 2005 through June 2007. 
Our daughter, who had previously been an honor student and positively 
active teen, reacted to a boyfriend breaking up with her by slipping 
into depression and trying to ease those feelings with dangerous 
behaviors around alcohol, sexual promiscuity, and drugs. During a 
turbulent downward spiral the summer of '05, she grew angry and defiant 
and in August ran away to California. We found her 9 days later and 
brought her home, but she believed her life was over and was intent on 
destroying herself. We understood that we needed to take action for our 
daughter and we sought out the help of an educational consultant who 
helped us to select the right wilderness program for our daughter (she 
was there for 9\1/2\ weeks) and also the emotional growth boarding 
school where she enrolled in November 2005 and from which she graduated 
in June 2007. These programs saved her life and our entire family has 
benefited from the experiences The emotional growth school she attended 
is founded on the values of honesty and love. We/she wish that all 
students could grow and flourish in the positive environment that her 
emotional growth school provided and continues to provide. (Yes, she 
went back to visit over Labor Day and stays in contact with both staff 
and other students from the school.) Our daughter is now a freshman at 
University of Colorado--Colorado Springs and is pursuing a degree in 
psychology which will allow her to work with troubled teens and ``give 
back''.
    While there are some less than desirable programs/schools, the vast 
majority of therapeutic emotional growth boarding schools and 
wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families. The current expense 
structure was a significant hurdle for us but we found a way through a 
second home equity loan to pay for the help our daughter needed. These 
costs are already extremely high and it is wrong to put more 
bureaucratic cost onto the backs of parents when it is not needed. 
Please find a way to bring the poorly run programs into line without 
adding cost to programs that are well run and extremely effective in 
saving/changing lives.
    I am concerned that your committee will let problems with a few 
programs/schools result in harm to the majority of well run and 
effective programs/schools. I am requesting that your committee defer 
from drafting a bill until complete due diligence is done on the 
overall impact of the entire situation. It is your responsibility to 
act with complete knowledge and not with a partial understanding of the 
``sensational'' situations that are in the minority but get all the 
media attention and coverage. Please take into consideraton what 
federal legislation will do to the majority of programs, such as the 
ones our family experienced. Our daughter will tell you that they 
``saved my life''.
            Sincerely,
                                           Debra R. Bryant,
                                                      Monument, CO.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: We are requesting that the following comments 
be placed on the Official Record regarding the October 10, 2007 House 
Committee on Education and Labor hearing on ``Cases of Child Neglect 
and Abuse at Private Residential Treatment Facilities''.
    Our daughter completed a 2 month wilderness program and is 
currently enrolled in a therapeutic boarding school. Prior to enrolling 
her in these programs we were keenly aware of, and were very concerned 
about of mistreatment in such programs.
    Of course, we wanted to ensure that our daughter was placed in an 
environment that was, first and foremost, safe and one where she would 
receive the type of care she and our family needed to get our lives 
back on track. We conducted extensive research and engaged with an 
educational consultant to assist us in our search.
    We learned that there is a broad range of programs which may be 
referred to as ``Residential Treatment Facilities''. We were convinced 
that the vast majority of wilderness programs and therapeutic boarding 
schools which we investigated are professionally run, experienced, 
ethical and, most important extremely valuable to children and families 
such as ours. Such programs have saved lives and families.
    We are happy to report that our daughter has made remarkable 
progress as a direct result of the outstanding care and treatment she 
has received in both the wilderness program and the therapeutic 
boarding school.
    We agree that there is a need to put an end to all mistreatment but 
we believe this may only occur at only a small percentage of wilderness 
and residential treatment programs and it is not clear that 
mistreatment at residential treatment facilities is on the rise or 
decline. We are extremely concerned that increased regulation, aimed at 
addressing the problems of a few, could become intrusive and harmful to 
many reputable programs and affected families such as ours.
    We believe it is the committee's responsibility, as it is ours as 
parents, to do what is in the best interest of our children and for our 
families. We hereby request that your Committee refrain from drafting 
legislation or taking any action until due diligence is done to more 
completely assess the situation.
            Respectfully yours,
                                  Richard and Diane Scheno,
                                                       Fremont, CA.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My daughter and our family were the grateful recipients of the 
highly professional services of a residential treatment center and a 
wilderness program in Utah.
    Our 15 year old daughter had become practically non-functional due 
to emotional issues. We had a team of therapists and doctors here at 
home working with her but it was only when she went to a wilderness 
program that we started to see real progress. After wilderness, she 
went to a residential treatment center where she got the care and 
support of an amazing therapeutic team. It is here that she learned the 
skills needed to cope with her emotional problems; it was here that 
real and lasting change was made.
    These two programs saved our daughter's life. Many of the 
therapists and counselors who work at these programs are performing 
miracles every day, changing the lives of so many troubled teenagers.
    While reading the GAO's report of abuse at some facilities is 
heartbreaking, I believe that the vast majority of residential 
treatment centers, therapeutic boarding schools and wilderness programs 
are professional, experienced, and ethically run. I also believe that 
continued regulations and oversight are critical for the safety of the 
residents in the programs. However, I hope that the problems caused by 
a few will not result in harm to the over all industry.
    These facilities provide a much needed level of service for so many 
families in crisis. Please don't throw the baby out with the bath 
water.
    I am respectfully requesting that your Committee defer from 
drafting a bill until an assessment of the entire situation is done.
            Sincerely,
                                     Ann and Phil Sheridan,
                                                      San Jose, CA.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: As a lifelong democrat and former constituent 
from the East Bay, I always supported your efforts and hope you will 
continue to reward my faith. I have some concerns regarding the October 
10, 2007 House Committee on Education and Labor hearing on cases of 
child abuse and neglect at residential treatment centers. I am 
requesting that my comments be placed on the Official Record regarding 
this hearing.
    Our daughter and our family were the grateful recipients of the 
highly professional services of a therapeutic boarding school and a 
wilderness program beginning in 2005. Our daughter had previously 
fought severe depression and low self-esteem which lead her into self-
destructive behavior. After years of therapy and even moving to a rural 
environment in a new state, my wife and I became desperate. We took 
what we believed to be a huge step and enrolled her in a wilderness 
program followed by a therapeutic boarding school. We found both 
programs to be highly professional and rewarding. Our daughter turned 
18 while attending the boarding school, and stayed on another 9 months 
of her own choice as an adult in order to graduate. She is now living 
at home, attending college full time and working part time. Those 
programs saved our daughter and positioned her to thrive.
    The vast majority of therapeutic emotional growth boarding schools 
and wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned that problems with a few abusive programs 
may result in harm to the majority of programs. So, I am requesting 
that your Committee defer from drafting a bill until complete due 
diligence is done to thoroughly explore the residential treatment 
situation and how legislation might effect the good ethical programs as 
well as the bad. I agree that abusive programs must be ``cleaned up'' 
as quickly as possible, but I hope you can find a way to do that 
without encumbering the beneficial programs with unnecessary 
bureacrasy, while burdening the families with added costs.
    I wish you well in your efforts.
            Sincerely,
                                                Pete Small,
                                                    Ridgefield, WA.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: We are requesting that these comments be 
placed on the Official Record regarding the October 10, 2007 House 
Committee on Education and Labor hearing on cases of child abuse and 
neglect at residential treatment centers.
    Our son and our family are the VERY grateful recipients of the 
highly professional services of a residential treatment center (RTC) 
and a therapeutic wilderness program. We are quite sure that without 
the assistance of the professionals at the RTC and the amazing 
therapist he worked with in wilderness, he would be part of the 
juvenile system and most likely, hopelessly addicted.
    We believe our story is typical for a child without underlying 
mental illness. The short version is that our son started to experiment 
with marijuana with his friends at about the age of 14. In his freshman 
year, his grades nose dived; he was using more and a greater variety of 
readily available street drugs. Out patient therapy was ineffective in 
getting the behavior under control. We dug into our retirement funds to 
send him to a non-therapeutic boarding school that offered ``success 
through structure.'' Unfortunately, that school enrolled a large group 
of adolescents that really needed a therapeutic environment because 
they had serious drug use and behavioral issues. Many of those children 
got worse, not better. The result for our child is that he used more 
drugs more frequently, despite the punishment of longer and longer 
detention and more severe campus restrictions, and he began to get in 
trouble with the authorities. He was arrested twice--once for assault 
and once for minor in possession. The frightening thing for us was that 
we could tell that he was scared and he was trying to change, but he 
couldn't * * * he didn't have the skills and by this time, he was not 
only scared, but angry and defiant. As parents, we knew that at the 
young age of 16, he was on the verge of making decisions that would 
have negative, life changing consequences.
    We decided to send him to a Wilderness Therapy program that came 
highly recommended by our educational consultant * * * we hired ed 
consultants because we realized that doing it on our own had led us to 
the first bad choice for placement. The wilderness program we used 
operates in the Blue Ridge Mountains and undoubtedly uses Federal 
lands. His initial reaction was to try to run and he resisted for about 
2 weeks. But, then he finally ``worked the program.'' The program in 
this case was to help him reconnect with his old self, to become sober, 
to understand his anger and motivations and to become open to change. 
He was guided in this journey by a wonderful therapist with over 25 
years of experience in working with adolescents. It was hard for him, 
but he was never in danger physically. We realize wilderness therapy 
isn't for every kid, but his personnel growth during that period was 
phenomenal. In his own words, it was the ``best worst thing I ever 
did'' and he thanked us for sending him.
    We followed wilderness therapy with a private and well respected 
Residential Treatment Center in Utah (for this we have remortgaged our 
home). He is thriving. He has the guidance of a skilled therapist, is a 
leader among the other teen boys (strong positive peer culture 
environment); he is working a 12-step program to deal with addiction 
issues, his health has improved and his grades are up. Again he has 
thanked us. On the home front, we are participating in family therapy 
with him and with our other children to shore up our parenting skills 
and the extra skills we will need to support him when he is back. We 
are working toward bringing him home early next year.
    Prior to hearing about your inquiry at the Committee level, we had 
considered writing to our congressional representatives (Blumenauer, 
Smith and Wyden) to urge them to help families pay for this kind of 
life saving intervention. Our insurance (Federal Employee Program 
through Blue Cross Blue Shield) categorically excludes residential 
treatment and wilderness. The result is that we have sacrificed 
retirement and home equity. But we feel fortunate that we had those 
resources to tap into. Most families that we talk to who are also using 
these programs make these same sacrifices to afford the care their 
child needs. Many families cannot afford it and their children are at 
the very least jeopardizing their health and future, if not filling up 
juvenile detention facilities and jails. We ask that you avail 
yourselves to recent studies on the successful outcomes of children 
placed in well run private RTCs, therapeutic boarding schools and 
wilderness programs. Take input from juvenile probation officers and 
others in law enforcement, most of whom consider these interventions as 
positive alternatives to the juvenile court system.
    We realize there has been a virtual boom in the adolescent 
treatment industry and with that has come the establishment of some 
disreputable and unsafe places that prey on families in crisis. Our 
hearts ache for the parents that have lost children while trying to 
save them. Still, you must find a way to support the work of 
residential treatment centers, therapeutic emotional growth boarding 
schools and wilderness programs that are run by professionals, who are 
experienced, ethical and extremely valuable to the recovery of children 
and their families. As in our case and many others, they save lives and 
families.
    We are extremely concerned that the problems with a few bad 
programs will result in harm to the majority. So, we are requesting 
that your Committee defer from drafting a bill until complete due 
diligence is done and the entire situation is known.
    Thank you for considering and including our comments.
            Very respectfully yours,
                          Sheryl Carrubba and Mark McClure,
                                                      Portland, OR.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    My son and our family were the grateful recipients of the highly 
professional services of a residential treatment center and a 
wilderness program. We want you to know that at no time in either 
wilderness or RTC was there anything remotely close to physical abuse.
    This is our son's story:
    By April, 2006 our 16 year old son was severely depressed, thought 
he was worthless and was failing in school--and had started self-
medicating with a wide range of drugs. We were lucky in that our family 
has always gotten along with each other and had open communications. As 
parents, we did all we could and still his situation continued to 
worsen. We simply did not have the tools, knowledge or skills to help 
him. It was only a matter of time before he would be in jail or dead. 
And he didn't care.
    We did an intervention and sent him to a wonderful wilderness 
program. Two months in the Utah desert helped a lot, but he was still 
not ready to come home. Although he was now clean, he still hadn't done 
the hard work to look deep within himself to change his way of life and 
learn the tools that could help him do that. It took 10 months in a 
residential treatment center for him get his life in order. The RTC 
staff was demanding, but also loving and kind.
    Today our son is a mature young man who has been clean and sober 
for 18 months. He is happy, confident and looking forward to going to 
college to become a therapist in order to give other at risk kids a 
reason to live.
    He went back to his wilderness program this past summer as a 12-
step volunteer in order to help kids that were like him 18 months ago. 
He's been invited to work there next summer because of the positive 
impact he had on the kids.
    The vast majority of residential treatment centers, therapeutic 
emotional growth boarding schools and wilderness programs are 
professional, experienced, ethical and extremely valuable to children 
and families in crisis. As in our case and many others, they save lives 
and families.
    I am extremely concerned if problems with a few result in harm to 
the majority. So, I am requesting that your Committee defer from 
drafting a bill until complete due diligence is done on the complete 
impact of the entire situation, which is your responsibility, is known.
            Sincerely,
                            Barbara Damm and John McKinney,
                             6th California Congressional District.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: Our daughter and our family are recipients of 
the highly professional services of a therapeutic boarding school and a 
wilderness program.
    Lindsey was fourteen years old when we decided that she could no 
longer live at home with us without being a danger to herself. Lindsey 
did not want to abide by our rules and no matter the warnings, 
consequences, etc. she did not take us seriously. She was drinking, 
smoking marijuana and behaving in a manner that was totally out of 
control. We hired an educational consultant and by interviews 
determined that Lindsey needed to experience being at a Wilderness camp 
and then on to some type of boarding school. Lindsey stayed at the 
wilderness camp for ten weeks and in those weeks she began to slowly 
recognize her lack of self esteem and self confidence that led to her 
negative choices. The hard work both emotional and physical was 
facilitated by a highly competent and caring staff and therapist who 
believed in Lindsey. Although at the end of ten weeks strides of 
improvements were made we all knew that she was not ready to come back 
home. Lindsey is now enrolled at an emotional growth treatment school 
run by a team of administrators, teachers, staff and qualified 
therapists where she is being positively challenged to be accountable, 
honest, loving and vunerable in academics, emotional issues and 
physical abilities. It is good, hard work for her. As her parents, we 
are also challenged to do our part to improve our communication and 
relationship with each other. We are committed to this school for 
helping us navigate through a process of growth which ten months ago 
looked bleak.
    Families like ours are extremely grateful for these types of 
options such as wilderness camp and emotional growth/residential 
treatment facilities. This is why we are extremely concerned that 
problems with a few such facilities (such as neglect and abuse) result 
in harm to the majority. We are requesting that your Committee defer 
from drafting a bill until complete due diligence is done on the entire 
situation and results are known.
    We are requesting that our comments be placed on the Official 
Record regarding the October 10, 2007 House Committee on Education and 
Labor hearing on cases of child abuse and neglect at residential 
treatment centers.
            Sincerely,
                                  Kurt and Arlene Bosshard,
                                                         Kapaa, HI.
                                 ______
                                 
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am requesting that these comments be placed 
on the Official Record regarding the October 10, 2007 House Committee 
on Education and Labor hearing on cases of child abuse and neglect at 
residential treatment centers.
    Our son and our family were the grateful recipients of the highly 
professional services of a therapeutic boarding school and a wilderness 
program. Our son had started on a downward spiral in his sophomore year 
of high school, smoking marijuana and not doing his school work. He 
ended that year using a multitude of different drugs and binge-drinking 
alcohol. After desperately exploring what options were available to us, 
we heard from a friend of the family about a wilderness program that 
had saved his daughter's life. We worked with an educational consultant 
whom the friend recommended and chose the same wilderness program. This 
program was run in a caring and conscientous manner, and their 
counselors and staff are outstanding. Our son ended up liking the 
program and learned much about himself. He is even considering working 
there when he graduates from high school. He is now enrolled in an 
emotional growth/therapeutic boarding school. Whereas the wilderness 
program is the first step in taking a young person out of an unhealthy 
environment, the therapeutic boarding school provides a deep learning 
of healthy habits and cements them in an 18-month program. The program 
involves the whole family in this learning process. I can unequivocally 
say that this experience has saved our son's life!
    I have met and spoken with numerous other parents whose children 
have attended similar programs. They all had excellent experiences and 
were extremely grateful that those options are available. The vast 
majority of therapeutic/emotional growth boarding schools and 
wilderness programs are professional, experienced, ethical and 
extremely valuable to children and families in crisis. As in our case 
and many others, they save lives and families.
    I am extremely concerned if problems with a few programs result in 
harm to the majority. So, I am requesting that your Committee defer 
from drafting a bill until complete due diligence is done and the 
complete impact of the entire situation is assessed.
            Sincerely,
                                              Inge Jechart,
                                                    Pleasanton, CA.
                                 ______
                                 
    [Questions for the record submitted to Dr. Pinto follow:]

                             Congress of the United States,
                                  Washington, DC, October 15, 2007.
Allison Pinto, Ph.D., Complexity Research & Development,
Children's Board of Hillsborough County, Tampa, FL.
    Dear Dr. Pinto: Thank you for testifying at the October 10, 2007 
full Committee hearing, ``Cases of Child Neglect and Abuse at Private 
Residential Treatment Facilities.'' Enclosed are the questions which 
Committee members have asked you to respond for the record. Please send 
an electronic version of your written response (in Word format) to the 
Committee staff by COB on Wednesday, October 24, 2007--the date on 
which the hearing record will close. If you have any questions, please 
contact us. Once again, we greatly appreciate your testimony at this 
hearing.
            Sincerely,
                                   George Miller, Chairman.

    Representative Robert Scott (D-VA), has asked that you respond in 
writing to the following questions:
    1) Do ``tough love'' strategies have an appropriate treatment role 
for major psychological disorders? If so, what is that role?
    2) Is there currently an obligation for mental health professionals 
who recommend these programs to clients to ascertain their safety and 
validity as a treatment option?
    3) Is there currently any requirement that other treatment options 
be utilized to address a child's behavioral issues before sending them 
to such a center?
                                 ______
                                 
    [Questions for the record submitted to Mr. Kutz follow:]

                             Congress of the United States,
                                  Washington, DC, October 15, 2007.
Gregory D. Kutz, Managing Director,
Forensic Audits and Special Investigations, GAO, Washington, DC.
    Dear Mr. Kutz: Thank you for testifying at the October 10, 2007 
full Committee hearing, ``Cases of Child Neglect and Abuse at Private 
Residential Treatment Facilities.'' Enclosed are the questions which 
Committee members have asked you to respond for the record. Please send 
an electronic version of your written response (in Word format) to the 
Committee staff by COB on Wednesday, October 24, 2007--the date on 
which the hearing record will close. If you have any questions, please 
contact us. Once again, we greatly appreciate your testimony at this 
hearing.
            Sincerely,
                                   George Miller, Chairman.

    Representative Robert Scott (D-VA), has asked that you respond in 
writing to the following questions:
    1) What percentage of youths attending these programs are 
minorities?
    2) Will or can the GAO report disaggregate the deaths/abuses being 
investigated by the reason the individual is in the program and whether 
the individual is taking psychotropic medication?
    3) Is there currently an obligation for mental health professionals 
who recommend these programs to clients to ascertain their safety and 
validity as a treatment option?
    4) Is there currently any requirement that other treatment options 
be utilized to address a child's behavioral issues before sending them 
to such a center?
                                 ______
                                 
    [Questions for the record submitted to Ms. Moss follow:]

                             Congress of the United States,
                                  Washington, DC, October 15, 2007.
Jan Moss, Executive Director,
The National Association of Therapeutic Schools and ProgramsThe 
        National Association of Therapeutic Schools and Programs, 
        Prescott, AZ.
    Dear Ms. Moss: Thank you for testifying at the October 10, 2007 
full Committee hearing, ``Cases of Child Neglect and Abuse at Private 
Residential Treatment Facilities.'' Enclosed are the questions which 
Committee members have asked you to respond for the record. Please send 
an electronic version of your written response (in Word format) to the 
Committee staff by COB on Friday, November 2, 2007. If you have any 
questions, please contact us. Once again, we greatly appreciate your 
testimony at this hearing.
            Sincerely,
                                   George Miller, Chairman.

    Representative Robert Scott (D-VA), has asked that you respond in 
writing to the following questions:
    1) What mechanism is in place to deal with circumstances where your 
members have self-certified that they are abiding by NATSAP's ethics 
and good practices standards when they are in fact not in compliance 
with these standards?
    2) Dr. Pinto testified that she has collected 700 concerns on 
residential treatment centers over 6 months, while NATSAP has 
investigated less than 5 claims against its members. Can you please 
explain the discrepancy in these numbers?
    3) Is there currently any requirement that other treatment options 
be utilized to address a child's behavioral issues before sending them 
to such a center?
    Chairman George Miller respectfully request that you respond to the 
following questions:
    1) What is NATSAP's policy regarding the use of its logo by 
members. For example, are there any restrictions for using the NATSAP 
logo on marketing materials and websites? Are NATSAP members using the 
NATSAP logo required to disclose that use of the NATSAP logo does not 
represent endorsement by NATSAP of the safety, quality, or 
effectiveness of the members' program.
    2) Ms. Moss indicated that NATSAP will research complaints or 
reports of alleged misconduct by members. What procedures are in place 
for reporting misconduct to NATSAP? Are reporting procedures 
documented? Does NATSAP make its reporting procedures widely available, 
for example on its website? Do members have a duty, arising from their 
membership, to report any misconduct to NATSAP that violates NATSAP's 
Ethical Principles or Principles of Good Practice? How many complaints 
or reports of misconduct has NATSAP received since its formation, and 
what steps were taken to research such complaints or reports of 
misconduct.
    3) Ms. Moss indicated that NATSAP researched at least one instance 
where a complaint was made regarding a member's website. Please 
describe the complaint, the actions taken by NATSAP, the corrective 
actions taken by the member; and provide the identity of the member.
    4) What actions does NATSAP intend to take in light of the 
testimony given by the U.S. Government Accountability Office regarding 
the Alldredge Academy's delinquency in remitting permit fees to the 
federal government? Is operating on federal land without a valid permit 
a violation of NATSAP's Ethical Principles or Principles of Good 
Practice?
    5) NATSAP hosts national and regional conferences to foster the 
professional development of its members. Have any of these conferences 
ever included lectures, workshops, presentations or discussions 
concerning cases of abuse, neglect, mistreatment, or death of children; 
what led to these horrific tragedies; what needs to change; and what 
NATSAP members need to do in response?
    6) NATSAP's new membership requirements mandate that members be 
licensed by an appropriate state mental health agency, or accredit by a 
reputable mental health accreditation organization. On what basis is an 
accreditation organization deemed to be ``reputable?''
    7) Please provide a chart showing the year in which each NATSAP 
member joined NATSAP, or lost its membership due to expiration or 
revocation.
    8) It is our understanding that the NATSAP board is primarily 
comprised of individuals associated with member programs. Given that 
NATSAP researches and acts upon complaints against members when they 
are reported to NATSAP, please describe NATSAP's policy regarding 
conflicts-of-interest for its board members. For example, are board 
members required to recuse themselves on matters before the board when, 
by virtue of their affiliation with a particular member, their judgment 
may be prejudiced in fact or in appearance?
    9) Recent reports indicate that a NATSAP member, Youth Care, Inc., 
has been placed on probation by the Utah Department of Human Services 
and that criminal neglect charges have been filed against this member 
due to the death of a child. Youth Care, Inc. uses the NATSAP logo on 
its website to promote their program. Given these reports and the use 
of the NATSAP logo by this member, what steps does NATSAP intend to 
take to research reports of criminal neglect on the part of Youth Care, 
Inc.?
    10) Aspen Education Group, which owns Youth Care, Inc., also 
operates Aspen Achievement Academy, another NATSAP member. Aspen 
Achievement Center is currently being investigated for a teen's 
attempted suicide. While local authorities conduct a thorough 
investigation, what does NATSAP do to ensure the safety of the students 
placed in its member facilities?
                                 ______
                                 
    Chairman Miller. Before proceeding to introduce our 
witnesses, let me lay out the process we follow generally in 
investigative hearings specific to this hearing.
    An investigative hearing differs from a legislative or 
oversight hearing in that the investigations may involve 
allegations that public officials acting in their official 
capacity or private citizens or entities have engaged in 
certain conduct that may suggest the need for a legislative 
remedy. Because of the importance of getting complete, full and 
truthful testimony, witnesses at investigative hearings before 
the committees of Congress are sworn in, and our witnesses will 
be sworn today.
    I understand that some witnesses, as is their right, may be 
accompanied by counsel. While counsel are welcome to advise 
their clients, they may not coach them or answer questions on 
their behalf. House Rule 11 2(k)4 authorizes the chairman of 
the committee to ``punish breaches of order and decorum and 
professional ethics on the part of counsel by censure or 
exclusion from hearings, and the committee may cite the 
offender to the House for contempt.''
    I will not tolerate any tactics designed to disrupt the 
purposes of this hearing, and I must say I do not expect any.
    To ensure that we have ample opportunity to flesh out the 
relevant facts for the record, I have exercised my prerogative 
as chair, pursuant to Committee Rule 2(b), to extend the 5-
minute rule for myself and for Mr. McKeon. Following the 
witnesses' testimony, we will each engage in one round of 15-
minute questionings and then go to the other members of the 
committee under the 5-minute rule.
    I would like now to introduce our panel of witnesses.
    Mr. Greg Kutz is currently the managing director of GAO's 
Forensic Audits and Special Investigations unit. Mr. Kutz has 
testified and written investigative reports about the federal 
governments' handling of Hurricanes Katrina and Rita and 
military pay problems in Department of Defense and the 
smuggling of nuclear materials across our nation's borders, 
among other important issues.
    He will be accompanied by Mr. Andy O'Connell, who is the 
assistant director for investigations at the GAO.
    Mr. Paul Lewis is the father of Ryan Lewis, who died in 
2001.
    Ms. Cynthia Harvey is the mother of Erica Harvey, who died 
in 2002.
    Mr. Bob Bacon is the father of Aaron Bacon, who died in 
1994.
    Ms. Jan Moss is the executive director of the National 
Association of Therapeutic Schools and Programs created in 
January of 1999. NATSAP is a 501(c)6 not-for-profit trade 
association that represents therapeutic schools, residential 
treatment programs, wilderness programs and other similar 
programs.
    And finally, Dr. Allison Pinto is a clinical child 
psychologist and research assistant professor at the Florida 
Mental Health Institute at the University of South Florida 
where she coordinates A START, which is Alliance for Safe 
Therapeutic and Appropriate Use of Residential Treatment. Dr. 
Pinto has coordinated public awareness and advocacy efforts 
relating to the mistreatment of children in private and 
unregulated residential treatment facilities. She also serves 
as a principal investigator of a qualitative study regarding 
experience of youth and families who have participated in the 
residential treatment programs.
    For those of you who have not testified, first, let me 
welcome you all to the committee and explain that we will have 
a lighting system. When you begin your testimony, there will be 
a green light, which is on the table, which will give you 5 
minutes to testify. When you see the yellow light, it means you 
roughly have 1 minute in which to sum up your testimony. And 
with the red light, your time is expired, although we certainly 
want you to conclude your testimony in a fashion so you have 
properly conveyed those thoughts at that time.
    And let me remind you that you have to turn on the 
microphones in front of you.
    Before we move on to the testimony, if each of you would 
stand and raise your right hand for the purpose of being sworn 
in.
    Do you swear that the testimony that you are about to give, 
that you will tell the truth, the whole truth and nothing but 
the truth?
    Let the record show the witnesses have answered in the 
affirmative.
    Please be seated.
    We will now hear from our first witness, Mr. Kutz of the 
GAO.
    Welcome.

STATEMENT OF GREG KUTZ, MANAGING DIRECTOR, FORENSIC AUDITS AND 
 SPECIAL INVESTIGATIONS UNIT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Kutz. Mr. Chairman and members of the committee, thank 
you for the opportunity to discuss residential treatment 
programs for youth.
    There are many who claim positive outcomes for troubled 
youth at these programs. At the same time, there are widespread 
allegations of death and abuse. My testimony today addresses 
these allegations.
    My testimony has two parts: first, some background on the 
scope of our work; and, second, the results of our work.
    First, since at least the early 1990s, hundreds of 
residential treatment programs have been established across the 
United States. There is no standard definition of these 
programs and no way to know how many exist. There are no 
federal laws that regulate private programs. However, some 
states have statutory regulations that require licensing.
    Common names for these programs include boot camps, 
boarding schools and wilderness programs. The first poster 
board shows examples of wilderness program settings which are 
typically in the mountains, the forest or the desert. The 
second poster board shows first the restrictive nature of some 
of these programs which you can see by the fencing and the 
cameras and, second, the military theme of other programs.
    All of these programs offer in some way to reform the lives 
of very troubled youth.
    The purpose of our work was to address allegations of death 
and abuse at these programs. Our focus was on private programs. 
However, our overall analysis of the extent of death and abuse 
included both public and private programs. It was beyond our 
scope to evaluate the benefits of residential treatment 
programs.
    Moving on to the results of our work, we identified 
thousands of reported cases of death and abuse at these 
programs. Sources of these allegations include HHS, state 
agencies, the Internet and pending and closed civil and 
criminal lawsuits.
    Allegations include physical, emotional and mental abuse. 
Examples of abuse include: youth being forced to eat their own 
vomit; denied adequate food; being forced to lie in urine or 
feces; being kicked, beaten and thrown to the ground; and being 
forced to use a toothbrush to clean a toilet and then forced to 
use that toothbrush on their teeth.
    We took an in-depth look at 10 cases that were closed of 
teenagers that died between 1990 and 2004. Ineffective program 
management played a key role in most of these deaths.
    The next poster board shows four key themes from our case 
studies, which include untrained staff, misleading marketing 
practices, abuse before death and negligent operating 
practices. I will now use these case studies to discuss these 
four themes.
    First, we found program staff with little or no relevant 
training. In many cases, program managers and staff 
misinterpreted signs of treatable conditions, such as 
dehydration. As a result, many of these kids died slowly while 
program management and staff continued to believe that they 
were faking it. It seems the only way staff could be convinced 
that these kids were not faking it was when they stopped 
breathing or had no pulse.
    For example, in one case, a 16-year-old male exhibited 
significant signs of distress for nearly 3 weeks, including the 
loss of bodily functions. In 30 days, this 5-foot 10-inch boy 
dropped from 131 pounds to 108 pounds. Despite these warning 
signs, he was forced to continue hiking. There was no emergency 
response until he collapsed and stopped breathing. 
Unfortunately at this point, it was too late.
    In another case, a 14-year-old male was forced to sit in 
the 113-degree sun for hours. He began eating dirt due to 
hunger, became dehydrated and appeared to have a seizure. He 
was hauled in the back of a pickup truck to a motel where he 
defecated and vomited on himself. Staff then pressed his 
stomach and mud oozed out from the boy's mouth. They then 
cleaned him up, put him into the back of the pickup truck and 
took him back to the campsite. He died shortly after this in a 
hospital.
    Another 14-year-old male showed signs of excessive body 
temperature and heavy breathing, but staff assumed that he was 
faking it. Although the boy became unconscious, staff continued 
to believe that he was faking it. The final check was for staff 
to hide behind a tree for 10 minutes to see if this unconscious 
boy would actually revive himself. When the staff returned to 
the boy, there was no pulse, which finally triggered an 
emergency response. But, once again, it was too late.
    The second theme was misleading marketing practices. Many 
of these programs took advantage of desperate parents 
misrepresenting that their programs were a perfect fit for 
these kids' unique issues. For example, as shown on the poster 
board, one program brochure touted their staff as highly 
trained survival experts with experience that was unparalleled.
    However, these experts believed that a 15-year-old female 
who was not eating, and vomiting water, was faking it. These 
experts allowed these symptoms to go on for 2 days until the 
girl finally collapsed on the road and stopped breathing. These 
experts became so lost that they wandered into another state. 
Lacking radios, these experts had to build a fire to signal for 
help.
    The next poster board shows the body of this girl who lay 
dead on the road for 18 hours until help arrived.
    Another program marketed its expertise in handling suicidal 
youth to the parents of a 14-year-old male who had twice 
attempted suicide. This boy committed suicide 6 days into the 
program by hanging himself by his tent. The parents later found 
that there was no specific suicide expertise in this program. 
However, the staff were experts in whitewater rafting.
    Our third theme was abuse of these kids before they finally 
died. For example, a 14-year-old male was forced to wear black 
clothing and stand in direct sunlight for several hours during 
the day. Despite strenuous physical exertion, he was fed an 
apple for breakfast, a carrot for lunch and a bowl of beans for 
dinner.
    A 15-year-old male refused to return to a campsite after 
urinating. Although his refusal was not violent, two counselors 
forced him to the ground and held him face down in the dirt 
until he stopped struggling. One of the counselors was on top 
of this boy for 45 minutes. This boy died from a severed artery 
in his neck.
    Another 15-year-old male was dragged around when he was 
unable to exercise. As his condition deteriorated and he lost 
bodily function, he was forced to wear a 20-pound sandbag 
around his neck as punishment. The autopsy report for this boy 
showed 30 contusions and abrasions all over his body.
    As I am sure you will agree, there is no need for me to 
elaborate further on the fourth theme of these cases, the 
negligent and reckless operating practices of these programs.
    In conclusion, today's testimony reveals disturbing facts 
about the world of residential treatment programs. If you had 
walked in partway through my presentation, you might have 
assumed that I was talking about human rights violations in a 
Third World country. Unfortunately, these human rights 
violations occurred right in the United States of America.
    Mr. Chairman, I want to commend you for holding today's 
hearing and putting a spotlight on this important issue. I also 
want to thank the parents who represent three of our case 
studies for having the courage to testify about the tragic 
death of their child.
    Mr. Chairman, this ends my statement.
    [The prepared statement of Mr. Kutz and the GAO report, 
``Residential Treatment Programs: Concerns Regarding Abuse and 
Death in Certain Programs for Troubled Youth,'' may be accessed 
at the following Internet address:]

                http://www.gao.gov/new.items/d08146t.pdf

                                 ______
                                 
    [Responses to questions for the record from Mr. Kutz 
follow:]

                                                  October 24, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
Subject: Response to Post-hearing Questions on GAO-08-146T: Residential 
        Treatment Programs: Concerns Regarding Abuse and Death in 
        Certain Programs for Troubled Youth
    Dear Chairman Miller: On October 10, 2007, I testified before the 
House Committee on Education and Labor on the results of our 
examination of residential treatment programs. This letter provides a 
response for the record to the four follow-up questions submitted by 
Representative Robert Scott. His questions and our responses follow.
Question One
    What percentage of youths attending these programs are minorities?
Response to Question One
    Based on our research, complete information is not available. As I 
testified, there is no reliable comprehensive data source on public and 
private programs, so we cannot determine what the total number of 
children in these programs is or their gender, race, or other 
characteristics.
    However, as part of GAO's ongoing review of state oversight of 
public and private residential treatment programs for the Committee, 
GAO has found that information on juvenile offenders placed in various 
programs is available. Specifically, the Department of Justice through 
its Census of Juveniles in Residential Placement has race data on 
children held in various types of public and private residential 
placement facilities, including boot camps and ranch/wilderness 
camps.\1\ Those data show that, of almost 6,500 children under 21 held 
in boot camps and ranch/wilderness programs in 2003, the most recent 
year for which data are available, almost 35 percent (2,263) were 
black, almost 35 percent (2,257) were Hispanic, over 26 percent (1,714) 
were white, with American Indians, Asian/Pacific Islanders, and others 
accounting for the remaining 4 percent (252).
---------------------------------------------------------------------------
    \1\ Data are available from the Department of Justice's Office of 
Juvenile Justice and Delinquency Prevention (OJJDP) within the Office 
of Justice Programs. OJJDP's Web site provides access to a variety of 
statistics related to the juvenile justice system--see http://
ojjdp.ncjrs.gov/ojstatbb.
---------------------------------------------------------------------------
Question Two
    Will or can the GAO report disaggregate the deaths/abuses being 
investigated by the reason the individual is in the program and whether 
the individual is taking psychotropic medication?
Response to Question Two
    As part of GAO's ongoing review of state oversight of juvenile 
residential treatment programs, we are attempting to provide a range of 
information about oversight, including information on deaths and abuse 
at such facilities. This effort has entailed an extensive effort to 
survey state agencies involved in the oversight of children in such 
programs, including state departments of education, mental health, and 
juvenile justice. GAO plans to include information on the cause of 
death and maltreatment (abuse) in its upcoming report. However, 
obtaining information as to why children are in these programs or the 
number of children in these programs who are taking medication was 
outside the scope of our recent review. Although the U.S. Department of 
Health and Human Services sponsors a national data collection effort 
called The National Child Abuse and Neglect Data System (NCANDS) for 
tracking the volume and nature of child abuse reporting each year 
within the United States, state reporting of information to NCANDS is 
voluntary. Moreover, NCANDS does not report on information about why 
children are in residential treatment programs or whether they take 
medication.
Question Three
    Is there currently an obligation for mental health professionals 
who recommend these programs to clients to ascertain their safety and 
validity as a treatment option?
Response to Question Three
    The issue as to whether mental health professionals are obliged or 
required to determine the safety and validity of juvenile residential 
treatment programs to clients was beyond the scope of our work for the 
testimony. The issue of program safety is primarily under state, not 
federal, oversight and is being addressed by GAO's ongoing study 
regarding these programs. Our ongoing work focuses on treatment 
programs but does not cover individual mental health professionals. It 
also does not assess the validity of various treatment options, another 
complex topic that was beyond the scope of this work.
Question Four
    Is there currently any requirement that other treatment options be 
utilized to address a child's behavioral issues before sending them to 
such a center?
Response to Question Four
    The subject of child behavioral treatment options and assessing 
which ones are appropriate for a child are complex issues and, as such, 
were beyond the scope of our work for the testimony. This is also 
outside the scope of GAO's ongoing review of state oversight of 
juvenile residential treatment programs.
    If you have any further questions, or if you would like to discuss 
our response, please feel free to contact me.
            Sincerely yours,
                           Gregory Kutz, Managing Director,
                        Forensic Audits and Special Investigations.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Lewis?

         STATEMENT OF PAUL LEWIS, FATHER OF RYAN LEWIS

    Mr. Lewis. Chairman Miller and members of the committee, 
good morning.
    I am here today with my wife, Diana, and my daughter, Erin. 
The member of our family who is missing today is Ryan.
    Ryan lived his life to the fullest surrounded by his 
adoring friends and relatives. He was a Boy Scout, a Fire 
Explorer. He was an avid outdoor enthusiast. He enjoyed 
kayaking, hiking, camping and mountain biking. He read for 
hours and was a master at putting together complicated ship and 
airplane models. He was an all-American boy with sparkling blue 
eyes and a big smile that lit up his freckled face and our 
whole world.
    Ryan could weave an entertaining story and was oftentimes 
hilarious in his presentation. He had a remarkable way of 
relating to people of all ages and could draw anyone into a 
conversation on a variety of topics. He was sensitive to others 
and could articulate his views and feelings way beyond someone 
his age.
    He was a history buff and could match any adult 
conversation about World War II. In fact, one night, we met two 
World War II vets in a restaurant, and one remarked that Ryan 
knew more about the war than he did, but he had been there.
    With all of Ryan's extraordinary qualities, he sadly 
suffered from clinical depression. He was a brave and 
courageous person who battled the darkness valiantly. But as a 
family, we knew that we needed help from professionals and 
sought out help from clinical psychologists and a child 
psychiatrist. In addition, Ryan needed an integrative program 
where he could continue his schooling and receive therapy while 
being among his peers.
    After exhausting all local resources to help Ryan, we 
reached out to Steve Bozak, an education consultant. We 
provided him with all of Ryan's educational and medical 
records. Given Ryan's background, he strongly recommended a 
therapeutic wilderness program named Aldredge Academy in Davis, 
West Virginia. He told us this would be the safest place for 
Ryan. Ryan's psychiatrist, after speaking to the admissions 
department, also agreed that this might meet Ryan's needs.
    Educational and medical records were then sent. His 
detailed psychiatric information required an extensive 
application. We were very hesitant to send Ryan so far away, 
but the program's marketing was first class, appearing to be 
just what Ryan needed. Aldredge used Ryan's love of the 
outdoors as a selling tool. The admissions personnel repeatedly 
touted their professionalism and expertise with children who 
had the same psychiatric diagnosis as Ryan.
    On February 7, 2001, we enrolled Ryan where, again, we were 
assured by the program personnel that Ryan would be safe. We 
called every day to inquire about how Ryan was doing. We were 
assured that he was just fine.
    On February 13, only 7 days into the program, we were 
startled by a call at 11:15 at night. The news ripped through 
us like an explosion tearing us into a million pieces. L. Jay 
Mitchell, the owner of Aldredge Academy, informed us that Ryan 
had hung himself. He told us that there was no indication that 
Ryan was in trouble. It caught them all completely by surprise, 
and there was nothing they could have done.
    The next day, we flew to West Virginia and met with L. Jay 
Mitchell, John Weston White and Lance Wells who repeated the 
same story as the night before. The story did not make sense to 
me.
    The following day, we met with the investigating West 
Virginia state trooper who told us we were being lied to about 
the circumstances of Ryan's death. This news was like losing 
Ryan all over again. In his view, it was a death that could 
have been prevented.
    He told us that the night before Ryan died, he had slashed 
his arm four times with a pocketknife issued to him by the 
program. He told them, ``Take this away from me before I hurt 
myself anymore. I cannot take it anymore, I want to call my 
mom, and I want to go home.'' The counselors talked to Ryan for 
a few minutes, and he was told that the people that could help 
him were coming out the next day. Then they gave him the knife 
back.
    L. Jay Mitchell and John Weston White arrived the next day. 
Even though they called themselves therapists, neither one of 
them had any credentials that could remotely qualify them as 
mental health professionals. In fact, L. Jay Mitchell is a 
lawyer.
    These individuals decided Ryan's desperate cry for help was 
manipulation so that he could get out of the program. Ryan was 
ignored and, consequently, at approximately 7:30 on a cold, 
rainy night, desperate, alone and abandoned, our son hung 
himself.
    One year later, Aldredge Academy, L. Jay Mitchell and John 
Weston White were indicted by the State of West Virginia for 
child neglect resulting in death. We were adamantly opposed to 
the plea agreement made that allowed Aldredge Academy, the 
corporation, to plea no contest in exchange for dropping 
charges against the individuals. Aldredge was fined $5,000 for 
the horrific death of my son.
    We filed a civil suit alleging wrongful death, fraud and a 
tort of outrage. Once again, L. Jay Mitchell was unable to 
defend himself and acknowledged fault.
    In spite of two court verdicts, L. Jay Mitchell continues 
in this business today. In my opinion, as we sit here today, 
children are at great risk. Incredibly, Aldredge continues to 
be a proud member of NATSAP, the National Association of 
Therapeutic Schools and Programs.
    Losing Ryan has been devastating to our family, our friends 
and the people in our community. We miss him terribly and live 
with this nightmare every day. All we have left are the fragile 
memories of Ryan and the wonderment of the prospects that could 
have been.
    We do not want other families to suffer the overwhelming 
loss of a child in this fraudulent industry. We ask you, 
Congressman Miller, to do everything in your power to put an 
end to this gross abuse of our children.
    Thank you for the opportunity to share Ryan's story.
    [The statement of Mr. Lewis follows:]

         Prepared Statement of Paul Lewis, Father of Ryan Lewis

    Our son, Ryan lived his life to the fullest, surrounded by adoring 
friends and relatives. He was a Boy Scout and a fire explorer. As an 
avid outdoor enthusiast, he enjoyed kayaking, camping, hiking, and 
mountain biking. He read for hours and was a master at putting together 
complicated ship and airplane models. He was an all American boy with 
sparkling blue eyes and a big smile that lit up his freckled face and 
our whole world.
    Ryan could weave an entertaining story and was often times 
hilarious in his presentation. He had a remarkable way of relating to 
people of all ages and could draw anyone into conversation on a variety 
of topics. He was sensitive to others and could articulate his views 
and feelings way beyond someone his age. He was a history buff and 
could match any adult conversation about WW11. In fact, one night we 
met two WW11 Vets in a restaurant and one remarked that Ryan knew more 
about the war than he did and he was there!
    With all of Ryan's extraordinary qualities, he sadly suffered from 
clinical depression. He was a brave and courageous person who battled 
the darkness valiantly. But as a family, we knew that we needed help 
from professionals and sought help from a clinical psychologist and 
child psychiatrist. In addition, what Ryan needed was an integrated 
program where he could continue his schooling and receive therapy while 
being among peers.
    After exhausting all local resources to help Ryan, we reached out 
to Steve Bozak, an educational consultant. We provided him with all 
Ryan's educational and medical records. Given Ryan's background, he 
strongly recommended a Therapeutic Wilderness Program named Alldredge 
Academy in Davis, West Virginia. He told us this would be the safest, 
most appropriate place for Ryan. Ryan's psychiatrist, after speaking to 
the Admissions department also agreed that this might meet Ryan's 
needs.
    Educational and medical records were then sent as well as detailed 
psychiatric information required on an extensive application. We were 
very hesitant to send Ryan so far away but the program's marketing was 
first rate, appearing to be just what Ryan needed. Alldredge used 
Ryan's love of the outdoors as a selling tool. The admissions personnel 
repeatedly toted their professionalism and expertise with children who 
had the same psychiatric diagnosis as Ryan's. On February 7, 2001 we 
enrolled Ryan and were again reassured by the program personnel that 
Ryan would be safe. We called every day to inquire about how Ryan was 
doing and we were assured that he was ``just fine''.
    On February 13, only seven days into the program we were startled 
by a call at 11:15 at night. The news ripped through us like an 
explosion, tearing us into a million pieces. L. Jay Mitchell, the owner 
of Alldredge Academy, informed us that Ryan had hung himself. He told 
us that there was no indication that Ryan was in trouble, it caught 
them all completely by surprise and there was nothing they could have 
done. The next day, we flew to West Virginia and met with L. Jay 
Mitchell, John Weston White, and Lance Wells who repeated the same 
story as the night before. The story didn't make sense to me. The 
following day we met with the investigating West Virginia State Trooper 
who told us we were being lied to about the circumstances of Ryan's 
death.
    This news was like losing Ryan all over again since, in his view, 
it was a death that could have been prevented. He told us was the night 
before Ryan died; he had slashed his left forearm four times with a 
program issued pocket knife. He told them, ``Take this away from me 
before I hurt myself anymore; I can't take it anymore, I want to call 
my Mom and I want to go home.'' The counselors talked to him for a few 
minutes and he was told that people who could help him were coming out 
the next day. Then they gave the knife back to him. L. Jay Mitchell and 
John Weston White arrived the next day. Even though they called 
themselves therapists, neither of them had any credentials that would 
remotely qualify them as mental health professionals. In fact, L. Jay 
Mitchell is a lawyer. These individuals decided Ryan's desperate cry 
for help was manipulation so that he could get out of their program. 
Ryan was ignored and consequently at approximately 7:30 on a cold rainy 
night, desperate, alone, and abandoned, our young son hung himself.
    One year later, Alldredge Academy, Ayne Institute, L. Jay Mitchell 
and John Weston White were indicted by the state of West Virginia for 
`Child Neglect Resulting in Death'. We were adamantly opposed to the 
plea agreement made that allowed Alldredge Academy, the corporation, to 
plead no-contest in exchange for dropping charges against the 
individuals. Alldredge was fined $5000.00 for the horrific death of our 
son.
    We filed a civil suit alleging wrongful death, fraud, and a tort of 
outrage. Once again, L Jay Mitchell was unable to defend himself and 
acknowledged fault. In spite of two court verdicts, L. Jay Mitchell 
continues in this business. In my opinion, as we sit here today, 
children are at great risk. Astonishingly, Alldredge continues to be a 
proud member of (NATSAP) National Association of Therapeutic Schools 
and Programs.
    Losing Ryan has been devastating to our family, our friends and the 
people in our community. We miss him terribly and live with this 
nightmare every day. All we have left are our fragile memories of Ryan 
and wonderment of the prospects that could have been. We don't want 
other families to suffer the overwhelming loss of a child in this 
fraudulent industry. We ask you, Congressman Miller to do everything in 
your power to put an end to this gross abuse of our children. Thank you 
for this opportunity to share Ryan's story.
    Our family was duped into believing that caring people would help 
Ryan who was struggling with a learning disability and clinical 
depression. We thought these were professionals who knew what they were 
doing. We had no idea that their interest was profit, not healing.
    There are also additional details to our story that provide a 
deeper understanding of issues involved in this fraudulent residential 
facility claiming to help children by providing therapy and education. 
We would like to add these to the record.
    For example, consider these facts: While he was in the program, 
Ryan was 5'1 and weighed 90 pounds. He was forced to carry a makeshift 
backpack with approximately 60 pounds of gear. At one point, he was 
restrained and had water forced down him.
    In addition, Ryan was forced to hike in silence. This was critical 
because Ryan was very articulate and was not allowed to express his 
feelings. There is no therapeutic justification for such a policy.
    Further, once he had cut his arm with the program-issued knife, 
there was no monitoring of his behavior. No buddy system was employed 
nor were counselors vigilant at staying with him at all times. Though 
he was clearly expressing suicidal thoughts and behaviors--and had been 
sent to the program with a diagnosis of depression--no mental health 
professional was consulted to determine whether he should continue in 
the program or be hospitalized. Nor were we even notified that he'd 
expressed such despair.
    The program was completely unprepared to deal with cases like 
Ryan's. It operated under the assumption that all teenage misbehavior 
is ``lies'' and ``manipulation'' and that even depression is just 
``attention seeking,'' not a mental illness that warrants compassion 
and support. We believed we were putting our child in the care of 
people who knew what they were doing--and yet the program didn't even 
have a protocol in place to deal with suicides. We had no way of 
knowing that these people had no business dealing with sick children--
there was no law in place that said they couldn't sell their services 
as a treatment for depression.
    There were also additional signs of amateurism and complete 
insensitivity to the children they were supposed to be helping. For 
one, Ryan died at approximately 7:30 P.M. and we were not notified 
until 11:15 P.M., a four hour delay. Phone records show that there were 
30-40 calls made during that four hour delay. Clearly, they were 
scrambling to cover up what had gone on and figure out how to make it 
look better.
    Another example: in an early press release, Alldredge claimed that 
none of the other children saw Ryan. This was not true, in fact, 
another child found him. This child has been forever traumatized.
    In violation of confidentiality rules, another early press release 
provided enough information about Ryan's funeral service to identify 
him.
    Finally, in yet another press release, personnel at Alldredge 
claimed that all the children successfully completed the program. This 
was not the case. In fact, two weeks after Ryan died, another child 
that had been in his group, slit his wrists. He was evacuated, 
hospitalized, and sent home.
    Four weeks into the program, a third child in his group threatened 
suicide in a note to his mother. He, too, went home. It was too late 
for Ryan.
    Alldredge Academy has changed its name to Alldredge Wilderness 
Journey. Although he is not listed as a staff member, L. Jay Mitchell 
is still actively involved in the operation of the program. For parents 
in crisis, it would be very difficult to get an accurate history on the 
program.
    We urge Congress to act to prevent people who do not know how to 
treat children with dignity--let alone treat mental illness--from 
selling their fraudulent treatment to other vulnerable parents and 
children. People with mental illness should have the right to safe, 
effective treatment that people with physical illness do--and these 
predators should not be allowed to prey on them and their parents.
                                 ______
                                 
    Chairman Miller. Thank you very much, Mr. Lewis, and the 
rest of your testimony will be placed in the record in its 
form.
    Ms. Clark Harvey?

      STATEMENT OF CYNTHIA HARVEY, MOTHER OF ERICA HARVEY

    Ms. Harvey. Good morning. My name is Cynthia Clark Harvey.
    Thank you, Chairman Miller and those committee members 
present today for the opportunity to share our family's story.
    Our story is a personal tragedy, but please remember that 
for each family that has suffered the ultimate damage, the 
death of a beloved child, there are perhaps thousands of others 
who have suffered physical or psychological neglect and abuse. 
For those individual and family victims, there is no public 
acknowledgement of their sorrow and pain, as there has been of 
ours.
    This is Erica. Our first-born, Erica, was an amazing kid. 
Everyone says that about their own, but it is true. She was.
    So many times during Erica's too short life, she would do 
or say or create something that just knocked our socks off. 
Erica was an incredible student, straight A's, with gifted 
classes in math and language. She was a competitive springboard 
diver with dozens of medals. Erica was a musician who played 
clarinet and drums, a prizewinning visual artist, a weekly 
volunteer with a local animal shelter from the time she was 10 
and dragged us along so they got two, three or four for the 
price of one determined little girl.
    But Erica's bright light seemed to flicker when at 14 and 
in the eighth grade she began to experience mental health 
problems. Erica became depressed, then suicidal. She engaged in 
cutting behaviors. To medicate herself, she began abusing and 
using illegal drugs. Erica was hurting in many ways, and our 
whole family was suffering.
    Erica was in the care of a psychiatrist and a therapist who 
both recommended that we consider a residential treatment 
program. Michael and I were desperate to find help for Erica. 
Our daughter was 15\1/2\ years old when we made the decision to 
send her to what we believed was a legitimate treatment 
program, a place staffed with people who could help our family 
move forward from some very dark times.
    We compared several programs over a period of many weeks. 
We eventually focused in on Catherine Freer Wilderness because 
they were and continue to be leaders in the industry, one of 
the founding members of NATSAP and of OBHIC. We chose Catherine 
Freer because they have claimed to be fully licensed, because 
they were JCAHO accredited, because they claimed experience 
with teens being treated with psychiatric medications.
    We as parents were interviewed by the program. We laid bare 
our hearts, our souls and our story to the program. They told 
us our daughter would be treated by experienced staff, 
experienced therapists and experienced wilderness guides and 
emergency medical technicians. They touted their backcountry 
planning and emergency procedures. They told us we could trust 
our most precious first-born daughter, Erica, to them.
    On May 26, 2002, we arrived at Catherine Freer's Nevada 
office. We had been advised by Freer not to tell Erica we were 
placing her until our arrival for the family meeting that would 
begin the trek. Of all the many profound and tormenting regrets 
we have about our terrible decision, agreeing to deceive Erica 
is one of the worst. When we told her why we were there, she 
was shocked, angry and scared. We will be haunted as long as we 
live by Erica's cry of ``Please, Daddy, don't make me go.''
    On May 27, 2002, the first full day of Erica's Nevada 
wilderness trek, Freer's trusted team mistook a dire medical 
emergency for teenage belligerence, and Erica died that 
afternoon of heat stroke with dehydration.
    Over a period of hours, Erica's condition had worsened as 
she was pushed to keep hiking. When Erica's eyes rolled into 
the back of her head and she fell off the trail head first into 
rocks and scrub brush, she was left to lie where she fell for 
45 minutes while two Freer staffers, still unwilling or unable 
to recognize what was happening, watched Erica died a slow, 
painful death.
    When the Freer team finally responded to Erica's last few 
tortured breaths, they contacted their on-call medical doctor, 
but the doctor turned out not to be a doctor at all, rather a 
physician's assistant located in Oregon.
    They called the local authorities to ask for help and a 
helicopter to get Erica to a hospital, but they did not know 
where they were, and they sent a search-and-rescue team to the 
wrong GPS coordinates. The helicopter took hours to arrive 
because, contrary to the advanced planning that we were told to 
expect, no arrangements with local authorities had been made, 
nor was any sort of trip plan filed.
    Later, we found out that none of the Freer team had 
experience with administering psychotropic drugs and no 
training in how to evaluate those drugs' effects on an 
individual during a trek. We also found out that the EMT on the 
team was on his very first trek and had only recently completed 
coursework in EMT and had never experienced a real medical 
emergency before.
    Six days from today, October 16, is Erica's 21st birthday. 
The day she was born, we held her and we saw the universe in 
her fierce, dark eyes. We filled ourselves with dreams for her. 
We imagined who she would be at 2, at 10, at 12, 21, 30. And 
today, we are only left with memories--some of them beautiful, 
some of them harsh--and no dreams for Erica's tomorrows.
    [The statement of Ms. Harvey follows:]

   Prepared Statement of Cynthia Clark Harvey, Mother of Erica Clark 
                                 Harvey

    Thank you, Chairman Miller, and those Committee members present 
today for the opportunity to share our family's story. Our story is a 
personal tragedy, but please remember that for each family that has 
suffered the ultimate damage, the death of a beloved child, there are 
perhaps thousands of others who have suffered physical or psychological 
neglect and abuse. For those individual and family victims, there is no 
public acknowledgement of their sorrow and pain, as there has been of 
ours.
    Our first-born, Erica, was an amazing kid--everyone says that about 
their own, but it's true, she was. So many times during Erica's too-
short life, she'd do or say or create something that just knocked our 
socks off. Erica was an incredible student, straight A's, with Gifted 
classes in Math and Language. She was a competitive springboard diver 
with dozens of medals. Erica was a musician who played clarinet and 
drums, a prize-winning visual artist, a weekly volunteer with a local 
animal shelter from the time she was 10 (and dragged us along, so they 
got two, three or four for the price of one determined little girl.)
    Erica's bright light seemed to flicker, when at fourteen and in the 
8th grade, she began to experience mental health problems. Erica became 
depressed, then suicidal. She engaged in cutting behaviors. To medicate 
herself, she began abusing illegal drugs. Erica was hurting in many 
ways and our whole family was suffering.
    Erica was in the care of a psychiatrist and a therapist, who both 
recommended that we consider a residential treatment program. Michael 
and I were desperate to find help for Erica. Our daughter was 15 and a 
half years old when we made the decision to send her to what we 
believed was a legitimate treatment program, a place staffed with 
people who could help our family move forward from some very dark 
times.
    We compared several programs over a period of many weeks. We 
eventually focused in on CF because they were, and continue to be, 
leaders in the industry, one of the founding members of NATSAP, and of 
OBHIC. We chose CF because they claimed to be fully licensed, because 
they were JCAHO accredited, because they claimed experience with teens 
being treated with psychiatric medications. We, as parents, were 
interviewed by the program. We laid bare our hearts, our souls and our 
story to the program. They told us our daughter would be treated by 
experienced staff: experienced therapists and experienced wilderness 
guides and emergency medical technicians (EMTs). They touted their back 
country planning and emergency procedures.
    They told us we could trust our most precious firstborn daughter, 
Erica, to them.
    On May 26th, 2002, we arrived at CF's Nevada office. We had been 
advised by CF not to tell Erica we were placing her until our arrival 
for the family meeting that would begin the trek. Of all the many 
profound and tormenting regrets we have about our terrible decision, 
agreeing to deceive Erica is one of the worst. When we told her why we 
were there, she was shocked, angry and scared. We will be haunted as 
long as we live by Erica's cry of Please, Daddy, don't make me go.
    On May 27th, 2002, the first full day of Erica's Nevada wilderness 
trek, CF's trusted team mistook a dire medical emergency for teenage 
belligerence and Erica died that afternoon of heat stroke with 
dehydration. Over a period of hours, Erica's condition had worsened as 
she was pushed to keep hiking. When Erica's eyes rolled into the back 
of her head and she fell off the trail, head first, into rocks and 
scrub brush, she was left to lie where she fell for forty five minutes, 
while two CF staffers, still unwilling or unable to recognize what was 
happening, watched Erica die a slow, painful death.
    When the CF team finally responded to Erica's last few tortured 
breaths, they contacted their on-call medical doctor, but the 
``doctor'' turned out not to be a doctor at all, rather a physician's 
assistant located in Oregon. They called the local authorities to ask 
for help and a helicopter to get Erica to a hospital but they didn't 
know where they were and sent the search and rescue team the wrong GPS 
coordinates. The helicopter took hours to arrive because, contrary to 
the advance planning that we were told to expect, no arrangements with 
local authorities had been made, nor was any sort of trip plan filed. 
Later we found out that none of the CF team had experience with 
administering psychotropic drugs and no training in how to evaluate 
those drugs' effect on an individual during a trek. We also found out 
that the EMT on the team was on his very first trek, had only recently 
completed coursework in WEMT and had never experienced a real medical 
emergency before.
    Six days from today, October 16, is Erica's 21st birthday. The day 
she was born, we held her and we saw the universe in her fierce dark 
eyes. We filled ourselves with dreams for her. We imagined who she'd be 
at two, at ten, at twelve, twenty-one, thirty. Today we're left with 
only memories, some of them beautiful, some of them harsh, and no 
dreams of Erica's tomorrows.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Bacon?

        STATEMENT OF ROBERT BACON, FATHER OF AARON BACON

    Mr. Bacon. Chairman Miller and committee members, my name 
is Bob Bacon, the father of Aaron Bacon. Speaking for my wife 
and Aaron's mother, Sally, his brother, Jared, and his sister, 
Tia Sullivan, and speaking on behalf of the many families not 
at this table whose lives have been shattered by these 
fraudulent programs, we deeply appreciate your efforts to put a 
stop to this country's growing industry of institutionalized 
child abuse.
    During our search for the best alternative, the remaining 3 
months of Aaron's sophomore year of high school, my wife and I 
spoke with therapists, counselors, pastors and doctors until we 
were eventually referred by friends to North Star Expeditions, 
a now defunct but formerly licensed Utah-based program that 
billed itself as a wilderness therapy program for troubled 
teens.
    After reading their very compelling brochure, speaking to 
their office by phone, and finally meeting with the owners for 
a personal interview, we thought we had found the perfect 
situation--caring people who were experienced in counseling 
kids who were struggling with drugs and social pressure--and to 
top it off, writing in a daily journal we were told was an 
integral part of their so-called counseling program. As a 
writer, we felt journaling would help Aaron to sort things out, 
and we were certain that, as a poet, Aaron would find the 
awesome beauty of southern Utah to be inspirational and 
spiritually healing.
    Of course, being normal, trusting and honest people 
ourselves, we assumed we were being told the truth. We were 
dead wrong. His mother and I will never escape our decision to 
send our gifted 16-year-old son to his death at North Star. The 
guilt of our apparent naivete was crippling. We were conned by 
their fraudulent claims and will go to our graves regretting 
our gullibility.
    Adding further to our regret, we were talked into using 
their escort service. Aaron was taken from his bed at 5:00 a.m. 
on Tuesday morning, March 1, 1994, by two burly strangers who 
announced to Aaron with a tone of authority that any resistance 
on his part would be countered with whatever physical force was 
necessary. He was not allowed to speak with us or to put on any 
shoes. His eyes expressed a strange mixture of anger, despair, 
fear and loving sadness.
    I was able to manage only the briefest of hugs which, being 
restrained, he could not return. In the trauma of this surreal 
instant, I offered words of comfort without thinking of their 
potentially ominous meeting when I said, ``Aaron, I know you 
will find God in the wilderness.'' Little did I know that these 
would be the last words I would ever speak to my youngest son.
    His mother managed only a fleeting moment to cradle his 
face in her hands and utter her spontaneous words of love and 
the assurance that he would later see that this was really for 
the best.
    I cried inconsolably from the depths of my soul as the 
escort van backed out of our driveway with our terrified son 
pleading silently with his sad eyes for us not to send him 
away. This excruciating scene would have to serve for the rest 
of our lives as the last living memory of our beautiful son.
    Aaron arrived in the Escalante wilderness area of southern 
Utah that same night and waited a few days for a brief intake 
exam, indoctrination into the rules of the program and the 
issue of ill-fitting shoes and clothing.
    Aaron's body and bloody and tattered journal, in fact, 
would contain no poetry, but would record in his own words an 
unbelievable account of torture, abuse and neglect, a horrific 
tale that is corroborated by the journals of the so-called 
counselors, along with the journals and sworn testimony of his 
troubled young cohorts.
    A calendar was assembled by criminal investigators that 
chronicles 21 days of ruthless and relentless physical and 
psychological abuse and neglect. Aaron spent 14 of his 20 days 
on the trail without any food whatsoever while being forced to 
hike eight to 10 miles per day. On the days he did have food, 
it consisted of undercooked lentils, lizards, scorpions, trail 
mix and a celebrated canned peach on the 13th.
    On top of this, with temperatures below freezing, he 
endured 13 of 20 nights with only a thin wool blanket, plus 
five nights without any warmth or any protection whatsoever.
    Aaron complained of stomach pain and asked to see a doctor 
as early as the third day of hiking, and by the 10th day, he 
had lost all control of his bodily functions. But unbelievably, 
as he got weaker and lost nearly 20 percent of his body weight, 
they repeatedly refused to send him to a doctor.
    Taken from what appears to be the industry's handbook, 
their policy had predetermined that these kids are all liars 
and manipulators and, therefore, Aaron was faking. This 
grotesque skeleton is what Aaron looked like the evening before 
he died.
    He was seen by Georgette Costigan, the registered EMT who 
is still insisting that he was faking, did not even take his 
vital signs, but instead took the occasion to barter a meager 
piece of cheese in return for his promise to try harder and to 
hike the following day. This company-employed EMT and relative 
of owner Bill Henry dismissed his final desperate plea to see a 
doctor who could prove he was not faking and made a conscious 
decision to prove a point, rather than render aid, thus 
effectively killing our son rather than saving him.
    What you cannot see in these photos are the bruises, cuts, 
lesions, rashes, blisters and open sores that covered Aaron's 
body from head to toe. These scars of abuse and the dried skin 
stretched taut over his bones is what his mother and I were 
left to discover without any warning when the sheet was pulled 
back in the mortuary. ``This,'' we screamed, ``could not be our 
son,'' as we grabbed each other and collapsed to our knees, but 
the scar above his now sunken right eye, told us that it was. 
It was in that one shocking moment of proof that our lives 
changed forever.
    The stories of Aaron's death and the others who have died 
or survived the abuses of these programs are chilling reminders 
of the dangers of absolute power and point out the extremely 
high risk we take in allowing these programs to operate without 
strict regulation and oversight.
    This country, this Congress and this committee are faced as 
never before with several urgent and critically important 
choices. If we choose economic growth over human rights, if we 
choose no growth in government over the safety of our children, 
if we continue to place our faith in the self-regulation of 
private enterprise over the mandate of our government to 
protect our nation's health, safety and welfare, we are 
choosing to fail in our sacred obligations to our children, our 
families and our future.
    I implore you, as I know Aaron would, to please stop paying 
lip service to family values and start placing value in 
families. We can do this in part by investing the resources of 
the American people in our children who will soon inherit our 
challenging legacy, and we can start now by putting a stop to 
these fraudulent and destructive programs of institutionalized 
child abuse.
    [The statement of Mr. Bacon follows:]

         Prepared Statement of Bob Bacon, Father of Aaron Bacon

    Chairman Miller and Distinguished Committee Members: My name is Bob 
Bacon, the father of Aaron Bacon.
    Speaking for my wife, and Aaron's mother Sally, his brother Jarid 
and his sister Kia Sullivan; and speaking on behalf of the many 
families not at this table whose lives have been shattered by these 
fraudulent programs, we deeply appreciate your efforts to put a stop to 
this country's growing industry of institutionalized child abuse.
    During our search for the best alternative to the remaining three 
months of Aaron's sophomore year in high school, my wife and I spoke 
with therapists, counselors, pastors and doctors until we were 
eventually referred by friends to North Star Expeditions, a now 
defunct, but formerly licensed Utah-based program that billed itself as 
a ``wilderness therapy program for troubled teens.''
    After reading their very compelling brochure, speaking to their 
office by phone, and finally meeting the owners for a personal 
interview, we thought we had found the perfect situation: Caring people 
who were experienced in counseling kids who were struggling with drugs 
and social pressure--and to top it off--writing in a daily journal we 
were told was an integral part of their ``counseling'' program. As a 
writer, we felt journaling would help Aaron to sort things out; and we 
were certain that, as a poet Aaron would find the awesome beauty of 
southern Utah to be inspirational and spiritually healing.
    Of course, being normal, trusting and honest people ourselves--we 
assumed we were being told the truth. We were dead wrong. His mother 
and I will never escape our decision to send our gifted 16 year old son 
to his death at North Star. The guilt of our apparent naivete was 
crippling. We were conned by their fraudulent claims, and will go to 
our graves regretting our gullibility.
    Adding further to our regret, we were talked into using their 
escort service. Aaron was taken from his bed at 5:00 AM on Tuesday 
morning, March the 1st, 1994 by two burley strangers who announced to 
Aaron with a tone of authority that any resistance on his part would be 
countered with whatever physical force was necessary. He was not 
allowed to speak to us, or put on any shoes.
    His eyes expressed a strange mixture of anger, despair, fear and 
loving sadness. I was able to manage only the briefest of hugs which, 
being restrained, he could not return. In the trauma of this surreal 
instant I offered words of comfort without thinking of their 
potentially ominous meaning when I said, ``Aaron, I know you will find 
God in the wilderness.'' Little did I know that these would be the last 
words I would ever speak to my youngest son!
    His mother managed only a fleeting moment to cradle his face in her 
hands and utter her spontaneous words of love and the assurance that he 
would later see that this was really for the best.
    I cried inconsolably from the depths of my soul as the escort van 
backed out of our driveway with our terrified son silently pleading 
with his sad eyes for us not to send him away. This excruciating scene 
would have to serve for the rest of our lives as the last living memory 
of our beautiful son.
    Aaron arrived in the Escalante Wilderness Area of southern Utah 
that same night and waited a few days for a brief intake exam, 
indoctrination into the rules of the program, and the issue of ill-
fitting shoes and clothing. This picture of him was taken on March 8th, 
when he was noted as weighing 131 pounds on a lanky 5'-11'' frame.
    Aaron's bloody and tattered journal would contain no poetry, but 
would record in his own words an unbelievable account of torture, abuse 
and neglect; a horrific tale that is corroborated by the journals of 
the so-called ``counselors'', along with the journals and sworn 
testimony of his troubled young cohorts.
    This calendar was assembled by criminal investigators from program 
records and chronicles 21 days of ruthless and relentless physical and 
psychological abuse and neglect. Aaron spent 14 of his 20 days on the 
trail without any food whatsoever, while being forced to hike 8-10 
miles per day. On the days he did have food it consisted of undercooked 
lentils, lizards, scorpions, trail mix, and a celebrated canned peach 
on the 13th. On top of this, with temperatures below freezing, he 
endured 13 of 20 nights with only a thin wool blanket, plus 5 nights 
without warmth or protection of any kind. Aaron complained of severe 
stomach pain and asked to see a doctor as early as the third day of 
hiking, and by the tenth day had lost all control of his bodily 
functions; but unbelievably, as he got weaker and lost nearly 20% of 
his body weight they repeatedly refused to send him to a doctor. Taken 
from what appears to be the industry handbook, their policy had 
predetermined that these kids are all liars and manipulators and 
therefore ``Aaron was faking.''
    [Slide #3] This grotesque skeleton is what Aaron looked like when 
he was seen the evening before he died by Georgette Costigan, the 
registered EMT who, still insisting that he was faking, didn't even 
take his vital signs, but instead took the occasion to barter a meager 
piece of cheese in return for his promise to try harder and hike the 
following day. This company employed EMT, and relative of owner Bill 
Henry, dismissed his final desperate plea to see a doctor who could 
prove he wasn't faking and made a conscious decision to prove a point 
rather than render aid, thus effectively killing our son rather than 
saving him.
    What you cannot see in these photos are the bruises, cuts, lesions, 
rashes, blisters and open sores that covered Aaron's body from head to 
toe. These scars of abuse and the dried skin stretched taut over his 
bones are what his mother and I were left to discover without any 
warning when the sheet was pulled back at the mortuary. This, we 
screamed, could not be our son as we grabbed each other and collapsed 
to our knees, but the scar above his now sunken right eye told us that 
it was. It was in that one shocking moment of proof that our lives 
changed forever.
    The stories of Aaron's death and the others who have died, or 
survived the abuses of these programs, are chilling reminders of the 
dangers of absolute power, and point out the extremely high risks we 
take in allowing these programs to operate without strict regulation 
and oversight.
    This country, this congress and this committee are faced as never 
before with several urgent and critically important choices.
    If we choose economic growth over human rights; if we choose no-
growth-in-government over the safety of our children; and if we 
continue to place our faith in the self-regulation of private 
enterprise over the mandate of our government to protect our nation's 
health, safety and welfare, we are choosing to fail in our sacred 
obligations to our children, our families, and our future.
    I implore you, as I know Aaron would, to PLEASE stop paying lip 
service to ``family values'' and start placing ``value-in-families.'' 
We can do this in part, by investing the resources of the American 
people in our children who will soon inherit our challenging legacy; 
and we can START NOW by putting a stop to these fraudulent and 
destructive programs of institutionalized child abuse.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Moss?

STATEMENT OF JAN MOSS, EXECUTIVE DIRECTOR, NATIONAL ASSOCIATION 
              OF THERAPEUTIC SCHOOLS AND PROGRAMS

    Ms. Moss. Mr. Chairman, Mr. McKeon, members of the 
committee, good morning. I am Jan Moss. I am a mother of two 
grown children and a grandmother of three.
    To those of you who have spoken today of your devastating 
losses, I express my condolences, respect and utmost deference. 
I have not suffered the loss of a child. I do, however, have a 
nephew who suffered abuse in an offshore program.
    I am here as the executive director of the National 
Association of Therapeutic Schools and Programs, generally 
known as NATSAP. We were established in 1999 in an effort to 
raise the bar of the private therapeutic programs serving 
children and families in crisis. Among our goals is the 
complete elimination of the abusive and neglectful practices we 
have heard about today. Clearly, we still have a very long way 
to go.
    Chairman Miller, you acknowledged in your December 2005 
letter to the Government Accountability Office that there are, 
indeed, programs that provide high-quality services to help 
troubled adolescents get back on track. We are committed to 
ensuring that these programs remain available to families in 
dire need of help. We are working to ensure that the only 
programs on the market are those of the highest quality.
    NATSAP is the only entity in this country working with 
therapeutic schools and programs to improve them. We are a 
trade organization. We do not provide certifications nor do we 
conduct investigations.
    Our principles of good practice are based on our 12 ethical 
principles and were formulated using the standards set by the 
joint commission which accredits nearly 15,000 care programs in 
the United States. We will not accept or retain members that do 
not abide by our ethics or attest to following our principles 
of good practice.
    When we receive notification of a concern about one of our 
members, we review evidence from state licensing authorities, 
attorneys general, accrediting bodies and other third parties. 
If a member has acted in a manner inconsistent with the law or 
our principles, we proceed on a case-by-case basis, either 
requiring the program to implement change or canceling its 
membership.
    NATSAP will review the findings of the GAO's investigation 
into NATSAP member programs and will take action as 
appropriate.
    Our professional development activities include a national 
conference which over 700 people attend annually. We hold six 
regional conferences with an estimated total attendance of over 
800 individuals. Each conference provides continuing education 
courses led by industry experts, university researchers and 
other clinical professionals.
    In 2006, NATSAP launched its first professional journal. 
Dr. Michael Gass of the University of New Hampshire is the 
managing editor.
    In 2007, NATSAP launched its research initiative which will 
provide members an affordable data collection tool to evaluate 
the effectiveness of their clinical work. The University of New 
Hampshire will house the database, making it available not only 
to internal but also external researchers.
    Dr. Keith Russell from the University of Minnesota has just 
released the results of his 4 years of research on outdoor 
behavioral treatment.
    In 2007, the NATSAP board of directors strengthened its 
membership requirements. We now require members to be licensed 
by the appropriate state mental health agency or accredited by 
a reputable mental health accreditation organization, such as 
the joint commission.
    Unfortunately, not all states have licensing requirements. 
We are working to address this inadequacy. We have worked 
successfully with the State of Utah to establish regulations 
for therapeutic boarding schools which had previously escaped 
licensure requirements by claiming plain boarding school 
status. In Montana, we worked diligently to have appropriate 
licensure requirements put into place, but the stringent bill 
that we favored lost to a less rigorous bill.
    We continue to push for strong state licensure and 
monitoring requirements. We are hopeful that Chairman Miller, 
Ranking Member McKeon and this committee will help us in these 
efforts. We need your assistance.
    The American Bar Association has submitted to this 
committee the ABA's recommendations for legislation to assure 
the safety of children and youth placed in private residential 
treatment facilities. We are in fundamental agreement to the 
extent that the ABA recommends licensure and monitoring of 
these facilities. We expand on the ABA's recommendations by 
supporting the licensure and monitoring of all adolescent 
treatment facilities, including those that are funded by public 
entities.
    Mr. Chairman and Mr. McKeon, NATSAP extends its sincere 
appreciation for your commitment to eliminating deceptive, 
abusive and neglectful programs by encouraging state licensure 
and enforcement. We are committed to working with this 
committee, other organizations and parents to draft and enact 
meaningful legislation to put an end to the horrific pain and 
suffering we have heard today.
    Thank you.
    [The statement of Ms. Moss follows:]

     Prepared Statement of Jan Moss, Executive Director, National 
            Association of Therapeutic Schools and Programs

    Mr. Chairman, Mr. McKeon, members of the Committee, thank you for 
the opportunity to participate in this hearing. I am Jan Moss.
    I am a mother of two grown children and a grandmother of three. To 
those of you who have spoken today of your devastating losses, I 
express my condolences, respect and utmost deference. I have not 
suffered the loss of a child. I do, however, have a nephew who suffered 
abuse in an offshore program.
    I am here as the Executive Director of the National Association of 
Therapeutic Schools and Programs, generally known as NATSAP. We were 
established in 1999 in an effort to raise the bar of the private 
therapeutic programs serving children and families in crisis. Among our 
goals is the complete elimination of the abusive and neglectful 
practices we have heard about today. Clearly we still have a long way 
to go.
    Chairman Miller, you acknowledged in your December 2005 letter to 
the Government Accountability Office that there are, indeed, ``programs 
that provide high-quality services to help troubled adolescents get 
back on track.'' The three personal narratives I am attaching to my 
written testimony underscore the value of high-quality therapeutic 
schools and programs. We are committed to ensuring that these programs 
remain available to families in dire need of help. We are working to 
ensure that the only programs on the market are those of the highest 
quality.
    NATSAP is the only entity in this country working with therapeutic 
schools and programs to improve them. We are a trade organization. We 
do not provide certifications or conduct investigations.
    I am attaching the Ethical Principles of the National Association 
of Therapeutic Schools and Programs to my written testimony. Our 
Principles of Best Practice are based on our 12 Ethical Principles and 
were formulated using the standards set by the Joint Commission, which 
accredits nearly 15,000 health care programs in the United States. We 
will not accept or retain members that do not abide by our ethics or 
attest to following our Principles of Good Practice.
    When we receive notification of a concern about one of our members, 
we review evidence from state licensing authorities, attorneys general, 
accrediting bodies, and other third parties. If a member has acted in a 
manner inconsistent with the law or our Principles, we proceed on a 
case-by-case basis, either requiring the program to implement change, 
or cancelling its membership. NATSAP will review the findings of the 
GAO's investigation into NATSAP member programs and will take action as 
appropriate.
    Our professional development activities include a national 
conference, which over 700 people attend annually. We hold six regional 
conferences, with an estimated total attendance of over 800 
individuals. Each conference provides continuing education courses led 
by industry experts, university researchers, and other clinical 
professionals.
    In 2006, NATSAP launched its first professional Journal. Dr. 
Michael Gass of the University of New Hampshire is the managing editor. 
In 2007, NATSAP launched its Research Initiative, which will provide 
members an affordable data-collection tool to evaluate the 
effectiveness of their clinical work. The University of New Hampshire 
will house the database, making it available not only to internal, but 
also external researchers. Dr. Keith Russell, University of Minnesota, 
has just released the results of his four years of research on outdoor 
behavioral treatment.
    In 2007, the NATSAP Board of Directors strengthened NATSAP's 
membership requirements. We now require members to be licensed by the 
appropriate state mental health agency, or accredited by a reputable 
mental health accreditation organization, such as the Joint Commission.
    Unfortunately, not all states have licensing requirements. We are 
working to address this inadequacy. We have worked successfully with 
the State of Utah to establish regulations for therapeutic boarding 
schools, which had previously escaped licensure requirements by 
claiming plain ``boarding school'' status. In Montana, we worked 
diligently to have appropriate licensure requirements put into place, 
but the stringent bill we favored lost to a less rigorous bill.
    We continue to push for strong state licensure and monitoring 
requirements. We are hopeful that Chairman Miller, Ranking Member 
McKeon, and this Committee will help us in these efforts. We need your 
assistance.
    The American Bar Association has submitted to this Committee the 
ABA's recommendations for legislation to assure the safety of children 
and youth placed in private residential treatment facilities. We are in 
fundamental agreement to the extent that the ABA recommends licensure 
and monitoring of these facilities. We expand on the ABA's 
recommendations by supporting licensure and monitoring of all 
adolescent treatment facilities, including those that are funded by 
public entities.
    Mr. Chairman and Mr. McKeon, NATSAP extends its sincere 
appreciation for your commitment to eliminating deceptive, abusive, and 
neglectful programs by encouraging state licensure and enforcement. We 
are committed to working with this Committee, other organizations, and 
parents to draft and enact meaningful legislation to put an end to the 
horrific pain and suffering we have heard about today.
            attachment 1.--testimony of trevor miles heaton
    Chairman Miller and Honorable Committee Members, I would like to 
thank you for the opportunity to share my testimony of hope and success 
with you.
    To understand my viewpoint regarding the issue at hand, a brief 
history of my past is necessary. My name is Trevor Heaton. I am a 19 
year old recovering heroin addict living in Salt Lake City. I began 
smoking pot at age 13. From there I rapidly progressed to pain 
medications and eventually became confined to a vicious heroin 
addiction. I have been to four different treatment facilities, both in 
and out of Utah. I have been admitted to the psychiatric ward several 
instances for drug related problems. I have also been part of the 
juvenile court system. I stole, lied, cheated, abused, neglected, and 
rationalized my way through my addiction. My story is no different than 
any other addict out there in such that I have the disease of addiction 
and must do everything in my power to keep this demon in remission.
    It took years of using and several treatment programs for me to 
finally make the decision to change my life around. Obviously, the 
choice to stay sober is made by myself, and only for myself, but the 
treatment programs I attended were influential in helping me make this 
choice. The reason I did not remain sober after my first programs was 
do to a conscious decision on my part. The treatment centers provided 
me with all the necessary life skills, coping mechanisms, and tools to 
remain sober, but I simply chose not to apply the knowledge and skills 
I had been presented with. Two of the programs I went to were very 
impressive, and two were not. I can't blame a program for my relapses 
because although a program may not have been as quality as another, I 
was still made aware of my addiction, yet chose to ignore all the 
instruction I had been given.
    I feel very fortunate to be alive today. I live a wonderful life 
and could not be happier. I am about to graduate from Salt Lake 
Community College with my Associates of Science Degree in Social Work. 
I have a 4.0 college GPA and plan to go for my Masters degree. I have a 
stable job. Relationships with family and friends have been restored to 
the fullest. I attend A.A. meetings regularly. I am on the Alumni 
Council of the National Association of Therapeutic Schools and 
Programs. I am also on the Salt Lake Mayors Coalition for Alcohol, 
Tobacco, and Other Drugs. As I said, life is beautiful at the moment. I 
have been given a second chance at life. This second chance was made 
possible by the many professionals and staff I encountered at various 
treatment centers throughout my journey. As we are all aware, the price 
of drug rehabilitation is quite expensive, but the lessons learned and 
the tools that are provided through such programs are priceless.
    I am very grateful to my family for providing me with such 
resources as drug rehabilitation. I am also grateful for those 
individuals who have helped shape my life into something truly amazing. 
I respectfully ask that do all you can to eliminate abusive and 
neglectful programs while also doing whatever is necessary to preserve 
options for children and families in need of specialized treatment and 
educational services. Treatment is the greatest tool we have in the 
fight against addiction. I am proof that there is hope and that 
recovery is able to breed success and triumph. If you would like more 
information on my experience, you may contact me at any time. Once 
again, thank you for the opportunity to participate in this 
extraordinarily important hearing.
            Respectfully submitted,
                                       Trevor Miles Heaton,
                                                      Riverton, UT.
      attachment 2.--written testimony of thomas and emily vitale
    Chairman Miller and Honorable Committee Members, thank you for the 
opportunity to share our testimony with you. Chairman Miller, we share 
your urgent desire to ensure that abusive and neglectful ``boot camps'' 
and ``tough love'' programs do not harm adolescents in need of special 
care and nurturing.
    However, most therapeutic schools and programs do provide healthy, 
positive environments in which children may learn while healing. Our 
daughter Caroline is one child who benefited greatly from a therapeutic 
boarding school. She had been in and out of many ``regular'' high 
schools, never able to get her homework done (she is extraordinarily 
bright so teachers assumed she was lazy). As she spiraled into 
depression and self-injury, we realized she needed a school where she 
would be both safe and able to work on the issues that caused her to 
de-rail.
    Caroline spent 18 months at the King George School, an emotional 
growth boarding school in Northern Vermont. During that time she 
attended academic classes, excelled in therapeutic art classes, 
participated in group and individual therapy sessions. At no time was 
she or any student there forced to participate in programs like those 
which you aim to eliminate. Her experience there has changed her life 
and ours. She is currently back at a ``regular'' high school and is 
applying to college for next year. She would never have been able to do 
this without the support and nurturing of the King George School.
    Certainly, you must eliminate abusive and neglectful programs. You 
must also preserve options for children and families in need of 
specialized treatment and educational services.
    If you would like more information on our family's experience, or 
better yet, if you would like to hear from our daughter, Caroline, 
please contact us.
          attachment 3.--testimony of alexandrine lyons-boyle
    Chairman Miller and Honorable Committee Members, I sincerely 
applaud your desire to ensure that abusive and neglectful ``boot 
camps'' and ``tough love'' programs are not able to harm children who 
need therapy and care, and need to get on the right track. I've seen 
news programs that horrified me regarding these programs.
    However, I sent my daughter to a wilderness therapy program that 
was not a boot camp, not a tough love program, but was an outstanding 
therapeutic program that saved her life.
    My daughter had always been a happy child, a good student, and a 
sweet daughter until she reached high school. At that time, for many 
reasons, including depression, ADD, and the innate meanness of many 
teenage girls (the way ``her friends'' treated her would make you cry), 
she began to abuse drugs. She was so depressed that she would lie on 
our kitchen floor and just cry. She went from being an A-B student in 
high level classes (honors and advanced grades), to receiving straight 
F's, and being told by the high school principal that they were 
processing her to have her removed from the school. She was arrested 
repeatedly.
    When I learned of Catherine Freer Wilderness Therapy from her 
psychiatrist, I immediately sent her to this program. She spent 3 weeks 
hiking in the wilderness with 5 other teenagers, and 3 adults--two of 
the adults were trained counselors, and one a licensed therapist. All 
operated in close contact with a licensed therapist back in the home 
office who was in constant contact with the parents. These were 
wonderful, caring people, who, through their program, changed my 
daughter's life.
    They taught her self-reliance and self confidence (she had to cook 
for herself, set up her own tent at night, and carry her own supplies 
during the day). She is proud of what she did. They structured all 
conversation so the kids couldn't just trade war stories, but had to 
really think about why they had made the decisions they had made, what 
they wanted from life, what their values were, and were they living by 
those values? How had they affected the people in their lives? What was 
their future going to be like? For 24 hours a day, every day for 3 
weeks, my daughter was in therapy--caring, educational, and successful 
therapy. She was also in the healing environment of nature, which is 
awesome and cannot be duplicated indoors.
    After only 3 weeks, she was a changed person. The last day, when 
she walked into the room where her family was waiting, she had a huge 
smile on her face, she looked tanned, a bit heavier, much healthier; 
she looked confident and proud of herself, and happy! I was amazed! She 
was proud of all she'd accomplished, of how she'd changed, and she was 
looking so forward to sharing her experiences with her family.
    Much, much more amazing is how now, six months later, she is again 
an ``A'' student, a smiling, happy person, who has excellent values. In 
fact, she has an appreciation for life that she never had before.
    She has thanked me many times for sending her to Catherine Freer 
Wilderness Therapy. She changes her mind frequently now about what she 
will major in at college, but neither of us have any doubt that she 
will be a college graduate, a responsible member of society, and a good 
person.
    I could give you much more detail, but in the interest of being 
brief, I will simply say that you are welcome to contact either my 
daughter or myself to learn more of the outstanding wilderness program 
she attended.
    The people at Catherine Freer are very, very caring. They are 
NOTHING like I've seen on the news programs about the boot camps and 
tough love programs. Please, please do not lump them in with those 
other extremely scary, dangerous, and ineffective programs that harm 
children rather than helping them.
    Thank you for protecting our youth from those harmful programs, and 
thank you for finding a way to differentiate the good from the bad in 
your legislation, and making sure programs like Catherine Freer 
continue to help children like my daughter.
            Sincerely,
                                   Alexandrine Lyons-Boyle,
                           Mother of Leilagh Boyle, Schaumburg, IL.
                attachment 4.--natsap ethical principles
    Members of the National Association of Therapeutic Schools and 
Programs (NATSAP) provide residential, therapeutic, and/or education 
services to children, adolescents, and young adults entrusted to them 
by parents and guardians. The common mission of NATSAP members is to 
promote the healthy growth, learning, motivation, and personal well-
being of our program participants. The objective of all our therapeutic 
and educational programs is to provide excellent treatment for our 
program participants; treatment that is rooted in good-hearted concern 
for their well-being and growth; respect for them as human beings; and 
sensitivity to their individual needs and integrity.
    In applying to become or continue as a member of The National 
Association of Therapeutic Schools and Programs, we agree to:
    1. Be conscious of, and responsive to, the dignity, welfare, and 
worth of our program participants.
    2. Honestly and accurately represent ownership, competence, 
experience, and scope of activities related to our program, and to not 
exploit potential clients' fears and vulnerabilities.
    3. Respect the privacy, confidentiality, and autonomy of program 
participants within the context of our facilities and programs.
    4. Be aware and respectful of cultural, familial, and societal 
backgrounds of our program participants.
    5. Avoid dual or multiple relationships that may impair 
professional judgment, increase the risk of harm to program 
participants, or lead to exploitation.
    6. Take reasonable steps to ensure a safe environment that 
addresses the emotional, spiritual, educational, and physical needs of 
our program participants.
    7. Strive to maintain high standards of competence in our areas of 
expertise and to be mindful of our limitations.
    8. Value continuous professional development, research, and 
scholarship.
    9. Place primary emphasis on the welfare of our program 
participants in the development and implementation of our business 
practices.
    10. Manage our finances to ensure that there are adequate resources 
to accomplish our mission.
    11. Fully disclose to prospective candidates the nature of 
services, benefits, risks, and costs.
    12. Provide informed, professional referrals when appropriate or if 
we are unable to continue service.
                                 ______
                                 
    [Additional materials submitted by Ms. Moss follow:]

                                                  October 23, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: The National Association of Therapeutic 
Schools and Programs (NATSAP) respectfully requests the enclosed 
information be submitted for the record in regards to your hearing 
``Cases of Child Neglect and Abuse at Private Residential Treatment 
Facilities''.
    1. Summary of Research from 1999--2006 and Update to 2000 Survey of 
Outdoor Behavioral Healthcare Programs in North America--Dr. Keith C. 
Russell, Ph.D., College of Education and Human Development, University 
of Minnesota
    2. Incident Monitoring in Outdoor Behavioral Healthcare Programs: A 
Four-Year Summary of Restraint, Runaway, Injury, and Illness Rates--Dr. 
Keith C. Russell, Ph.D., University of Minnesota, and Nevin Harper, 
M.A., University of Minnesota
    3. A Multi-Center, Longitudinal Study of Youth Outcomes in Private 
Residential Treatment Programs--Ellen Behrens, Ph.D. and Kristin 
Satterfield, Ph.D. of Canyon Research and Consulting
    4. Copies of agenda for the NATSAP Annual and Regional Conferences, 
which demonstrates the high quality of education, presented by 
credentialed individuals, that is provided at these conferences.
    5. Volume I, Numbers I and II of the Journal of Therapeutic Schools 
and Programs (JTSP); Managing Editor Dr. Michael Gass, University of 
New Hampshire.
    Thank you.
            Sincerely,
                                 NATSAP Board of Directors.
                                 ______
                                 
    [The technical report, ``Summary of Research From 1999-
2006, and Update To 2000 Survey Of Outdoor Behavioral 
Healthcare Programs in North America,'' by Keith C. Russell, 
Ph.D., Director, Outdoor Behavioral Healthcare Research 
Cooperative (OBHRC), College of Education and Human 
Development, University of Minnesota, dated May 2007, may be 
requested at the following Internet address:]

                         http://www.obhrc.org/

                                 ______
                                 
    [The risk incident paper, ``Incident Monitoring in Outdoor 
Behavioral Healthcare Programs: A Four-Year Summary of 
Restraint, Runaway, Injury, and Illness Rates,'' by Keith C. 
Russell, Ph.D., Director, Outdoor Behavioral Healthcare 
Research Cooperative (OBHRC), College of Education and Human 
Development, University of Minnesota, may be accessed at the 
following Internet address:]

          http://cehd.umn.edu/kin/research/obhrc/publications/
                         incidentnatsap001.pdf

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
 Bylaws of the National Association of Therapeutic Schools and Programs

                 (A Tax-Exempt/Non-Profit Corporation)

Article 1.--Offices

              SECTION 1. REGISTERED AND PRINCIPAL OFFICES

    The registered office of The National Association of Therapeutic 
Schools and Programs, Inc. (the ``Corporation'', a tax-exempt, non-
profit Corporation, shall be 126 North Marina, Prescott, Arizona 86301; 
and the name of the registered Agent at this address is Janice K. Moss. 
The mailing address of the initial principle office of the Corporation 
shall be 126 North Marina, Prescott, Arizona 86301. The registered 
office need not be identical with the principle office of the 
Corporation and may be changed at any time by the Board of Directors.

                        SECTION 2. OTHER OFFICES

    The Corporation may also have offices at such other places, within 
or without the State of Arizona, where it is qualified to do business, 
as its business may require and as the board of Directors may, from 
time to time, designate.
Article 2.--Directors

                           SECTION 1. POWERS

    All corporate powers shall be exercised by or under the authority 
of, and the business and affairs of the Corporation managed under the 
direction of its Board of Directors, subject to any limitation set 
forth in the Articles of Incorporation, other provisions of these 
Bylaws relating to action required or permitted to be taken or approved 
by the Members, if any, of this Corporation, the activities and affairs 
of this Corporation.

                     SECTION 2. NUMBER AND ELECTION

    The Corporation shall have no more than sixteen Directors excluding 
ex-officio Members, unless changed by amendment to these Bylaws. 
Collectively, they shall be known as the Board of Directors. Elections 
for available board positions shall be held by ballot. The exact number 
of Directors shall be fixed within the limit by a resolution adopted by 
the Board of Directors.

                       SECTION 3. TERMS OF OFFICE

    All Directors elected to the board shall serve for two-year terms 
and may be appointed at the pleasure of the board to serve one 
additional two-year term. The term of Directors begins and expires at 
the Annual Member meeting following the annual election.

                       SECTION 4. QUALIFICATIONS

    Directors of the Corporation shall be a Member of the Executive 
Committee with decision-making authority, or be owner, president, chief 
executive, or Director of Member programs in good standing

                           SECTION 5. DUTIES

    It shall be the duty of the Directors to:
    (a) Perform any and all duties imposed on them collectively or 
individually by law, by the Articles of Incorporation of this 
Corporation, or by these Bylaws;
    (b) Appoint and remove, employ and discharge, and, except as 
otherwise provided in these Bylaws, prescribe the duties and fix the 
compensation, if any, of all Officers, Agents and Employees of the 
Corporation;
    (c) Supervise all Officers, Agents and Employees of the Corporation 
to assure that their duties are performed properly;
    (d) Meet at such times and places as required by these Bylaws;
    (e) Register their addresses with the Secretary of the Corporation 
and notices of meetings mailed or telegraphed to them at such addresses 
shall be valid notices thereof.

                          SECTION 6. VACANCIES

    Vacancies on the Board of Directors shall exist (1) on the death, 
resignation, removal, or expiration of term of any Director, and (2) 
whenever the number of authorized Directors is increased.
    Vacancies on the board may be filled by the (1) the Members, (2) 
the Board of Directors, or (3) if the Directors remaining in office 
constitute fewer than a quorum of the Board, they may fill the vacancy 
by the affirmative vote of a majority of all the Directors remaining in 
office.

                        SECTION 7. RESIGNATIONS

    A Director may resign effective upon giving written notice to the 
President, the Secretary, or the Board of Directors. A resignation is 
effective when the notice is delivered unless the notice specifies a 
later effective date.

                    SECTION 8. REMOVAL OF DIRECTORS

    A Director may be removed, with or without cause, upon the 
affirmative vote of not less than a majority of the Directors.

                        SECTION 9. COMPENSATION

    Directors shall serve without compensation except that they shall 
be allowed reasonable advancement or reimbursement of expenses incurred 
in the performance of their regular duties as specified in Section 5 of 
this Article. Reasonable expense limits shall be determined by 
resolution of the Board of Directors. Directors may not be compensated 
for rendering services to the Corporation in any capacity other than 
Director unless such other compensation is reasonable and is allowable 
under the provisions of Section 10 of this Article.

         SECTION 10. RESTRICTION REGARDING INTERESTED DIRECTORS

    Notwithstanding any other provision of these Bylaws, no persons 
serving on the board may be interested persons. For purposes of this 
Section, ``interested persons,'' means either:
    (a) Any person currently being compensated by the Corporation for 
services rendered it within the previous twelve (12) months, whether as 
a full- or part-time Officer or other Employee, Independent contractor, 
or otherwise, excluding any reasonable compensation paid to a Director 
as Director; or
    (b) Any brother, sister, ancestor, descendant, spouse, brother-in-
law, sister-in-law, son-in-law, daughter-in-law, mother-in-law, or 
father-in-law of any such person.
    (c) Any person so deemed by vote of the existing board of 
Directors.
Article 3.--Meetings and actions of the board of directors

                      SECTION 1. PLACE OF MEETINGS

    Meetings shall be held at such place within or without the State of 
Arizona, which has been designated by resolution of the Board of 
Directors. Any meeting, regular or special, may be held by conference 
telephone, electronic video screen communication, or other 
communications equipment. Participation in a meeting through use of 
conference telephone constitutes presence in person at that meeting so 
long as all Directors participating in the meeting are able to hear one 
another.

                     SECTION 2. NOTICE OF MEETINGS

    Notice of the date, time, place, or purpose of annual and other 
regular meetings of the Board of Directors need not be given. Notice of 
any special meeting, setting forth the date, time and place of the 
meeting, shall be given to each Director by oral or written notice not 
less that two (2) days before the meeting. The notice need not describe 
the purpose of the special meeting unless otherwise required by the 
Articles of Incorporation or other provisions in these Bylaws.

                     SECTION 3. QUORUM FOR MEETINGS

    At all meetings of the Board of Directors, a majority of the 
Directors then in office shall constitute a quorum. If a quorum is 
present when a vote is taken, the affirmative vote of a majority of 
Directors present is the act of the Board of Directors unless the 
articles of Incorporation, other provisions of these Bylaws or the Code 
otherwise require the vote of a greater number of Directors. If a 
quorum shall not be present at any meeting of the Board, the Members 
present at such meeting may adjourn the meeting from time to time, 
without notice other than announcement at the meeting, until a quorum 
shall be present.

                    SECTION 4. PRESUMPTION OF ASSENT

    A Director who is present at a meeting of the Board of Directors 
when corporate action is taken is deemed to have assented to the action 
taken unless 1) his dissent or abstention from the action taken is 
entered in the minutes of the meeting, or 2) he delivers written notice 
of his dissent or abstention to the presiding offer of the meeting 
before its adjournment or to the Corporation immediately after 
adjournment of the meeting. The right of dissent or abstention in not 
available to a Director who votes in favor of the action taken.

                     SECTION 5. CONDUCT OF MEETINGS

    Meetings of the Board of Directors shall be presided over by the 
President of the Corporation or, in his or her absence, by the Vice 
President of the Corporation or, in the absence of each of these 
persons, by a Chairperson chosen by a majority of the Directors present 
at the meeting. The Secretary of the Corporation shall act as secretary 
of all meetings of the board, provided that, in his or her absence, the 
presiding Officer shall appoint another person to act as Secretary of 
the Meeting.

          SECTION 6. ACTION BY WRITTEN CONSENT WITHOUT MEETING

    Any action required or permitted by the Board of Directors under 
any provision of law may be taken without a meeting. Such action by 
written consent shall have the same force and effect as the majority 
vote of the Directors. Any certificate or other document filed under 
any provision of law which relates to action so taken shall state that 
the action was taken by unanimous written consent of the Board of 
Directors without a meeting and that the Bylaws of this Corporation 
authorize the Directors to so act, and such statement shall be prima 
facie evidence of such authority.

                 SECTION 7. NON-LIABILITY OF DIRECTORS

    The Directors shall not be personally liable for the debts, 
liabilities, or other obligations of the Corporation.
Article 4.--Officers

                     SECTION 1. NUMBER OF OFFICERS

    The officers of the Corporation shall be a President, a Vice 
President, a Secretary, and a Chief Financial Officer who shall be 
designated the Treasurer. The President shall serve as Chair.

         SECTION 2. QUALIFICATION, ELECTION, AND TERM OF OFFICE

    Officers of the Corporation must either be an owner, a member of 
the Executive Committee with decision-making authority, or be 
president, chief executive, or Director of member programs in good 
standing. Officers shall be elected by and from the Board of Directors. 
When a board member is elected to serve as an officer his/her term on 
the board is extended to coincide with the term of the office Each 
officer shall hold office for two years and may serve an additional 
two-year term pending an affirmative vote of the majority of the Board 
of Directors at the regular meeting immediately preceding the end of 
the Officer's first term. No President may serve more than two terms. 
Each officer shall hold office until his or her term expires or until 
he or she resigns, is removed, or otherwise is disqualified to serve, 
or until his or her successor shall be elected and qualified, whichever 
occurs first.

                   SECTION 3. REMOVAL AND RESIGNATION

    Any officer may be removed, either with or without cause, by a 
majority vote of the Board of Directors, at any time. Any officer may 
resign at any time by giving written notice to the Board of Directors 
or to the President or Secretary of the Corporation. Any such 
resignation shall take effect at the date of receipt of such notice or 
at any later date specified therein, and, unless otherwise specified 
therein, the acceptance of such resignation shall not be necessary to 
make it effective.

                          SECTION 4. VACANCIES

    Any vacancy caused by the death, resignation, removal, 
disqualification, or otherwise, of any officer shall be filled by the 
Board of Directors. In the event of a vacancy in any office other than 
that of President, such vacancy may be filled temporarily by 
appointment by the President until such time as the Board shall fill 
the vacancy. Vacancies occurring in offices of officers appointed at 
the discretion of the board may or may not be filled, as the board 
shall determine.

                     SECTION 6. DUTIES OF PRESIDENT

    The President shall be the chief executive officer of the 
Corporation. The president shall have general executive charge, 
management and control of the properties, business and operations of 
the Corporation with all such powers assay be reasonably incident to 
such responsibilities. The President shall have the authority to agree 
upon and execute all leases, contracts, evidences of indebtedness and 
other obligations in the name of the Corporation; and, shall have such 
other powers and duties as designated in accordance with these Bylaws 
and as from time to time may be assigned by the Board of Directors.

                  SECTION 7. DUTIES OF VICE PRESIDENT

    In the absence of the President, or in the event of his or her 
inability or refusal to act, the Vice President shall perform all the 
duties of the President, and when so acting shall have all the powers 
of, and be subject to all the restrictions on, the President. The Vice 
President shall have other powers and perform such other duties as may 
be prescribed by law, by the Articles of Incorporation, or by these 
Bylaws, or as may be prescribed by the Board of Directors.

                     SECTION 8. DUTIES OF SECRETARY

    The Secretary shall keep the minutes of all meetings of the Board 
of Directors and the minutes of all meetings of the Members, in books 
provided for that purpose; the Secretary shall attend to the giving and 
serving of all notices; may, in the name of the Corporation, affix the 
seal of the Corporation to all contracts of the Corporation and attest 
the seal of the Corporation thereto; shall have charge of such books 
and papers as the Board of Directors may direct, all which shall at all 
reasonable times be open to inspection of any Director upon request at 
the office of the Corporation during business hours; and shall in 
general perform all duties incident to the office of Secretary, subject 
to the control of the President and the Board of Directors.

                     SECTION 9. DUTIES OF TREASURER

    The Treasurer shall have responsibility for the custody and control 
of all the funds and securities of the Corporation. The Treasurer shall 
perform all acts incident to the position of Treasurer subject to the 
control of the President and the Board of Directors; and shall, if 
required by the Board of Directors, give such bond for the faithful 
discharge of duties in such form as the Board of Directors may require.
Article 5.--Committees

                     SECTION 1. EXECUTIVE COMMITTEE

    The Officers of the Corporation will constitute the Executive 
Committee. The Board of Directors may delegate to such Committee any of 
the powers and authority of the board in the management of the business 
and affairs of the Corporation, except with respect to:
    a) The approval of any action which, under law or the provisions of 
these Bylaws, requires the approval of the Members or of a majority of 
all of the Members.
    b) The filling of vacancies on the board or on any committee, which 
has the authority of the board.
    c) The fixing of compensation of the Directors for serving on the 
board or on any committee.
    d) The amendment or repeal of Bylaws or the adoption of new Bylaws.
    e) The amendment or repeal or any resolution of the board, which by 
its express terms is not so amendable or repealable.
    f) The appointment of committees of the board or the Members 
thereof.
    g) The expenditure of corporate funds to support a nominee for 
Director after there are more people nominated for Director than can be 
elected.
    h) The approval of any transaction to which this Corporation is a 
party and in which one or more of the Directors has a material 
financial interest, except as expressly provided in Arizona Nonprofit 
Corporation Law.

                      SECTION 2. OTHER COMMITTEES

    The Corporation shall have such other committees as may from time 
to time be designated by resolution of the Board of Directors. Such 
other committees may consist of persons who are not also members of the 
board. These additional committees shall act in an advisory capacity 
only to the board.

              SECTION 3. MEETINGS AND ACTION OF COMMITTEES

    Meetings and action of committees shall be governed by, noticed, 
held and taken in accordance with the provisions of these Bylaws 
concerning meetings of the Board of Directors, with such changes in the 
context of such Bylaw provisions as are necessary to substitute the 
committee and its members for the Board of Directors and its members, 
except that the time for regular meetings of committees may be fixed by 
the committee. The time for special meetings of committees may also be 
fixed by the Board of Directors. The Board of Directors may also adopt 
rules and regulations pertaining to the conduct of meetings of 
committees to the extent that such rules and regulations are not 
inconsistent with the provisions of these Bylaws.
Article 6.--Members

                     SECTION 1. IDENTITY OF MEMBERS

    The Members of the Corporation shall be composed of those Members 
who have been elected as such by a majority of the Board of Directors; 
and shall retain their status as Members so long as they continue to 
meet the standards of membership as determined by the Board of 
Directors and pay any and all annual dues imposed by the Corporation 
upon its Members in a timely fashion.

                    SECTION 2. MEMBERSHIP STANDARDS

    The Board of Directors shall establish by resolution standards for 
each category of membership, if any. The standards for membership may 
be changed from time to time at the discretion of the Board of 
Directors. Some categories of Members may not have voting rights.

                       SECTION 3. MEMBERSHIP DUES

    Membership dues shall be set by the Board of Directors from time to 
time in such amounts, as the Board of Directors deems appropriate. The 
dues amounts may differ among categories of membership. Membership dues 
shall be paid annually and the Treasurer shall be responsible for 
mailing an annual dues statement to each Member.

                       SECTION 4. ANNUAL MEETING

    The annual meeting of the Members shall be held at the national 
conference of the association of each year or such other date as 
designated by the Board of Directors. The date, time and place of the 
annual meeting shall be designated by the Board of Directors and stated 
in the notice of the meeting. The business to be transacted at the 
annual meeting shall include the transaction of business as may 
properly come before the meeting.

                      SECTION 5. SPECIAL MEETINGS

    Special meetings of the Members may be called at any time for any 
purpose by the President or a majority of the Board of Directors and 
shall be called by an Officer or Director of the Corporation upon the 
request in writing of a majority of the Members. Such request shall 
state the purpose or purposes of the meeting. Business transacted at 
all special meetings shall be confined to the purpose or purposes 
stated in the notice of the meeting.

                     SECTION 6. NOTICE OF MEETINGS

    The Corporation shall notify Members of the date, time, and place 
of each Annual and Special Members' Meeting no fewer that ten (10), nor 
more than sixty (60) days, before the meeting date. Unless the Arizona 
NonProfit Corporation Code (the ``Code'') or the Articles of 
Incorporation require otherwise, the Corporation is required to give 
notice only to Members entitled to vote at the Meet. Unless the Code or 
the Articles of Incorporation require otherwise, notice of an Annual 
Meeting need not include a description of the purpose or purposes for 
which the meeting is called. Notice of a Special Meeting must include a 
description of the purpose or purposes for which the meeting is call. 
If not otherwise fixed pursuant to the Code, the record date for 
determining Members entitled to notice of an Annual or Special Members' 
Meeting is the close of business on the day before the first notice is 
delivered to Members. Unless other provisions of these Bylaws require 
otherwise, if an Annual or Special Members' meeting is adjourned to a 
different date, time, or place, notice need not be given of the new 
date, time or place if the new date, time or place is announced at the 
meeting before adjournment. If a new record date for the adjourned 
meeting is or must be fixed pursuant to these Bylaws, however, notice 
of the adjourned meeting must be given under this Section to persons 
who are Members as of the new record date. Any Member may waive notice 
of any meeting by written waiver filed with the records of the meeting 
either before or after the holding of such meeting. If mailed, such 
notice shall be deemed to be delivered when deposited in the United 
State s mail with first class postage thereon prepaid, addressed to the 
Member at his address, as it appears in the Corporation's record of 
Members. If telexed, such notice shall be deemed to be delivered the 
day such notice is telexed to the Member

                      SECTION 7. WAIVER OF NOTICE

    A Member may waive any notice required by the Code, the articles of 
Incorporation, or these Bylaws before or after the date and time stated 
in the notice. The waiver must be in writing, be signed by the Member 
entitled to the notice, and be delivered to the Corporation for 
inclusion in the minutes or filing with the corporate records. A 
Member's attendance at a meeting (1) waives objection to lack of notice 
or defective notice of the meeting; and (2) waives objection to 
consideration of a particular matter at the meeting that is not within 
the purpose or purposes described in the meeting notice, unless the 
Member objects to considering the matter when presented. Unless 
otherwise required by these Bylaws, neither the business transacted nor 
the purpose of the meeting need be specified in the waiver; provided, 
however, that any waiver of notice of meeting required with respect to 
an amendment of the articles of Incorporation pursuant to Code, as 
amended, a plan of merger pursuant to Code, amended, or a sale of 
assets pursuant to Code, as amended, shall only be effective upon 
compliance with Code, as amended.

                           SECTION 8. QUORUM

    Members entitled to vote may take action on a matter at a meeting 
only if a quorum of those Members, present in person or represented by 
proxy, exists with respect to that matter. Unless the Articles of 
Incorporation, other provisions of these Bylaws or the Code provides 
otherwise, ten percent (10%) of the votes entitled to be cast on the 
matter by the Members constitutes a quorum for action on that matter; 
however, unless twenty percent (20%) or more of the voting power is 
present in person or by proxy, the only matters that may voted upon at 
an annual or regular meeting of Members are those matters that are 
described in the meeting notice. When a quorum is once present at a 
meeting, it is not broken by subsequent withdrawal of any of those 
present.

                           SECTION 9. VOTING

    If a quorum exists, action on a matter by the Members is approved 
if the votes cast favoring the action exceed the votes opposing the 
action, unless the Articles of Incorporation, a Bylaw adopted by the 
Members pursuant to the Code, as amended, or the Code requires a 
greater number of affirmative votes. Unless otherwise provided in the 
Articles of Incorporation, Directors are elected by a plurality of the 
votes cast by the Members entitled to vote in the lection. Unless the 
Articles of Incorporation or these Bylaws provide otherwise, each 
Member is entitled to one vote in person, by proxy on each matter voted 
on at Member meeting or called for via mail or electronic mail. A 
Member may appoint a proxy by an instrument in writing not more than 
one month prior to the meeting, unless such instrument provides for a 
longer period. Such proxy shall be dated, but need not be sealed, 
witnessed or acknowledged.

                 SECTION 10. REPRESENTATION OF MEMBERS

    Each Member school shall be represented at any meeting of Members 
by an individual designated in writing to the Corporation by the chief 
administrator of the Member program. Any action by such representative 
shall be deemed to be the action of the Member so represented.

             SECTION 11. CHANGE OF MEMBER'S REPRESENTATIVE

    If any person serving as a representative of a Member program 
ceases to be an Employee of or associated with the Member school, such 
person shall cease to be a representative of such Member school or an 
Officer or Director of the Corporation, as the case may be.

          SECTION 12. TERMINATION OR SUSPENSION OF MEMBERSHIP

    (a) Grounds for Termination or Suspension. The membership of a 
Member shall terminate or be suspended upon the occurrence of any of 
the following events:
    <bullet> Resignation of the Member;
    <bullet> Expiration of the period of membership, unless the 
membership is renewed on the renewal terms fixed by the board;
    <bullet> The Member's failure to pay dues, fees, or assessments as 
set by the board within sixty days after they are due;
    <bullet> Upon his or her notice of such termination or suspension 
delivered to the office of the Executive Director of the Corporation 
personally or by mail, such membership to terminate or suspend upon the 
date of de1ivery of the notice or date of deposit in the mail.
    <bullet> Upon a determination by the Board of Directors that the 
Member has engaged in conduct materially and seriously prejudicial to 
the interests or purposes of the Corporation.
    (b) Procedure for Termination or Suspension. Following the 
determination that a Member should be terminated or suspended under 
subparagraph (a) of this section, the following procedure shall be 
implemented:
    <bullet> A notice shall be sent by first-class or registered mail 
to the last address of the Member as shown on the Corporation's 
records, setting forth the termination or suspension and the reasons 
therefor. Such notice shall be sent at least fifteen (15) days before 
the proposed effective date of the termination or suspension.
    <bullet> The Member being terminated or suspended shall be given an 
opportunity to be heard, either orally or in writing, at a hearing to 
be held not less than five (5) days before the effective date of the 
proposed termination or suspension. The hearing will be held by the 
Board of Directors in accordance with the quorum and voting rules set 
forth in these Bylaws applicable to the meetings of the Board. The 
notice to the Member of the termination or suspension shall state the 
date, time, and place of the hearing.
    <bullet> Following the hearing, the Board of Directors shall decide 
whether or not the Member should in fact be terminated, suspended, or 
sanctioned in some other way. The decision of the Board shall be final.
    <bullet> Any action challenging a suspension or termination of 
membership, including a claim against alleging defective notice, must 
commence within one year after the date of termination or Suspension.
    <bullet> If this Corporation has provided for the payment of dues 
by Members, any Member terminated from the Corporation shall receive a 
refund of the current years dues already paid. The refund shall be 
based on the effective date of the termination.

            SECTION 13. RIGHTS ON TERMINATION OF MEMBERSHIP

    All rights of a Member in the Corporation shall cease on 
termination or suspension of membership as herein provided.
   section 14. amendments resulting in the termination of memberships
    Notwithstanding any other provision of these Bylaws, if any 
amendment of the Articles of Incorporation or of the Bylaws of this 
Corporation would result in the termination of all memberships or any 
class of memberships, then such amendment or amendments shall be 
effected only in accordance with the provisions of Arizona Nonprofit 
Corporation Law.
Article 7.--Indemnification
   section 1. indemnification by corporation of directors, officers, 
                       employees and other agents
    To the extent that a person who is, or was, a Director, Officer, 
Employee or other Agent of this Corporation has been successful on the 
merits in defense of any civil, criminal, administrative or 
investigative proceeding brought to procure a judgment against such 
person by reason of the fact that he or she is, or was, an Agent of the 
Corporation, or has been successful in defense of any claim, issue or 
matter, therein, such person shall be indemnified against expenses 
actually and reasonably incurred by the person in connection with such 
proceeding.
    If such person either settles any such claim or sustains a judgment 
against him or her, then indemnification against expenses, judgments, 
fines, settlements and other amounts reasonably incurred in connection 
with such proceedings shall be provided by this Corporation but only to 
the extent allowed by, and in accordance with the requirements of, 
Arizona Nonprofit Corporation Law.
               section 2. insurance for corporate agents
    The Board of Directors may adopt a resolution authorizing the 
purchase and maintenance of insurance on behalf of any Agent of the 
Corporation (including a Director, Officer, Employee or other Agent of 
the Corporation) against any liability other than for violating 
provisions of law relating to self-dealing (Arizona Nonprofit 
Corporation Law) asserted against or incurred by the Agent in such 
capacity or arising out of the Agent's status as such, whether or not 
the Corporation would have the power to indemnify the Agent against 
such liability under the provisions of Arizona Nonprofit Corporation 
Law.
Article 8.--Execution of instruments, deposits and funds
                  section 1. execution of instruments
    The Board of Directors, except as otherwise provided in these 
Bylaws, may by resolution authorize any Officer or Agent of the 
Corporation to enter into any contract or execute and deliver any 
instrument in the name of and on behalf of the Corporation, and such 
authority may be general or confined to specific instances. Unless so 
authorized, no Officer, Agent, or Employee shall have any power or 
authority to bind the Corporation by any contract or engagement or to 
pledge its credit or to render it liable monetarily for any purpose or 
in any amount.
                      section 2. checks and notes
    Except as otherwise specifically determined by resolution of the 
Board of Directors, or as otherwise required by law, checks, drafts, 
promissory notes, orders for the payment of money, and other evidence 
of indebtedness of the Corporation shall be signed by the Treasurer and 
countersigned by the President of the Corporation.
                          section 3. deposits
    All funds of the Corporation shall be deposited from time to time 
to the credit of the Corporation in such banks, trust companies, or 
other depositories as the Board of Directors may select.
                            section 4. gifts
    The Board of Directors may accept on behalf of the Corporation any 
contribution, gift, bequest, or devise for the charitable or public 
purposes of this Corporation.
Article 9.--General provisions
              section 1. maintenance of corporate records
    The Corporation shall keep at its principal office in the State of 
Arizona:
    (a) Minutes of all meetings of Directors, committees of the board 
and, if this Corporation has Members, of all meetings of Members, 
indicating the time and place of holding such meetings, whether regular 
or special, how called, the notice given, and the names of those 
present and the proceedings thereof;
    (b) Adequate and correct books and records of account, including 
accounts of its properties and business transactions and accounts of 
its assets, liabilities, receipts, disbursements, gains and losses;
    (c) A record of its Members, if any, indicating their names and 
addresses and, if applicable, the class of membership held by each 
Member and the termination date of any membership;
    (d) A copy of the Corporation's Articles of Incorporation and 
Bylaws as amended to date, which shall be open to inspection by the 
Members, if any, of the Corporation at all reasonable times during 
office hours.
               section 2. fiscal year of the corporation
    The fiscal year of the Corporation shall begin on the first day of 
January and end on the last day of December in each year.
                       section 3. corporate seal
    The Board of Directors may adopt, use, and at will alter, a 
corporate seal. Such seal shall be kept at the principal office of the 
Corporation. Failure to affix the seal to corporate instruments, 
however, shall not affect the validity of any such instrument.
                      section 4. annual statements
    No later than three (3) months after the end of the fiscal year, 
the Corporation shall prepare:
    (a) A balance sheet showing in reasonable detail the financial 
condition of the Corporation as of the close of its immediately 
preceding fiscal year, and
    (b) A profit and loss statement showing the results of its 
operations during the preceding fiscal year.
    (c) Form 990EZ will be filed for each fiscal year.
    Upon written request, the Corporation shall promptly mail to any 
Member of record a copy of the most recent such balance sheet and 
profit and loss statement.
Article 10.--Amendment of bylaws
                          section 1. amendment
    These Bylaws may be amended by a two-thirds vote of the Board of 
Directors of the Corporation. The Members will be notified of the 
change to the Bylaws. Upon notification a simple majority of the 
Members may overturn the Board's decision to amend the Bylaws. The 
membership at large is also empowered to amend the bylaws by proposing 
a change to the membership at an annual meeting or in writing. Such 
proposed change in the Bylaws must pass with a simple majority vote of 
all eligible Members. The membership may also provide by resolution 
that any Bylaw provision repealed, amended, adopted or altered by them 
may not be repealed, amended adopted or altered by the Board of 
Directors.
Article 11.--Amendment of articles
                    section 2. amendment of articles
    After Members, if any, have been admitted to the Corporation, 
amendment of the Articles of Incorporation may be adopted by the 
approval of the Board of Directors and by the approval of the Members 
of this Corporation.
                     section 3. certain amendments
    Notwithstanding the above sections of this Article, this 
Corporation shall not amend its Articles of Incorporation to alter any 
statement which appears in the original Articles of Incorporation of 
the names and addresses of the first Directors of this Corporation, nor 
the name and address of its initial Agent, except to correct an error 
in such statement or to delete such statement after the Corporation has 
filed a ``Statement by a Domestic Non-Profit Corporation'' pursuant to 
Arizona Nonprofit Corporation Law.
Article 12.--Prohibition against sharing corporate profits and assets
  section 1. prohibition against sharing corporate profits and assets
    No Member, Director, Officer, Employee, or other person connected 
with this Corporation, or any private individual, shall receive at any 
time any of the net earnings or pecuniary profit from the operations of 
the Corporation, provided, however, that this provision shall not 
prevent payment to any such person of reasonable compensation for 
services performed for the Corporation in effecting any of its public 
or charitable purposes, provided that such compensation is otherwise 
permitted by these Bylaws and is fixed by resolution of the Board of 
Directors; and no such person or persons shall be entitled to share in 
the distribution of, and shall not receive, any of the corporate assets 
on dissolution of the Corporation. All Members, if any, of the 
Corporation shall be deemed to have expressly consented and agreed that 
on such dissolution or winding up of the affairs of the Corporation, 
whether voluntarily or involuntarily, the assets of the Corporation, 
after all debts have been satisfied, shall be distributed as required 
by the Articles of incorporation of this Corporation and not otherwise.
Certificate
    This is to certify that the foregoing is a true and correct copy of 
the Bylaws of the Corporation named in the title thereto and that such 
Bylaws were duly adopted by the Board of Directors of said Corporation 
on the date set forth below.
                                 ______
                                 

Responses to Questions for the Record From the National Association of 
                    Therapeutic Schools and Programs

    Chairman Miller and Members of the Committee on Education and 
Labor: We appreciate the opportunity to appear before your committee 
and address the important issues relating to abuses in private 
residential treatment of children and adolescents. The National 
Association of Therapeutic Schools and Programs is fully in support of 
stopping abusive, irresponsible practices in residential treatment of 
children in both public and private settings.
    We appreciate your leadership and focus in pushing for responsible, 
informed legislation aimed at improving safety and quality of care for 
troubled children and adolescents who must be placed in out of home 
residential settings. We too feel that strong, well-informed licensure 
and regulation is called for, and is in fact available in many states. 
It should be encouraged and available in all states.
    We are enclosing answers to your specific queries as well as a 
brief statement of background information that provides a context to 
better understand both the evolution of private residential care and 
the evolution of NATSAP as a professional and trade organization 
committed to improving the quality of care for children and their 
families.
A Brief History of Private Therapeutic Schools and Programs
    There has been a rapid growth of private residential treatment 
programs in the past 20 years. Figure 1 demonstrates the acceleration 
of growth by simply plotting the number of NATSAP programs founded by 
decade revealing a rapid acceleration of programs in the past two 
decades.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                figure 1

 *2000-2010 is estimated based on the number of programs founded from 
                               2000-2005.

    Prior to 1980 there were in fact few options for treating troubled 
adolescents. For the first half of the century one could summarize the 
approaches as follows: reformatories (prisons), military academies, the 
military, boarding schools, the unskilled labor market in factories, 
mines, and farms, or for the most seriously disturbed and wealthiest 
families--long term, psychoanalytically inspired, psychiatric 
facilities.
    In the 1960s and 70s a number of alternative approaches for 
treating adolescents emerged. They stood in stark contrast to 
treatments offered by the penal system or by mainstream medicine and 
psychiatry. Many of the early programs opposed the ``medical model'' by 
explicitly rejecting the use of professional therapists and 
psychotropic medication.
    What principles guided these programs? Mel Wasserman, the founder 
of the CEDU programs, stated that the path of a troubled adolescent is 
built on a foundation that is not ``plumb and square.'' To correct this 
problem, children needed the elements of strong parenting such as 
adult, attention, supervision, clear structure, and accountability. In 
brief, the early models suggested that adolescents should not be 
pathologized or diagnosed; they didn't need therapy. Instead they 
needed a chance to grow up and develop character in a new environment, 
free from the obstacles that interfered with normal emotional 
development.
    In the 1980s, program growth began to accelerate and led to spin-
offs from the original alternative programs such as the CEDU programs. 
Wilderness programs also began to emerge and provided a natural way to 
address psychological defenses by placing adolescents in challenging 
natural situations that took away their ingrained but maladaptive 
strategies of dealing with society. Wilderness programs also provided 
meaningful accountability. In addition, they added a spiritual element 
by forcing self-centered adolescents to confront and be inspired by 
natural forces much larger than themselves. Wilderness programs also 
provided the format for a rite of passage and a chance for adolescents 
to see themselves in a new perspective.
    These approaches were quite diverse in style and inspiration, but 
shared a common belief that in order to correct the dangerous 
trajectory of troubled youth they must be removed from toxic 
environments in their communities and placed in situations that 
provided increased adult supervision and structure. These programs 
provided alternative environments aimed at teaching skills, reducing 
maladaptive behaviors, and providing time for adolescents to return to 
the path of developing a healthy character structure. With few 
exceptions these programs remained outside the mainstream practice of 
psychiatry.
Rise and Fall of Inpatient Psychiatry
    Mainstream psychiatry underwent many changes that profoundly 
influenced the rise in alternative programs. In the late 1970s and into 
the mid 1980s, psychiatry underwent a rapid growth in residential 
programming. Hundreds of adolescent psychiatric hospitals, both public 
and private, opened throughout the country. These facilities offered 
treatment with medium length of stays up to a month or more, and served 
thousands of troubled adolescents. The initial growth of psychiatric 
hospitals was in response to a clear need to address the increasing 
struggles of youth in a modern American culture that had lost the 
presence of adult supervision, and structure for youth.
    These hospitals provided a bio-psychosocial form of treatment, but 
the environment and management style were heavily influenced by the 
general medical-hospital model. Psychiatric hospitals were staffed with 
attending psychiatrists and skilled nursing staff. Treatment included 
medication management, individual and family therapy, as well as milieu 
management generally provided in locked and secure facilities with the 
ability to physically restrain patients when necessary.
    However, the rapid expansion of conventional residential 
psychiatric facilities ground to a halt in the latter half of the 
1980s, due in large part to managed care and Prozac (or more accurately 
stated, to the powerful organizations behind these concepts: insurance 
and pharmaceutical companies). Insurance and pharmaceutical companies 
were the agents that dramatically changed the direction of mainstream 
psychiatry. Reacting to rising costs, marketing corruption and greed, 
insurance companies began to manage and restrict length of stay to the 
point that psychiatric hospitals became strictly emergent, short-term, 
palliative treatments for the acutely suicidal. At the same time, 
psychiatry became enamored with the power of neurotransmitters and in 
1985 we entered the age of Prozac, a new antidepressant with fewer side 
effects that could change an individual's mood quickly by altering the 
level of serotonin available at the synapse.
    For a variety of reasons, beyond the scope of this introduction, 
short term palliative and medication based treatments in unstructured 
community settings fail to address the needs of thousands of struggling 
adolescents. And so, these changes in mainstream psychiatry in the 
latter half of the 80s and first half of the 90s created the 
environment that led to the rapid growth of private residential 
programs, many of which are members of NATSAP.
    In the past decade we have seen the emergence of creative 
alternative residential programs that combine the best of the earlier 
alternative and wilderness programs with the sophistication and 
professional training of psychiatry, psychology, social work, and 
family therapy. The NATSAP member programs represent unique blends of 
these various influences, in environments that provide a much needed 
and less expensive level of care than offered by in-patient psychiatric 
hospitals.
The National Association of Therapeutic Schools and Programs (NATSAP)
    The National Association of Therapeutic Schools and Programs 
(NATSAP) was itself formed in 1999 in an effort to raise awareness of 
these relatively new levels of care. The founding members sought to 
create a professional organization that would support the work of 
treating adolescents in non-traditional residential settings. The first 
priority of this fledgling organization, unanimously endorsed by the 
early members, was to develop a common set of ethical principles and 
best practice standards. Our goal was to educate and increase awareness 
among all programs of practices that would create safe environments for 
working with adolescents and their families.
    For the past eight years NATSAP has maintained an ongoing process 
of evaluating and improving our practice standards. We have annual 
conferences attended by over 700 individuals as well as 6 regional 
conferences attended by over 800 this year. The conferences focus on 
continuing education for professionals in our programs as well as 
educating all member employees as to best practice standards. In 
addition, we have launched a professional journal, publish a quarterly 
newsletter, and have begun a long term outcome research project in 
cooperation with the University of New Hampshire that will examine 
program effectiveness and create a long term data base to facilitate 
further research by independent investigators. A number of our member 
programs have also supported major research efforts by independent 
investigators in the past eight years*. In particular, Dr. Keith 
Russell (associate professor at the University of Minnesota) has 
published a number of articles on the short and long term effectiveness 
of wilderness programs. Dr. Ellen Behrens has published several 
articles documenting the effectiveness of longer term therapeutic 
programs.
    It is important to understand that NATSAP is a professional and 
trade organization. We strive to educate, exchange information, and 
raise practice standards. We are not an accrediting or licensing agency 
although we have asked that all members provide evidence that they are 
licensed by a state agency charged with monitoring the well being of 
participants in behavioral health settings, or if state licensure is 
not available, programs must be accredited by a national entity that 
accredits behavioral health programs. We also require that a member's 
clinical program be directly supervised by an independently licensed 
clinician.
    We do not speak for programs that are not members of our 
organization, but as a group of programs we have taken a clear public 
stand against all abusive practices with children. We have continuously 
educated programs and staff in models and methods of handling 
adolescents with the aim of eliminating the use of potentially abusive 
methods. Our practice standards specifically preclude:
    <bullet> procedures that deny a nutritionally adequate diet;
    <bullet> physically abusive punishment;
    <bullet> any behavior support management intervention that is 
contrary to local, state and/or national licensing or accrediting 
standards; and,
    <bullet> the application of consequences that are not in accordance 
with the program participant's basic and fundamental rights and 
protections.
    We are as opposed to the abuse of children as much or more than 
anyone who has testified at your hearings. At the same time we 
recognize the importance and value of residential treatment offered by 
NATSAP member programs, and we ask that the House Committee on 
Education and Labor take time to study and understand this important 
level of care. Our member programs now serve nearly eighteen thousand 
children annually. Families who seek private alternatives do not do so 
lightly or capriciously, but generally out of desperation. They look 
for alternatives because they see their children failing and unable to 
get back on a trajectory that will make it possible to become 
independent, productive young adults. Children end up in residential 
treatment only after they have failed in numerous attempts in 
outpatient and community based settings. Parents make the difficult 
decision to send their child to a residential program only when they 
realize that, despite their best efforts, their home environment is 
failing support their child's growth and development in healthy ways. 
Parents see that their children are lost, anxious, depressed, failing 
in school, or engaging in behavior that is risky and dangerous. Many of 
these children drift into a world filled with alcohol, drugs, and a 
dangerous lack of respect and empathy that compromises society's 
collective values. Parents have no choice but to separate these lost 
adolescents from their toxic community environments.
    It is the failure of community based service that has given rise to 
the growth of private residential programs. It is vitally important 
that legislators understand the importance of this level of care, and 
understand how many lives would be at greater risk if private 
residential programs were not available. Of course such programs should 
be licensed and regulated in a manner that adequately assures the 
safety and well being of participants, but it is also essential that 
regulation be well designed and informed so as to support the 
important, life saving environments and levels of care that such 
private programs offer.
    We further ask that any legislative effort take into consideration 
the major distinctions in types of programs that are available and not 
proceed as if all private residential programs are the same. They are 
not. NATSAP member programs include the following basic types of 
programs:
    <bullet> Therapeutic Boarding Schools
    <bullet> Small Residential Programs
    <bullet> Residential Treatment Centers
    <bullet> Outdoor Therapeutic and Wilderness Programs
    <bullet> Specialty Psychiatric and Behavioral Health Programs
    <bullet> Transitional or Young Adult Living Programs
    Each of these program types requires basic practice standards, 
coupled with standards that reflect the differences in setting and 
level of structure required in each setting.
    Outside of NATSAP, there remain a number of ``boot camps'' or 
punishment based programs that employ degrading, abusive behavioral 
management techniques that are in direct violation of NATSAP practice 
standards. Many of these programs are public or state contracted 
corrective facilities, not private programs. If such a program is a 
member of NATSAP, and we become aware of an inappropriate practice, we 
will ask the program to stop and correct such practices immediately or 
be removed from membership. If such a program is not a member of NATSAP 
we, of course, have no influence over it. Therefore, we educate the 
public of the differences between programs that ascribe to our 
published practice standards and those that do not.
    Finally, our hearts go out to those brave individuals who testified 
about the circumstances of their adolescent's deaths in programs. Due 
in large part to their heartfelt testimony, we have recently enacted a 
``sentinel event'' policy (attached) that will require reporting, 
review and data sharing in an effort to learn from past mistakes and 
prevent future serious injury or loss of life in our member programs.
    We are working with an extraordinarily troubled population of 
adolescents who have failed to respond to numerous medications, 
outpatient care, and other community-based treatments. Working with 
such a population is inherently risky. Nonetheless, we must not ignore 
or give up on these adolescents at a time when they need our help most.
    NATSAP is committed to ensuring that families in desperate need of 
specialized treatment services for their adolescents may choose 
confidently from an array of nurturing, safe, and effective programs. 
We continue our mission to improve adolescent residential care with 
renewed vision, vigor, and optimism. ,
                          research references
Behrens, E. (2006). An evidence-based practice model for residential 
        treatment programs. Journal of Therapeutic Schools and 
        Programs, 1 (2), 33-65.
Behrens, E. & Satterfield, K. (2007). Longitudinal family and academic 
        outcomes in residential programs: How students function in 
        important areas of their lives. Journal of Therapeutic Schools 
        and Programs, 2 (1), 81-94.
Russell, K.C. (2003). Assessing treatment outcomes in outdoor 
        behavioral healthcare using the Youth Outcome Questionnaire. 
        Child and Youth Care Forum. 32(6), 355-381.
Russell, K.C. (2002). Assessing outcomes in outdoor behavioral 
        healthcare. Behavior Management, March/April, 22(2), 12-18.
Russell, K. C. (2002). Does outdoor behavioral healthcare work? A 
        review of studies on the effectiveness of OBH as an 
        intervention and treatment. Journal of Therapeutic Camping, 
        Summer/Fall, 2(2), 5-12.
Russell, K. C. and Hendee, J.C. (1999). Wilderness therapy An emerging 
        treatment for adolescents with behavioral problems. Proceedings 
        of the 6th World Wilderness Congress, Bangalore, India. Watson, 
        A. ed., Rocky Mountain Research Station, US Forest Service, 
        USDA, Ogden, UT.
In Response to Representative Robert Scott
    1. What mechanism is in place to deal with circumstances where your 
members have self-certified that they are abiding by NATSAP's ethics 
and good practices standards when they are in fact not in compliance 
with these standards?
    If a member program is not complying with the signed ethics and 
good practice standards we encourage employees, other programs, or 
families to submit a specific written complaint. The complaint process 
is as follows:
    a) Any complaint against a member program must be submitted to 
NATSAP in the form of a signed letter to the Executive Director of 
NATSAP.
    b) If the complaint involves a specific program participant the 
Executive Director must obtain an appropriate release of information 
permitting NATSAP to access and review personal and confidential 
information.
    c) After receiving a written, signed complaint, the Executive 
Director will contact and inform the President of NATSAP.
    d) The Executive Director and President will review and determine 
whether the complaint involves a potential violation of ethics or 
practice standards. If so the complaint is referred to the Ethics 
Committee Chairperson.
    e) The Ethics Committee Chairperson will establish a 3-5 member 
subcommittee to review the complaint.
    f) Oftentimes, problems are resolved by directly addressing issues 
with the member program. If it agrees to change its practices to 
correct any deviation from our standards the issue is typically closed. 
Depending on the severity of the infraction and its consequences, the 
subcommittee might recommend the program's membership status be made 
conditional or be terminated.
    g) The subcommittee reports its findings and recommendations back 
to the President and Executive Director.
    h) If membership sanctions are recommended, the matter will be 
brought to the Board of Directors, and the Board will follow Section 11 
(Termination or Suspension of Membership) of the organization's by-laws 
(attached).
    2. Dr. Pinto testified that she has collected 700 concerns on 
residential treatment centers over 6 months, while NATSAP has 
investigated less than 5 claims against its members. Can you please 
explain the discrepancy in these numbers?
    Dr. Pinto and her colleagues have been engaged for several years in 
efforts to draw attention to private ``institutional abuse'' of 
children. They have collaborated with advocacy groups and have 
contributed as ``experts'' to several web sites and blogs that are 
intended to expose the horrors of abusive private adolescent treatment 
programs. Dr. Pinto's recent testimony before the House Committee on 
Education and Labor suggested that she actively solicited narratives 
from victims of adolescent maltreatment as part of her efforts to 
collect and draw attention to reports of abuse and neglect in private 
residential treatment settings. Dr. Pinto's high visibility among, and 
active outreach to, communities of victims of abuse and neglect were 
likely the greatest factors contributing to the large quantity of 
narratives she managed to gather.
    NATSAP does not solicit reports of abuse and neglect; however, 
anyone who affirmatively contacts NATSAP via email, telephone, or our 
website receives information as to how an ethical or practice complaint 
about a NATSAP member may be filed with NATSAP. NATSAP has prepared for 
the Committee on Education and Labor a summary of some 17 complaints it 
has received regarding member programs. NATSAP does not accept 
complaints about non-members, yet it does refer to governmental and 
credentialing entities those individuals who contact NATSAP seeking to 
file a complaint against a non-member.
    3. Is there currently any requirement that other treatment options 
be utilized to address a child's behavioral issues before sending them 
to such a center?
    We are aware of no legal or industry requirement that other 
treatment attempts be made prior to an adolescent's placement in a 
private residential program. As a matter of practice, however, families 
typically make numerous unsuccessful attempts at treatment and exhaust 
all other options prior to placing their son or daughter in a private 
residential setting.
    The NATSAP principles require programs to establish specific 
admission criteria used to distinguish between those candidates for 
treatment who will, and those candidates who will not, be best served 
by their program.
    Principle 4.0--Admission/Discharge Policy The program/school will 
have a written Admission Policy, which defines the enrollment criteria 
and delineates inclusion and exclusion criteria. Such criteria will be 
consistent with the mission of the program/school. Admission forms will 
provide pertinent history including family, medical, psychiatric, 
developmental, and educational background information.
    Principle 4.1--The Admissions screening process will examine the 
physical, emotional, behavioral, and academic history, in order to 
determine whether the program is appropriate in light of the respective 
participant's needs and limitations.
In Response to Chairman George Miller
    1. What is NATSAP's policy regarding the use of its logo by 
members? For example, are there any restrictions for using the NATSAP 
logo on marketing materials and websites? Are NATSAP members using the 
NATSAP logo required to disclose that use of the NATSAP logo does not 
represent endorsement by NATSAP of the safety, quality, or 
effectiveness of the members' program?
    All members of NATSAP are encouraged to use the logo to indicate 
they are a member of an association that promotes ethical practices and 
standards that are openly available to the public. To be a member of 
NATSAP, programs have to submit annually an affidavit affirming that 
they are in compliance with our ethical principles. On our website and 
in our directory we clearly indicate that our members endorse our 
principles of good practice and ethics, but we are not and make no 
claim to be an accrediting or licensing agency. We operate much like 
most other professional organizations such as the American 
Psychological Association, or the American Psychiatric Association, or 
the Association of Licensed Social Workers. All of these associations 
ask members to attest by signature that they are in compliance with 
membership standards. Sanctions are applied to a member only upon 
discovery that the member has failed to comply with standards or made a 
false representation in this regard. We operate in the same fashion.
    2. Ms. Moss indicated that NATSAP will research complaints or 
reports of alleged misconduct by members. What procedures are in place 
for reporting misconduct to NATSAP? Are reporting procedures 
documented? Does NATSAP make its reporting procedures widely available, 
for example on its website? Do members have a duty, arising from their 
membership, to report any misconduct to NATSAP that violates NATSAP's 
Ethical Principles or Principles of Good Practice? How many complaints 
of misconduct has NATSAP received since its formation? And what steps 
were taken to research such complaints or reports of misconduct?
    The procedures for handling complaints regarding ethical or best 
practice standards are outlined in the first answer to Representative 
Scott above. In addition, NATSAP members are encouraged and expected to 
report to NATSAP any misconduct that violates NATSAP's Ethical 
Principles or Principles of Good Practice. The 2008 NATSAP membership 
agreement will state this obligation as a duty of membership.
    NATSAP has no record of complaints concerning its members submitted 
or reviewed prior to 2002. Since 2002, 17 complaints have been filed 
with NATSAP. Twelve of these complaints were submitted after the 
current complaint procedure was published. Please see our summary of 
complaints for greater detail on NATSAP's responses to reports of 
misconduct.
    3. Ms. Moss indicated that NATSAP researched at least one instance 
where a complaint was made regarding a member's website. Please 
describe the complaint, the actions taken by NATSAP, the corrective 
actions taken by the member, and provide the identity of the member.
    NATSAP[MB1] received this particular complaint in June 2006 and 
forwarded it to Gil Hallows, Ethics Chair. The complaint and NATSAP's 
internal reporting on the matter (printed in italics) read as follows:
    a) Program listing on their website and on the NATSAP website 
stated ``individual therapy twice per week, flexible lengths of stay, 
daily group sessions''.
    Rick Meeves, Executive Director of Outback Therapeutic Expeditions, 
acknowledged the statement was in error in the NATSAP Directory (and 
website) and on the program's website and stated it was an 
unintentional oversight on their part. He committed to reviewing all of 
their marketing literature and correcting this misstatement. He 
authorized NATSAP to change the statement to ``weekly individual 
therapy sessions'' on our website and would make sure that next year's 
directory is accurate. Mr. Meeves also committed to clarifying the 
statement ``daily group sessions'' to more accurately reflect that two 
groups are conducted by therapists and the balance are educational or 
process groups conducted by other staff.
    b) Generally not delivering what they said they would:
    <bullet> Parent weekend was minimized compared to what they were 
told
    <bullet> Couldn't see the camp or other kids because of ``3 hours 
of HIPAA paperwork''. Verbally and on website ``supposedly take part in 
desert rituals and rites of passage. There was no exposure to camp 
rituals, understanding the process, etc.; no rites of passage that are 
talked about and that staff [previously informed me] would be part of 
the parent visit when I checked [my son] in.''
    <bullet> [Cancellation] of a family therapeutic experience on the 
parent visit should not have been blamed on ``the wilderness is both 
advantageous and difficult, and today we got the bad, sorry. There were 
things we had to deal with and we didn't get to you. Bye.''
    Mr. Meeves further committed to reviewing all of the written 
material Outback uses pertaining to their parent visits in the context 
of what they are actually doing to insure they are accurately 
representing this part of their program. He believes that they 
occasionally have a therapist who may not deliver the full extent of 
services to parents during the parent visits, and committed to 
monitoring this more closely, but believes overall they deliver what 
they say they will to parents.
    I feel confident that Rick [Meeves] will follow through with his 
commitments. I will check in with Rick [Meeves] in the near future to 
hold him accountable for making the stated corrections and completing 
the internal reviews.
    4. What actions does NATSAP intend to take in light of the 
testimony given by the U.S. Government Accountability office regarding 
Alldredge Academy's delinquency in remitting permit fees to the federal 
government? Is operating on federal land without a valid permit a 
violation of NATSAP's Ethical Principles or Principles of Good 
Practice?
    NATSAP reviewed Alldredge Academy's application carefully when it 
applied for membership in late 2003. We interviewed the ownership and 
management, as well as talking directly to the licensing agency in 
their state. After careful consideration and deliberation we admitted 
them to membership status in late 2004. There are a few facts that we 
were unaware of that emerged from your hearings and in your question 
that we will consider to be a written ethical complaint. These issues, 
and the delinquency in remitting permit fees to the federal government, 
have been referred to our ethics committee for review and 
investigation. We are willing to provide you with a copy of our 
findings. We respectfully request copies of the GAO and Committee on 
Education and Labor's investigations and sources of information that 
indicate a failure on Alldredge Academy's part to comply with specific 
ethical and practice principles.
    5. NATSAP hosts national and regional conferences to foster the 
professional development of its members. Have any of these conferences 
ever included lectures, workshops, presentations or discussions 
concerning cases of abuse, neglect, mistreatment, or death of children; 
what led to these horrific tragedies; what needs to change; and what 
NATSAP members need to do in response?
    Agendas for NATSAP's past five national conferences are attached. 
Examination of the agendas makes it clear that most of the topics are 
related to improving the clinical treatment of children in our members' 
programs. The aim of the conference is to exchange information, 
generate enthusiasm for best practices, and support those who work 
directly with children. Inherent in the presentations are many ways to 
approach children that obviate the need for confrontational 
interactions that have the potential of leading to abuse. We also have 
had many direct presentations at both national and regional conferences 
that address specifically prevention of abuse and deaths in programs. 
Below is a listing of such presentations:
    NATSAP 2003 Conference
    <bullet> Abuse Risk Management
    <bullet> Risk Management
    NATSAP 2005 Conference
    <bullet> Critical Incident Response (4 hour workshop)
    <bullet> Effective Programs and Risk Reduction: It Is All About 
Relationships
    NATSAP 2006 Conference
    <bullet> A Look At Suicide in Out-of Home Placements
    NATSAP 2007 Conference
    <bullet> Behavior Support Management from a NATSAP Perspective (3 
hour workshop)
    <bullet> Critical Incident Response
    <bullet> Joint commission--pre-conference workshop (note)
    NATSAP 2008 Conference
    <bullet> Risk Management (8 hour workshop--scheduled as of August 
15)
    Regional Conferences
    2006:
    <bullet> Self Harm, Cutting; Dealing With a Growing Epidemic
    2007:
    <bullet> Crisis Management
    <bullet> Emergency Preparedness
    6. NATSAP's new membership requirements mandate that members be 
licensed by an appropriate state mental health agency, or accredited by 
a reputable mental health accreditation organization. On what basis is 
an accreditation organization deemed to be credible?
    The accreditation organization must have standards on Clinical 
service, and safety of program participants that clearly define 
requirements regarding the treatment being offered and the credentials 
of the staff providing the clinical services. Currently NATSAP will 
accept the Commission on Accreditation of Rehabilitation Facilities 
(CARF), Commission on Accreditation (COA) and Joint Commission (JCAHO). 
These three agencies are the most respected independent behavioral 
health accrediting agencies in the country. All of these accrediting 
agencies require annual reports of compliance and have regular on-site 
inspections to assure that programs operate in accordance with their 
own, and the accrediting organization's, policies.
    7. Please provide a chart showing the year in which each NATSAP 
member joined NATSAP, or lost its membership due to expiration or 
revocation. [See Addendum A]
    8. It is our understanding that the NATSAP board is primarily 
comprised of individuals associated with member programs. Given that 
NATSAP researches and acts upon complaints against members when they 
are reported to NATSAP, please describe NATSAP's policy regarding 
conflicts-of-interest for its board members. For example, are board 
members required to recuse themselves on matters before the board when, 
by virtue of their affiliation with a particular member, their judgment 
may be prejudiced in fact or in appearance?
    To be considered for election to the board of directors of NATSAP, 
an individual must be an owner or an executive of a member program in 
good standing. It has always been our practice to have board members 
recuse themselves during discussions where conflicts of interest exist 
or have the potential to exist. The specific procedure reads as 
follows: Conflicts of interest that affect NATSAP at times exist with 
individual Board members, the executive director, ad hoc board members, 
committee chairs or committee members. During all business meetings it 
is necessary and appropriate for the leader of such meeting to ask 
members who have a potential conflict of interest to recuse themselves 
during discussion and or voting whenever such conflicts arise.
    9. Recent reports indicate that a NATSAP member, Youth Care, Inc., 
has been placed on probation by the Utah Department of Human Services 
and that criminal neglect charges have been filed against this member 
due to the death of a child. Youth Care, Inc. uses the NATSAP logo on 
its website to promote their program. Given these reports and the use 
of the NATSAP logo by this member, what steps does NATSAP intend to 
take to research reports of criminal neglect on the part of Youth Care, 
Inc.?
    10. Aspen Education Group, which owns Youth Care, Inc., also 
operates Aspen Achievement Academy, another NATSAP member. Aspen 
Achievement Center is currently being investigated for a teen's 
attempted suicide. While authorities conduct a thorough investigation, 
what does NATSAP do to ensure the safety of students placed in its 
member facilities?
    Response to Questions 9 and 10:
    Both Youth Care and Aspen Achievement Academy are current members 
and we will ask both to respond to our current ``sentinel event review 
policy''. Since both are also accredited by the Joint Commission and 
licensed by the state of Utah they are required to provide detailed 
information regarding all sentinel events. They are also required to 
conduct a ``root cause analysis'' to examine the causes of the death 
and to determine whether procedures or policies need to be revised to 
increase safety in the future. On review we will require a corrective 
action plan and, if the deaths resulted from violations of practice 
standards or ethical principles, sanctions will be issued.
    Add a summary of the complaint and identify the parties.
                                 ______
                                 
                                                  October 23, 2007.
Hon. Dale K. Kildee,
U.S. House of Representatives, Rayburn HOB, Washington, DC.
    Dear Representative Kildee: We are enclosing a full accounting of 
the ethical complaints received by NATSAP since 2002. We do not have 
records of complaints filed prior to 2002 as we changed executive 
directors, moved central office location, and did not have adequate 
reporting procedures in place. As we compiled existing records since 
2002 we realize that while our procedures have improved, they remain 
inadequate to ensure accurate registration, recording of deliberation, 
and documentation of outcomes. This hearing has made it clear that 
NATSAP must move quickly to establish a more transparent and accurate 
record of complaints. To this end the Board has already adopted a new 
Sentinel Event Policy (enclosed in the report to Chairman Miller) that 
creates a mandatory reporting of any events that lead to death or 
serious injury. We are now in the process of creating a more 
comprehensive system to encourage reporting of all ethical and practice 
complaints as well as a process that will ensure accurate and timely 
response and record of such complaints.
    The following pages provide summaries of all ethical and practice 
complaints we have records for from 2002- 2007. We are also enclosing 
copies of all of our records of complaints in Appendix A with specific 
names removed in order to protect confidentiality of individuals.
            Sincerely,
                                 NATSAP Board of Directors.
Ethical and Practice Standard Complaints
    1. (February, 2002) Program A--The complaint, filed by the parents 
on February 3, 2002 included a) not being responsive to the young man's 
need for medical attention; b) violation of privacy by contacting the 
parent's school district regarding the young man's crisis prior to 
contacting the parents; c) moving the young man to a ``safe house'' and 
not disclosing the costs. There is a document marked confidential that 
appears to have been faxed to a machine that was out of ink. The 
document, however, is included with the other information.
    <bullet> The review information on this complaint is limited except 
for a copy of an email sent by Dr. John Santa, then Ethics Chair, that 
indicated the complaint needed to be reviewed but first needed to 
obtain appropriate releases of information, which were not forthcoming. 
The program closed January 2004.
    2. (June, 2004) Program B--A former teacher sent email expressing 
concern regarding the ownership of the program and requesting 
confidentiality. This request for confidentiality and use of his 
statement prevented further review.
    3. (September, 2004) Program C--A complaint was received from an 
educational consultant. Written complaints and releases of information 
were received from two parents. The complaints focused primarily on 
quality of care and that the executive director was not licensed in 
Montana as a therapist.
    <bullet> Gil Hallows, Ethics Chair, reviewed the complaint and, 
according to his report, found facts that supported a disgruntled 
employee assisted by an educational consultant. Mr. Hallows There is a 
document marked confidential that appears to have been faxed to a 
machine that was out of ink. The document, however, is included with 
the other information, that the Executive Director's role was that of 
an administrator with therapy provided by two licensed therapists. The 
complaint of a ``misrepresentation of the nature of services'' was not 
substantiated but did suggest shortcomings in the areas of quality 
assurance and customer service more than a clear-cut breach of ethics.
    4. (September, 2004) Program D--The complaint was filed by a NATSAP 
member program regarding the recruiting of their employees by another 
member program.
    <bullet> Dr. John Santa and Gil Hallows spoke with the individual 
filing the complaint and the member program named in the complaint. Dr. 
Santa and Mr. Hallows did not find a violation of ethical standards. 
They did recognize the potential impact if our members failed to 
recruit in open ways. Several articles have been written for the NATSAP 
newsletters as well as open discussions held at Regional and National 
Conferences regarding ethical practices in recruitment.
    5. (March, 2005) Program E--Father wrote letter stating his 
daughter was started on medication without his consent. He stated he 
shares custody with his ex-wife. He further requested ``anonymity and 
the utmost delicacy in approaching the [program]''. While he handwrote 
a release to investigate, a NATSAP Release of Information was mailed to 
him on March 22, 2005. He failed to sign it and return it.
    6. (February, 2006) Program F--Employee complaint. Sharon Laney, 
President, in review of the complaint with Jan Moss, Executive Director 
found it to be an employee grievance and that the employee had done the 
right thing by contacting the Montana Labor Board. The individual was 
advised that the incidents reported, which were labor related, were not 
addressable under NATSAP's guidelines.
    7. (June, 2006) Program G--A parent filed a complaint addressing 
the information on the program's website and their delivery of 
services. The complaint and the report provided by Gil Hallows (in 
italics) follow:
    a) Program listing on their website and on the NATSAP website 
stated ``individual therapy twice per week, flexible lengths of stay, 
daily group sessions''.
    The Executive Director acknowledged the statement was in error in 
the NATSAP Directory (and website) and on the program's website and 
stated it was an unintentional oversight on their part. He committed to 
reviewing all of their marketing literature and correcting this 
misstatement. He authorized NATSAP to change the statement to ``weekly 
individual therapy sessions'' on our website and would make sure that 
next year's directory is accurate. He also committed to clarifying the 
statement ``daily group sessions'' to more accurately reflect that two 
groups are conducted by therapists and the balance are educational or 
process groups conducted by other staff.
    b) Generally not delivering what they said they would:
    <bullet> Parent weekend was minimized compared to what they were 
told
    <bullet> Couldn't see the camp or other kids because of ``3 hours 
of HIPAA paperwork''. Verbally and on website ``supposedly take part in 
desert rituals and rites of passage. There was no exposure to camp 
rituals, understanding the process, etc.; no rites of passage that are 
talked about and that staff [previously informed me] would be part of 
the parent visit when I checked [my son] in.''
    <bullet> [Cancellation] of a family therapeutic experience on the 
parent visit should not have been blamed on ``the wilderness is both 
advantageous and difficult, and today we got the bad, sorry. There were 
things we had to deal with and we didn't get to you. Bye.''
    The program Executive Director further committed to reviewing all 
of the written material the program uses pertaining to their parent 
visits in the context of what they are actually doing to insure they 
are accurately representing this part of their program. He believes 
that they occasionally have a therapist who may not deliver the full 
extent of services to parents during the parent visits, and committed 
to monitoring this more closely, but believes overall they deliver what 
they say they will to parents.
    I feel confident that [Executive Director] will follow through with 
his commitments. I will check in with him in the near future to hold 
him accountable for making the stated corrections and completing the 
internal reviews.
    8. (July, 2006) Program H--The father notified NATSAP of a 
complaint filed with the State of North Carolina, Department of Health 
and Human Services, Division of Facilities. The email was sent to Gil 
Hallows, Ethics Chair, on August 15, 2006. A Release of Information was 
not required at the time as this review could be conducted without the 
need to question the program about the specific young woman involved. 
The complaint covered unauthorized medical treatment. No formal report 
was submitted after Gil Hallows' inquiry.
    9. (September, 2006) Program I--The complaint focused on disputing 
a) a penalty for early withdrawal from the program; b) a delay in the 
discussion of a Treatment Plan the parents had received; c) loss of 
contact lens; d) requirements for letter writing (program requires 
student to write 1 per week; parents received 3 letters in the 10 weeks 
their daughter was in the program; e) the consulting psychiatrist 
prescribed naltrexone and zonisamide; and f) because of all of the 
above they requested a refund of the early withdrawal penalty cost as 
applied to their American Express card.
    <bullet> Gil Hallows, Ethics Chair, advised Jan Moss, Executive 
Director that the review included requesting a copy of the contract 
with the parents and found that the contract advises the parents of the 
early withdrawal. Mr. Hallows also advised Ms. Moss the other concerns 
raised were ``customer service'' issues as opposed to ethical or 
practice violations and that he had counseled the program, encouraging 
them to review their practices.
    10. (September, 2006) Program J--The parent provided NATSAP with 
the complete medical history of the child, police reports and was 
advised that the state was conducting an investigation. Sharon Laney 
reviewed the situation with an attorney due to the ongoing state 
investigation. October 2007, Ms. Laney has followed up with the mother, 
who has not responded. We are sending an official request to the State 
of Florida Investigation agency for the results of their investigation.
    11. (December, 2006) Program K--A mother wrote a letter outlining 
her concerns regarding her adult daughter's admission to a young adult 
program under the guidance of her father. Due to the age of the young 
woman, which would require a Release of Information from her, and her 
father's participation in the admission process, NATSAP did not conduct 
any review.
    12. (December, 2006) Program L--The parents' written complaint 
addressed the program's philosophy including
    a) Dedicated to the concept of using the least restrictive means 
necessary to induce change.
    Actual experience: For the first 2 weeks of enrollment, the young 
woman was made to sleep on the floor in the common room; was made to 
wear shower shoes, inside and out, weather conditions notwithstanding; 
all students are given ``time outs for crying. Timeouts consisted of 
sitting cross-legged away from the group''.
    b) The therapist will contact the parents within the first 2 weeks 
of placement to establish a regular schedule of therapeutic phone calls 
and begin the therapeutic alliance with the parents. Actual experience: 
Received only one phone call and it was a message left on the home 
message machine
    c) Karate is inherently therapeutic and promotes character 
development and physical well-being. Quotes follow from the philosophy 
including ``multiple benefits for the students, including * * * a 
greater respect for others''; ``increased understanding of self and 
increased tolerance for others''; ``students * * * develop 
personalities founded on humility and gentleness''. Actual experience: 
Daughter was openly chastised in class for not paying attention 
(daughter has ADHD).
    d) Initial and ongoing assessment of academic needs and academic 
programs are individualized. Actual Experience: Two weeks after 
enrollment the educational advisor contacted the parents and advised 
them that an academic assessment had not been done (normally within two 
weeks of enrollment). The assigned educational advisor was ignorant of 
the Psychological Evaluation of their daughter, had no knowledge of her 
expressive language disorder, nor her diagnosed ADHD.
    <bullet> Executive Director, Jan Moss, directed the parents to the 
Utah state licensing agency, Department of Human Services as this 
agency has comprehensive behavior management and program management 
standards. Note: Copy of the Release of Information has been misplaced.
    13. (January, 2007) Program M--The parent submitted a complaint in 
writing and release of information. The complaint addressed the school 
was dispensing medication without a license to do so. An email request 
was placed on April 13, 2007 requesting details that would assist 
NATSAP in its review of the complaint with no response. Over the next 
several weeks, Jan Moss called several times to confirm academic 
licensure status as requested in the complaint, but did not receive a 
return call. Ms. Moss was advised months later that no return call was 
made due to an ongoing investigation and was advised at that time of 
the program closure on August 31, 2007.
    14. (February, 2007) Program N--The complaint filed by the parent 
outlined that medical treatment was denied to her son initially and 
that they waited until he was dehydrated to the point he had to be 
hospitalized for 4 days. Jan Moss responded to the email requesting a 
signed letter outlining the complaint and attached 2 Release of 
Information forms. One form was to be signed by the parent and the 2nd 
form by her son, as he was over 18. Due to not receiving the signed 
releases, we were unable to conduct a review.
    15. (May, 2007) Program O--NATSAP was among 60 organizations and 
individuals copied on a complaint filed with the State of Utah 
Department of Human Services. The complaint addressed in detail the 
parent's view of the program's violation of Utah regulations. Within 
the week after receipt, James Meyer, Ethics Chair, inquired with Ken 
Stettler of the Utah licensing agency and was advised the complaint was 
being reviewed. We will inquire further with the program and with the 
state authorities.
    16. (June, 2007) Program P--The parent provided email notification 
of complaint. Jan Moss sent response to request complaint with 
signature plus completion of Release of Information on June 28, 2007. 
Due to not receiving the signed releases, we were unable to conduct a 
review.
    17. (July, 2007) Program Q--The parent complaint addressed 
treatment of a sinus infection and misrepresentation of the program's 
population. Per procedure, Jan Moss reviewed the complaint with 
President, Sharon Laney. Ms. Laney advised Ms. Moss to direct the 
parents to the Utah licensing authorities, Department of Human 
Services, regarding the treatment of the medical condition and the 
misrepresentation to the Ethics Chair, James Meyer. Mr. Meyer reported 
that his review found no evidence of misrepresentation. Ms. Moss is in 
receipt of a 2nd letter from the parents questioning the review and she 
has requested Mr. Meyer to follow-up with the parents. We have not 
completed the review of this complaint.
                                 ______
                                 
    Chairman Miller. Dr. Pinto?

 STATEMENT OF ALLISON PINTO, PH.D., RESEARCH PSYCHOLOGIST AND 
ASSISTANT RESEARCH PROFESSOR, LOUIS DE LA PARTE FLORIDA MEDICAL 
         HEALTH INSTITUTE, UNIVERSITY OF SOUTH FLORIDA

    Dr. Pinto. Good morning, Chairman Miller, Ranking Member 
McKeon and distinguished members of the committee.
    Thank you for this opportunity to testify before you today, 
and I am grateful for your leadership and your efforts to help 
protect youth from maltreatment by convening this hearing.
    I am Dr. Allison Pinto, and I am a child and adolescent 
psychologist licensed in the states of California and Florida. 
I am a member of the American Psychological Association and 
assistant professor at the University of South Florida and a 
researcher at the Children's Board of Hillsborough County, a 
children's services council in Florida.
    For the past 3 years I have served as the coordinator of A 
START: Alliance for the Safe, Therapeutic and Appropriate use 
of Residential Treatment.
    Each week, I receive phone calls and emails from concerned 
youth, family members and professionals who are trying to 
navigate the increasingly complex world of residential services 
for youth, or to cope with the aftermath of their experiences. 
I have also spoken with a variety of individuals associated 
with the growing number of programs that are being framed as 
alternatives to traditional residential mental health care.
    Many parents and professionals are shocked by the 
descriptions of institutional abuse that continue to emerge 
regarding the care that American adolescents are receiving in 
alternative residential programs. In disbelief, they often ask, 
``Well, how do you know that these are not just a few isolated 
incidents that have been sensationalized in the media?'' or 
``How do you know that these are not just the complaints of 
manipulative, troubled teens or disgruntled families?''
    People are also in shock to learn that in many states these 
programs are not required to be licensed or regulated with 
regard to the education, mental health care and residential 
services that they provide.
    In order to address this disbelief and to gain a clearer 
understanding of the variety of residential services that are 
now available for youth, we posted an online survey to 
systematically gather reports from individuals who participated 
in residential programs when they were adolescents. Within 6 
months, over 700 people responded to the survey.
    The detailed descriptions that young adults have been 
willing to share through this survey provide data that reveal a 
highly disturbing phenomenon. While there are youth and 
families who are satisfied with the services that they have 
received, a significant number of adolescents report 
maltreatment in programs across the country. Survey findings 
reveal the following:
    Reports of mistreatment, abuse and neglect are widespread. 
There were concerns expressed regarding 85 programs located in 
23 states and in several foreign countries.
    Facilities are not maintaining health and safety standards, 
and youth are experiencing medical neglect and educational 
deprivation.
    Incidents of physical and sexual abuse have occurred that 
were never reported by youth due to threatening program 
environments or the absence of universal access to protection 
and advocacy hotlines.
    Treatment is violating human rights. In the guise of 
behavior modification, youth are required to earn their basic 
human rights to privacy, dignity and contact with family 
members. Youth are being deprived of food, sleep and shelter. 
They are forced to endure stress positions, humiliation and 
intentionally fear-inducing encounters. Programs are also using 
cruel and dangerous thought reform techniques.
    The use of seclusion and restraint is highly, highly, 
grossly inappropriate. These practices are being used as 
punishments for rule violations rather than only when a person 
is a serious danger to themselves or others. Youth are enduring 
painful restraint practices, and isolation for periods of 
weeks, even months has been reported.
    Youth have expressed profound distress about their 
residential experiences. For some respondents, the memories of 
their experience remain deeply disturbing and have led to a 
pattern of anxiety consistent with post-traumatic stress 
disorder.
    So are these reports credible? Based on the level of detail 
and the overall coherence of the accounts provided and using my 
clinical judgment as a child psychologist, I conclude that they 
are very credible. If those of us who are mandated reporters of 
suspected child abuse were to learn of this type of treatment 
occurring in a family's home, we would be required to file a 
suspected child abuse report so that the concerns could be 
investigated. We must consider the reports of maltreatment and 
abuse occurring in residential facilities just as seriously.
    Recognizing that the online reports provided are 
retrospective and are not necessarily from a representative 
sample of all individuals who attended residential programs, 
the survey findings, nonetheless, indicate that a serious 
problem has emerged.
    Because there are now hundreds of reports of abuse and 
neglect related to a diversity of programs across many states, 
these reports reveal a coherent pattern of institutional 
maltreatment. Once a pattern becomes apparent, it is not 
appropriate scientifically or ethically to dismiss reports of 
maltreatment as a few bad apples or a few noisy complaints.
    We must now acknowledge the problem in order to resolve it.
    Thank you again for the opportunity to present this 
testimony and for your efforts to safeguard and restore the 
wellbeing of American youth and families. I would be pleased to 
answer any questions.
    [The statement of Dr. Pinto follows:]

 Prepared Statement of Allison Pinto, Ph.D., Research Psychologist and 
Assistant Research Professor, Louis de la Parte Florida Medical Health 
                 Institute, University of South Florida

    Thank you, Mr. Chairman and committee members, for this opportunity 
to testify before you today regarding the very serious problems of 
mistreatment, abuse and neglect of youth in residential facilities.
    I am a child psychologist licensed in the states of California and 
Florida, an assistant professor at the University of South Florida, and 
a researcher at the Children's Board of Hillsborough County, a 
children's services council in Florida.
    For the past three years I have served as the coordinator of A 
START: Alliance for the Safe, Therapeutic and Appropriate use of 
Residential Treatment. A START is a national, cross-sector alliance of 
mental healthcare and other child-serving professionals, as well as 
parents and youth, who have come together in response to growing 
concerns regarding the mistreatment and abuse of youth in residential 
facilities.
    Each week, I receive phone calls and emails from concerned youth, 
family members and professionals who are trying to navigate the 
increasingly complex world of residential services for youth, or to 
cope with the aftermath of their experience in residential programs. I 
have also spoken with a variety of individuals associated with the 
growing number of residential programs that are being framed as 
alternatives to traditional residential mental healthcare.
    Many parents and professionals are shocked by the descriptions of 
institutional abuse that continue to emerge regarding the care that 
American adolescents are receiving in alternative residential programs. 
In disbelief, they often ask, ``How do you know that these aren't just 
a few isolated incidents that have been sensationalized in the media?'' 
or ``How do you know that these aren't just the complaints of 
manipulative, ``troubled teens'' or disgruntled families?
    In order to address these questions, and to gain a clearer 
understanding of the variety of residential programs now available for 
youth, my colleagues and I posted an online survey to systematically 
gather reports from individuals who participated in residential 
programs when they were adolescents. Within six months over 700 people 
responded to the survey.
    The detailed descriptions that young adults have been willing to 
share through this survey provide data that reveal a highly disturbing 
phenomenon. While there are youth and families who are satisfied with 
the care and services they have received in residential programs, a 
significant number of adolescents report being mistreated and 
maltreated in programs across the country. To give you a sense of the 
nature and scope of problems that have emerged, I will be submitting 
for the record a preliminary summary of our survey findings, which 
reveal the following:
    1. Reports of mistreatment, abuse and neglect are widespread. There 
were concerns relating to 85 programs located in 23 states, and in 
U.S.-owned programs based in foreign countries as well. More than half 
of the identified programs are self-described ``therapeutic boarding 
schools,'' and more than one third of the identified programs are 
members of NATSAP.
    2. Youth are being transported to residential facilities by escort 
services under threat or use of force, without their consent. Youth 
were transported in handcuffs and leg-irons, and experienced these 
practice as highly distressing--they frequently felt like they were 
being kidnapped with their parents' permission.
    3. Facilities are not maintaining health and safety standards. 
Youth were not provided with the basics of a sanitary environment, 
leading to illnesses such as scabies, and staff supervision was not 
consistently provided to ensure the safety of program participants.
    4. Amateur psychological interventions are being conducted. In the 
guise of ``behavior modification,'' youth were required to earn their 
human rights to privacy, dignity, contact with family members, and peer 
relations--rights that are now safeguarded for all participants in 
licensed and regulated mental healthcare facilities. Youth were 
recruited and admitted on the basis of identified psychiatric 
disorders, but then received services that ignored established 
standards of care specific to their presenting problems.
    5. Educational deprivation is occurring. In a variety of programs, 
youth were not receiving instruction from trained and qualified 
teachers, textbooks and educational materials did not meet state 
curriculum standards, and vacuous education is being provided in the 
guise of ``independent study.'' Some students returned home to their 
original school settings to find themselves significantly behind and 
some who ``graduated'' from the alternative residential programs 
discovered afterward that the diplomas they received were not 
recognized by their home states or college admissions departments.
    6. Medical neglect is occurring. Medications were administered 
without appropriate supervision by trained medical personnel, as well 
as the discontinuation of medications without physician monitoring. The 
absence of trained medical providers in residential programs has caused 
health problems to go unrecognized and untreated, in some cases leading 
to death.
    7. The use of seclusion and restraint is grossly inappropriate. 
Seclusion or physical restraint were used as a punishment for rule 
violations and negative attitudes. Isolation for periods of weeks was 
reported, and youth described enduring painful, dangerous and 
humiliating restraint practices. In licensed mental healthcare 
facilities this would be prohibited, as seclusion and physical 
restraint can only be used when a person is determined to be a serious 
danger to self or others.
    8. Treatment is violating human rights. Youth were deprived of 
food, sleep and shelter as a consequence for breaking rules or not 
evidencing sufficient progress in the program. Youth have been forced 
to endure stress positions, physical pain and fear-inducing encounters 
such as being taken into the woods or onto the highway blindfolded.
    9. Treatment is explicitly abusive. There were incidents of 
physical and sexual abuse that youth never reported due to distrust of 
staff, threatening program environments, or the absence of universal 
access to child protection and advocacy hotlines.
    10. Youth are in distress and suffering. Respondents expressed 
profound distress about their residential experiences. Comments 
included:
    <bullet> ``It was a terrible place. Mentally scarring. I would hope 
NO ONE would ever have to go to a place like that. It's worse than 
jail.''
    <bullet> ``I don't ever want another child to be so abjectly 
hopeless or so horribly abused. I don't ever want another family to be 
torn up when there is the possibility of being reunited and healed.''
    <bullet> ``I still have bad dreams about it. I wake up shaking and 
nervous that I am there again. It has scarred me emotionally and I 
don't know if I will ever get over it.''
    Some youth were informed by staff that their parents were aware of 
the maltreatment that they were enduring, and then felt betrayed and 
abandoned by their families, causing damage to their relationships that 
has been difficult to heal even after families have been reunited. For 
some respondents, the memories of their experience in alternative 
residential programs remain deeply disturbing and have led to a pattern 
of anxiety consistent with post traumatic stress disorder.
    Are these reports credible? Based on the level of detail and the 
overall coherence of the accounts provided, and using my clinical 
judgment as a child psychologist, I conclude that they are very 
credible. If those of us who are mandated reporters of suspected child 
abuse were to learn of such treatment occurring in a family's home, we 
would be required to file suspected child abuse reports so that the 
concerns could be investigated. We must consider the reports of 
mistreatment and abuse occurring in residential facilities just as 
carefully.
    Recognizing that the online reports provided are retrospective and 
are not necessarily from a representative sample of all individuals who 
attended residential programs as youth, the survey findings nonetheless 
provide compelling information indicating that there are far more than 
a few isolated cases of youth who are being mistreated and are 
suffering in residential programs. Because there are now hundreds of 
reports, related to such a diversity of programs, in such a broad range 
of states and countries, these reports reveal a coherent pattern of 
institutional maltreatment. Once a pattern becomes apparent in this 
manner, it is not appropriate, scientifically or ethically, to dismiss 
reports of maltreatment as exceptions to the norm. Rather, it becomes 
necessary to understand each report in the context of an evolving, 
societal phenomenon of institutional mistreatment and abuse, which must 
be acknowledged if it is to be eliminated.
    Thank you for bringing attention and responding to this disturbing 
phenomenon, in order to safeguard and restore the well-being of 
American youth and families.
                                 ______
                                 
    [Responses to questions for the record from Dr. Pinto 
follow:]

                                                  October 24, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: Thank you for the opportunity to testify at 
the October 10, 2007 hearing, ``Cases of Child Neglect and Abuse at 
Private Residential Treatment Facilities.'' I appreciate the 
opportunity to contribute what I have learned from youth, family 
members, service providers and other child-serving professionals 
regarding patterns of mistreatment and maltreatment in residential 
programs. I am grateful for your attention and expressed concern about 
these problems, and I am hopeful that the Committee will respond both 
to protect youth and families from further harm and to restore the 
well-being of those who have already been injured in residential care. 
To augment my testimony, I am submitting a response to the questions 
posed by Representative Robert Scott (D-VA) as well as the following 
materials for the hearing record:
    <bullet> ``Protecting Youth in Unlicensed, Unregulated Residential 
`Treatment' Facilities,'' an article co-authored with Lenore Behar, 
Robert Friedman, Judith Katz-Leavy and William G. Jones, which was 
published in Family Court Review in July, 2007.
    <bullet> This peer-reviewed article includes preliminary findings 
of the online survey of young adults who attended specialty residential 
programs when they were adolescents, which I referred to in my 
testimony. Analyses of the full set of personal accounts are currently 
underway, and will be made available when completed.
    <bullet> ``Unlicensed Residential Programs: The Next Challenge in 
Protecting Youth,'' an article co-authored with Robert M. Friedman and 
other members of the Alliance for Safe, Therapeutic and Appropriate use 
of Residential Treatment (A START), which was published in the American 
Journal of Orthopsychiatry in 2006.
    <bullet> This peer-reviewed article reviews the phenomenon of 
``specialty'' residential programs for youth, describes the efforts A 
START, and provides recommendations regarding responses across fields 
and sectors.
    <bullet> ``The Exploitation of Youth and Families in the Name of 
``Specialty Schooling:'' What Counts as Sufficient Data? What are 
Psychologists to Do?'' an article co-authored with Robert Friedman and 
Monica Epstein, which was published in Summer, 2005 in the APA Public 
Interest Directorate: Children, Youth and Families Division News.
    <bullet> This peer-reviewed article provides a summary of 
identified problems relating to the phenomenon of private residential 
services for youth, based upon an initial review of reports published 
in the media prior to the availability of any more systematically 
collected information on the issues.
    <bullet> ``A START Fact Sheet'' posted on the A START website at 
http://astart.fmhi.usf.edu
    <bullet> This fact sheet describes the phenomenon of mistreatment 
in private residential facilities for youth, summarizes initial efforts 
of A START, and provides a list of warnings for parents considering 
residential treatment.
    <bullet> Postings to http://endinstitutionalabuse.wikispaces.com, 
an online wiki created less than one week prior to the October 10, 2007 
hearing to provide a virtual space where individuals can post letters, 
accounts and concerns that they want to share directly with Congress 
regarding the abuse of youth in residential facilities. Many people who 
submitted letters to this wiki described their personal experiences of 
mistreatment and abuse in private residential facilities. The wiki is 
also an opportunity for individuals to provide input regarding proposed 
legislation to address this issue as a means of participatory 
policymaking.
    Thank you again for the opportunity to contribute to the 
Committee's efforts to clarify and respond to the patterns of 
mistreatment and abuse in private residential treatment. If you need 
any further information from me, I would be pleased to provide it. A 
powerful response is urgently needed in order to protect and restore 
the well-being of American youth and families, so your leadership in 
these efforts is deeply appreciated.
            Sincerely,
                                      Allison Pinto, Ph.D.,
 Department of Child and Family Studies, Louis de la Parte Florida 
                                           Mental Health Institute.
Response to Questions Posed by Representative Robert Scott (D-VA)
    <bullet> Do ``tough love'' strategies have an appropriate treatment 
role for major psychological disorders? If so, what is that role?
    ``Tough love'' strategies are not appropriate treatment strategies 
for major psychological disorders or for other milder social, emotional 
or behavioral difficulties experienced by youth. In 2004, the National 
Institutes of Health (NIH) issued a State-of-the-Science Conference 
Statement regarding the prevention of violence and related health-
risking social behaviors in adolescents. NIH concluded, ``the evidence 
indicates that `scare tactics' don't work and there is some evidence 
that they may make the problem worse rather than simply not working.'' 
This report noted that ineffective, inappropriate treatment for 
adolescents included programs limited to scare tactics or toughness 
strategies. (For further details, go to: http://consensus.nih.gov/2004/
2004YouthViolencePreventionSOS023html.htm)
    Often these ``tough love'' strategies are actually referred to as 
``behavior modification'' in private residential facilities for youth. 
It should be noted that these practices were addressed decades ago in a 
1974 study prepared by the staff of the Subcommittee on Constitutional 
Rights of the Committee on the Judiciary, U.S. Senate, which was 
titled, ``Individual Rights and the Federal Role in Behavior 
Modification.'' Even at that time, there was opposition to ``behavior 
modification therapies'' on the basis of rights to privacy and mandates 
against cruel and unusual punishment, especially with regard to thought 
reform techniques. Similar techniques are now being used in numerous 
private residential programs for youth, per the reports of former 
program participants and staff members (For examples, see the article I 
am submitting for the record titled, ``Protecting Youth in Unlicensed, 
Unregulated Residential `Treatment' Facilities,'' as well as letters 
submitted on the ``End Institutional Abuse'' wiki). These strategies 
place all program participants at risk, but especially those youth with 
major psychological disorders who are already particularly vulnerable.
    <bullet> Is there currently an obligation for mental health 
professionals who recommend these programs to clients to ascertain 
their safety and validity as a treatment option?
    Psychologists, psychiatrists, clinical social workers and 
psychiatric nurses abide by the principles and standards established by 
their respective professional ethical codes. For example, the APA 
Ethical Principles of Psychologists and Code of Conduct defines 
principles of beneficence and nonmaleficence, fidelity and 
responsibility, integrity and justice. With regard to justice, the Code 
states, ``Psychologists exercise reasonable judgment and take 
precautions to ensure that their potential biases, the boundaries of 
their competence, and the limitations of their expertise do not lead to 
or condone unjust practices.'' With regard to standards of competence, 
the Code states, ``Psychologists have or obtain the training, 
experience, consultation, or supervision necessary to ensure the 
competence of their services, or they make appropriate referrals.'' 
Furthermore, psychologists do not accept fees for referrals as this is 
deemed unethical. (For further details, go to: http://www.apa.org/
ethics/code2002.html)
    Each mental health profession has a code that is similar in many 
ways to this APA Code for psychologists, and in many states the 
licensing of mental health professionals through the Department of 
Health and Human Services or Board of Behavioral Sciences is linked to 
these various professional codes. As such, there is an accountability 
for providing safe, therapeutic and appropriate referrals among 
licensed mental healthcare professionals.
    There are two dilemmas worth noting, however. First, very little 
information is available and accessible at this time with regard to 
particular residential treatment programs for youth, especially 
programs that advertise themselves as alternatives to traditional 
residential mental healthcare. In many states these alternative 
residential programs are still not required to be licensed or regulated 
with regard to the mental healthcare they provide (e.g. programs that 
self-identify as ``therapeutic wilderness programs,'' ``therapeutic 
boarding schools'' or ``emotional growth academies.'') This makes it 
difficult for mental health professionals, as well as families, to 
discern whether a particular program is safe and appropriate.
    The other dilemma worth noting is that many families are being 
referred to private residential treatment facilities by individuals 
other than mental health professionals. Families receive 
recommendations from teachers, pastors, legal professionals and friends 
and often these recommendations are more compelling to them than those 
they receive from mental health professionals (if they seek a 
referral), especially if the family has already tried to get their 
child's needs met through the formal mental healthcare system without 
success. Furthermore, there is an emerging referral ``industry'' of 
self-identified ``educational consultants,'' and these individuals are 
not required to be licensed. As such, they are not accountable for the 
recommendations they provide to families. It should also be noted that 
numerous private residential programs pay these referral sources, a 
practice that is prohibited in the ethical codes of mental health 
professionals.
    <bullet> Is there currently any requirement that other treatment 
options be utilized to address a child's behavioral issues before 
sending them to such a center?
    Through the Individuals with Disabilities Education Act (IDEA), 
youth are entitled to receive services in the ``least restrictive 
environment.'' The federal law indicates that states must have 
procedures in place to assure that, ``to the maximum extent 
appropriate, children with disabilities, including children in public 
or private institutions or other care facilities, are educated with 
children who are not disabled, and that special classes, separate 
schooling, or other removal of children with disabilities from the 
regular educational environment occurs only when the nature or severity 
of the disability is such that education in regular classes with the 
use of supplementary aids and services cannot be achieved 
satisfactorily.'' Through the Individualized Education Program (IEP) 
planning process, students are safeguarded from inappropriate placement 
in residential facilities. (For further details, go to: http://
www.wrightslaw.com/info/lre.osers.memo.idea.htm)
    The dilemma is that many families are by-passing the IEP process 
because they are paying out-of-pocket to place their children in 
private residential facilities. Families who choose this route are 
often never made aware of the full continuum of educational and mental 
healthcare options that might benefit their children. Families who 
contact me after having placed their children in private residential 
facilities often indicate that they were never made aware of community-
based treatment that could have provided more intensive interventions 
than regular education and outpatient psychotherapy, without requiring 
them to use out-of-home residential care. This realization is often 
quite distressing to parents who say they never wanted to send their 
children away but were led to believe that residential treatment was 
their only option.
    Thank you for the careful attention you are paying to these issues, 
and for your leadership in safeguarding and restoring the healthy 
development and well-being of youth and families.
            Respectfully submitted,
                                       Allison Pinto, Ph.D.
                                 ______
                                 
    [Additional submissions from Dr. Pinto follow:]

          Exploitation in the Name of ``Specialty Schooling''

   The Exploitation of Youth and Families in the Name of ``Specialty 
Schooling:'' What Counts as Sufficient Data? What are Psychologists to 
                                  Do?

  Allison Pinto, Ph.D., Robert M. Friedman, Ph.D. and Monica Epstein, 
                                 Ph.D.,
Louis de la Parte Florida Mental Health Institute, University of South 
                                Florida

    Correspondence concerning this article should be addressed to 
Allison Pinto, Department of Child and Family Studies, Louis de la 
Parte Florida Mental Health Institute, MHC 2222, University of South 
Florida , 13301 N. Bruce B. Downs Boulevard , Tampa , Florida 33612 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="711001181f051e31171c19185f0402175f1415045f">[email&#160;protected]</a>
    A multi-disciplinary taskforce has formed at the Louis de la Parte 
Florida Mental Health Institute to study the issues raised in this 
article, and the authors wish to thank and acknowledge the other 
members of this taskforce: Lenore Behar, Amy Green, Barbara Huff, 
Charles Huffine, Christina Kloker-Young, Wanda B. Mohr and Christine 
Vaughn.
    The Exploitation of Youth and Families in the Name of ``Specialty 
Schooling:'' What Counts as Sufficient Data? What are Psychologists to 
Do?
    Despite an expanding evidence base regarding promising and 
effective practices in children's mental health, and the implementation 
of these practices in a growing number of communities, an alarming 
treatment phenomenon is now occurring. Since the early 1990's, hundreds 
of private residential treatment facilities have been established 
across the country and abroad, and thousands of American youth are now 
receiving services in these institutions. Many of these programs 
identify themselves as private ``therapeutic boarding schools,'' 
``emotional growth schools,'' or ``specialty boarding schools.'' Unlike 
accredited and licensed residential treatment centers that are required 
to meet clear and comprehensive standards with regard to the treatment 
they provide, many of these new programs are not currently subject to 
any licensing or monitoring as mental health facilities in a number of 
states. It is the unlicensed and unregulated programs that are the 
focus of this article.
    Highly disturbing reports have been published in the public media 
describing financial opportunism by program operators, poor quality 
treatment and education, rights violations and abuse of youth in these 
facilities (Dibble, 2005; Rowe, 2004; Aitkenhead, 2003; Weiner, 2003d; 
Kilzer, 1999). Outrage has been expressed by youth, family members and 
program employees (Rock, 2005; Rowe, 2004; Rubin, 2004; Aitkenhead, 
2003; Rimer, 2001). The former director of one program expressed her 
dismay by sending a letter to the regional Department of Child Welfare 
calling for the program to be closed immediately because it ``takes 
financial advantage of parents in crisis, and puts teens in physical 
and emotional risk'' (Weiner, 2003a, par. 39). Multiple state 
investigations have been conducted and lawsuits have been filed in 
response to reports of abuse, neglect and mistreatment of youth in 
``therapeutic boarding schools.'' In numerous cases the lawsuits have 
led to convictions or high cost settlements (Hechinger & Chaker, 2005; 
Dukes, 2005; Rock, 2005).
    Several states already have good laws on licensing and regulation 
of these facilities and other states have responded to these growing 
concerns by proposing (and in a few states passing) legislation to 
monitor and regulate the full range of residential programs for youth, 
including ``therapeutic boarding schools.'' An example of such 
legislation is Utah Senate Bill 107, which was signed into law in 
March, 2005; this bill defines ``therapeutic schools'' and clearly 
specifies that these programs must be licensed and regulated like all 
other residential treatment facilities for youth (S. 107, 2005). Beyond 
the state level, Federal Bill HR 1738, the End Institutionalized Child 
Abuse Bill, was introduced in Congress in April, 2005; this bill 
proposes to provide funding to states to support the licensing and 
monitoring of the full range of child residential treatment programs.
    Although policymakers have begun to take action, there has been 
little response from the field of children's mental health. In 
particular, there has been no acknowledgement of the reports of abuse 
in ``therapeutic boarding schools'' and similar programs by the 
American Psychological Association. In one sense, the lack of response 
from psychologists is consistent with our epistemological framework and 
commitment to the scientific method; we typically gather data first, 
and then analyze and interpret it, prior to developing a response or 
course of action. Currently, there are no comprehensive, systematically 
collected data available about private, unregulated residential 
treatment, so the lack of response at this time might seem appropriate. 
In addition to valuing the science of psychology, however, we also 
aspire to safeguard the welfare and rights of those whom we seek to 
serve, and we say that we are aware that special safeguards may be 
necessary to protect the rights and welfare of vulnerable persons or 
communities (Ethical Principles of Psychologists and Code of Conduct, 
2002). It is therefore important that we educate ourselves about the 
current residential treatment phenomenon and then respond, as 
psychologists, in a manner consistent with our principles and our 
mission. Although the increased and unregulated institutionalization of 
youth is far from what we may have hoped for or predicted, it is 
occurring nonetheless, and we cannot ignore it any longer.
    The following review is a summary of the issues that have been 
identified in the accounts that have been published to date regarding 
residential treatment programs that are not licensed or accredited as 
such, but continue to operate. These accounts have been featured in 
publications including the New York Times, the Washington Post, and 
Time Magazine, and have been aired on BBC News and National Public 
Radio. The series of articles published in 2003 by Tim Weiner at the 
New York Times is particularly comprehensive, and is based on 
interviews and correspondence with more than 200 parents, youth, staff 
members and program officials. Lou Kilzer has also reported extensively 
on the topic in the Denver-Rocky Mountain News (Kilzer, 1999). It 
should be noted that these series do not address all residential 
treatment and neither does this article. They specifically raise 
concerns about unlicensed and unregulated private programs that serve 
youth with emotional and behavioral challenges.
A ``Booming Industry''
    It is difficult to determine exactly how many private residential 
treatment programs billed as ``specialty schools'' currently exist. In 
a white paper titled, ``Unregulated Youth Residential Care Programs in 
Montana'' the author noted that, ``Because private behavioral 
healthcare programs are not required to be licensed or registered with 
any state agency, it is a bit like knowing about an `undiscovered lake' 
in the mountains (Montana Department of Public Health and Human 
Services [DPHHS], 2003).'' Regardless, an Internet search using the 
term ``troubled teen therapeutic boarding school'' easily identifies a 
few hundred facilities, many of which are listed on websites such as 
strugglingteens.com, familyfirstaid.org and natsap.org. In January, 
2004, the Chicago Tribune reported, ``Even in a lackluster economy, 
business for therapeutic schools is booming. While exact numbers are 
hard to come by, a trade association and other experts say the schools 
are a $1 billion to $1.2 billion industry that serves 10,000 to 14,000 
school-age children (Rubin, 2004, par. 8).'' Some of these residential 
programs house over 500 youth in a single facility (Cole, 2004; Weiner, 
2003a; Weiner, 2003d). According to reports in the Wall Street Journal 
and the New York Times, the cost of each program generally ranges from 
$30,000 to $80,000 per year (Hechinger & Chaker, 2005; Rimer, 2001). 
Medicaid and most health insurance plans will not pay for youth to 
attend these programs, so families are typically paying out of pocket, 
sometimes mortgaging their homes or borrowing money from relatives to 
pay for ``tuition'' (Cole, 2004; Rubin, 2004; Rimer, 2001). It is the 
very fact that this involves a private transaction between a family and 
a program that makes it possible for the programs to operate outside of 
public monitoring.
How the Programs Describe and Market Themselves
    Residential facilities that self-identify using the labels of 
``therapeutic boarding school,'' ``emotional growth school'' or 
``specialty boarding school'' seem to emphasize non-pathologizing 
approaches in their marketing materials. One program conveys this by 
stating, ``Labels and diagnoses are left at the door and students are 
identified and accepted as being intrinsically valuable and good.'' 
Phrases like, ``respecting dignity and integrity,'' ``uncovering true 
potential'' and ``accepting personal responsibility'' are frequently 
incorporated into the program mission statements. At the same time, 
these programs are often quite explicit in marketing to families of 
youth with psychiatric diagnoses, claiming expertise in treating a 
variety of serious conditions including PTSD, Bipolar Disorder and 
Eating Disorders (NATSAP Directory, 2005).
    In terms of the services marketed within these programs, various 
mental health interventions are described, including individual, group 
and family therapy, substance abuse counseling, cognitive-behavioral 
therapy, behavior management (sometimes described in terms of ``point 
systems'' and ``level systems''), and the maintenance of a therapeutic 
milieu. Other less traditional interventions are described in some of 
the institutions, including equine therapy, canine therapy, and 
wilderness therapy. The educational opportunities in these institutions 
are often highlighted in marketing materials with phrases such as 
``extensive college-preparatory curriculum,'' a ``boutique educational 
package customized for each participant,'' and education ``custom-
tailored to each student's unique needs (NATSAP Directory, 2005).''
    There appear to be three major ways in which these programs are 
currently marketed: through the Internet, through ``educational 
consultants,'' and through participating family referrals. Many 
programs host their own websites and are listed as well on ``referral 
sites,'' which offer web-based surveys for parents to complete to 
determine whether their children are exhibiting problems that would 
benefit from residential placement. ``Educational consultants'' are 
also available to connect families with programs. The qualifications 
and credentials of these consultants vary (Rubin, 2004) and there is no 
evidence of educational requirements or state regulations for this 
profession. It is reported that some referral sources receive a 
commission by certain residential facilities for each family they 
recruit, although this arrangement is not regularly made explicit to 
families (Rock, 2005a; Hayes, 2003). Some programs also encourage 
families whose youth are attending the program to recruit other 
families they know; for each new admission, the referring family 
receives a month of ``tuition-free'' services (Aitkenhead, 2003). 
Families have reported sending their children to programs on the 
recommendation of other parents without ever further investigating the 
program or services described (Cole, 2004).
Actual Services Delivered
    Although the services and educational resources described in 
marketing materials may be highly appealing to families seeking 
support, many of these programs seem to provide far less than they 
advertise. With regard to mental health intervention, therapy is often 
provided by staff members who have no formal clinical training, and 
therapeutic interventions suggestive of gross incompetence are commonly 
reported (Cole, 2004; Aitkenhead, 2003; Kilzer, 1999; Weiner, 2003a; 
Weiner, 2003d). Harsh and punitive behavioral modification practices 
have been repeatedly documented (Romboy, 2005; Weiner, 2003c; Kilzer, 
1999).
    Some youth have reported that they were required to discipline 
other youth in the facility in order to progress within the behavioral 
modification level system (Lukes, 2005; Weiner, 2003a). Psychiatrists 
are not regularly part of the treatment team, and incorrect dosing 
(Romboy, 2005) as well as frequent over-medication of program 
participants has been reported (Weiner, 2003d). Education has been 
described as a series of monitored study halls without trained, 
licensed teachers (Rowe, 2004; Aitkenhead, 2003) and some programs 
issue ``diplomas'' that would not be officially recognized by state 
Departments of Education (Garifo, 2005).
    Some facilities are explicit about their refusal to accept 
accountability for delivering the services they advertise (Kilzer, 
1999; Weiner, 2003a). For example, in one program, parents are required 
to sign a contract that ``states plainly that the program `does not 
accept responsibility for services written in sales materials or 
brochures' or promises made by `staff or public relations personnel 
(Weiner, 2003a, par. 25).' ''
Abuse of Youth by Program Staff
    Highly disturbing incidents of physical, emotional and sexual abuse 
as well as rights violations have been documented in a number of 
reports (Hechinger & Chaker, 2005; Rock, 2005; Garifo, 2005; Harrie & 
Gehrke, 2004; Bryson, 2004b; Weiner, 2003b; Montana DPHHS, 2003). In 
some programs, parents are instructed by staff to immediately dismiss 
their children's reports of abuse as attempts at manipulation 
(Aitkenhead, 2003; Weiner, 2003c). Emotional abuse has been reported in 
terms of verbal abuse, humiliation, forced personal self-disclosure 
followed by mockery and extreme fear inducement (Hechinger & Chaker, 
2005; Rock, 2004; Aitkenhead, 2003; Weiner, 2003b; Weiner, 2003d; 
Kilzer, 1999). Criminal probes relating to allegations of sexual 
assault by staff members have occurred in multiple programs as well 
(Hechinger & Chaker, 2005; Bryson, 2004b; Hayes, 2003; Weiner, 2003d; 
Montana DPHHS, 2003; Kilzer, 1999).
Excessive and Abusive Seclusion and Restraint Practices
    In a number of programs, the seclusion and restraint procedures are 
significantly more restrictive than the standards generally accepted by 
mental health licensing and accrediting bodies. In one program, youth 
described lying on their stomachs in an isolation room for 13 hours a 
day, for weeks or months at a time, with their arms repeatedly twisted 
to the breaking point (Rowe, 2004; Weiner, 2003c; Aitkenhead, 2003). A 
youth from one Montana facility reported that he spent six months in 
isolation (Weiner, 2003d). Signed affidavits from former employees of a 
therapeutic boarding school in northern Utah indicate that youth in 
that program were restrained face down in manure (Romboy, 2005; 
Stewart, 2005).
    In some programs, parents sign contracts authorizing program staff 
to use mechanical restraints on the youth for unlimited periods of time 
(Kilzer, 1999). The restraint practices in one institution were 
described by a former resident as, ``a completely degrading, painful 
experience * * * they pin you down in a five-point formation and that's 
when they start twisting and pulling your limbs, grinding your ankles 
(Aitkenhead, 2003, par. 9).'' Records allegedly documenting the use of 
handcuffs, belts, pepper spray and duct tape to restrain youth have 
been cited as well (Bryson, 2005b; Dibble, 2005).
Rights violations
    Some programs restrict youth rights without clear clinical 
justification. Restricted rights include prohibitions against: written 
and phone contact with family members for the initial two to six months 
(Kilzer, 1999; Aitkenhead, 2003); privacy, even in bathrooms and 
showers (Aitkenhead, 2003; Kilzer, 1999); and wearing shoes, which 
could facilitate running away (Kilzer, 1999). There is no indication 
that families or youth are provided with information about how to 
contact advocacy groups if they have concerns about the treatment and 
care the youth receives. This is quite unlike accredited psychiatric 
hospitals and residential treatment centers, which are required to post 
hotline numbers that youth and family members can call if they believe 
their rights are being violated.
``Escort'' Services
    Families frequently hire ``professional escort services'' to 
transport youth to the residential facilities (Bryson, 2005; Rowe, 
2004; Cole, 2004; Labi, 2004; Rimer, 2001). It is estimated that more 
than twenty escort companies are currently in operation, and to date 
they are not state-regulated (Labi, 2004). Parents pay escorts as much 
as $1800 to enter their sleeping children's bedrooms in the middle of 
the night, awaken them, handcuff and/or leg iron them if they protest 
or resist, and travel with them to the residential programs where they 
will be admitted (Labi, 2004; Weiner, 2003a). Parents sign a notarized 
power-of-attorney authorizing the escort(s) to `` take `any act or 
action' on the parents' behalf during the transport (Labi, 2004, par. 
16,'' and promising that the family will not sue the escort(s) ``for 
any injuries caused by `reasonable restraint' '' (Labi, 2004, par. 16).
Neglectful Conditions
    Some of these programs are neglectful, in terms of environmental 
safety and cleanliness, nutrition and medical care. Unsanitary living 
conditions have been described repeatedly (Bryson, 2005; Romboy, 2005; 
Stewart, 2005; Harrie & Gehrke, 2004; Labi, 2004; Weiner, 2003d; 
Aitkenhead, 2003; Kilzer, 1999). Youth have contracted scabies while 
living at some residential facilities (Romboy, 2005; Weiner, 2003d; 
Kilzer, 1999). Unhealthy diets are maintained for youth in a number of 
programs (Romboy, 2005; Labi, 2004; Weiner, 2003d; Weiner, 2003a; 
Aitkenhead, 2003; Kilzer, 1999). Authorities have reported that they 
found expired medications in a program investigated in December, 2004 
(Dibble, 2005), and other programs were recently investigated for 
medical neglect as well (Rock, 2005; Romboy, 2005).
Limited Rights of Youth
    Although numerous lawsuits have been filed to hold programs 
accountable for alleged misrepresentation, mistreatment and abuse, it 
is commonly understood that youth currently have little legal standing 
to challenge their placement in these programs (Kilzer, 1999). Barbara 
Bennett Woodhouse, the director of the Center on Children & the Law at 
the University of Florida, stated, ``The constitution has been 
interpreted to allow teens effectively to be imprisoned by private 
companies like [escort services] and private schools like [unregulated 
``specialty boarding schools'']--as long as their parents sign off. If 
these were state schools or state police, the children would have 
constitutional protections, but because it is parents who are 
delegating their own authority, it has been very difficult to open the 
door to protection of the child (Labi, 2004, par. 79).''
Minimal to Nonexistent Regulatory Oversight
    Limited to nonexistent regulatory oversight is evident in many 
states and there is a lack of federal legislation requiring oversight 
of private residential treatment programs (Hechinger & Chaker, 2005; 
Garifo, 2005; Gehrke, 2005; Rubin, 2004). Thus, institutions are able 
to market themselves and provide treatment without accountability, 
which in turn makes it possible for programs to take advantage of youth 
and families. Even when parents inquire about program licensure or 
accreditation, the response they receive may be misleading. Programs 
often cite accreditation by the regional Association of Schools and 
Colleges and Universities as ``Special Purpose Schools;'' however, this 
process only relates to the educational component of a program and does 
not address therapeutic or behavioral components or standards relating 
to overnight care (Montana DPHHS, 2003).
Proposed Response
    A number of issues are raised by the current operation of hundreds 
of private residential treatment facilities marketed as ``specialty 
boarding schools,'' many of which are reportedly exploiting families 
and mistreating and abusing youth. The first issue relates to the need 
for responsible and effective oversight. As a society, one of our 
primary duties is to provide for the protection and safety of our 
citizens, particularly vulnerable populations such as minors. Within 
health care, concerns about safety contribute to the development of 
licensing, regulatory, monitoring, and accreditation procedures for 
organizations, as well as for professions. Laws and procedures 
regarding the reporting of child abuse and neglect, and the 
investigation of complaints, are primary mechanisms to help keep 
children safe. In response to the growing number of reports regarding 
mistreatment and abuse of youth in ``therapeutic boarding schools'' and 
other similar programs, responsible and effective oversight is crucial 
in all states. All facilities that serve minors with emotional and 
behavioral challenges need to be licensed and regularly monitored, with 
particular emphasis placed on those services provided to address the 
emotional and behavioral needs of youth. All such facilities also need 
procedures in place for the reporting of abuse. This is particularly 
important since accounts in the public media indicate that many of the 
private treatment facilities are not open to routine visits by family 
and/or professionals and operate outside public scrutiny.
    The issue we are raising here is not whether residential care is 
needed for some youth, or whether private residential treatment 
programs are effective. Clearly there is a need for residential care 
for some youth, and some programs are likely very high quality. Rather, 
the issue of central concern is whether appropriate standards exist 
such that all programs providing intervention to youth with identified 
emotional and behavioral challenges are licensed and monitored with 
regard to the residential treatment they provide, and are maintaining 
conditions that protect the safety of those who are served.
    A second issue reflected in the recent, dramatic growth of 
residential treatment facilities is the need to increase access to 
effective care for children and families in their own homes and 
communities so that residential care is used only when needed and not 
by default because other services are unavailable. Progress has been 
made through efforts such as the system of care grant program of the 
federal Center for Mental Health Services (2002) and through local and 
state initiatives, but there clearly is a need for great improvement, 
as described by the President's New Freedom Commission (2003), and the 
Child and Family Subcommittee of the President's New Freedom Commission 
(Huang et al., in press). Significant progress has been made in 
developing individualized, culturally competent, and intensive 
interventions to be provided in communities; now the ``reach'' of these 
efforts needs to be extended.
    A third issue related to the proliferation of unregulated 
residential treatment programs for youth is the use of the worldwide 
web as a powerful marketing tool. With the growth of access to the 
Internet by the general public, the mental health field must recognize 
that families will be the target of intensive, impressive, and 
effective marketing strategies, and that such marketing makes it 
difficult for both families and formal service providers to distinguish 
high quality programs from low quality programs. Such marketing creates 
a need for professional organizations such as the American 
Psychological Association to develop resources and provide information 
to help families make considered and sound choices among treatment 
options.
    There is also a need for professional organizations, including the 
American Psychological Association, to take a stand on issues such as 
the need for increased oversight of ``therapeutic boarding schools'' 
and similar programs, and the need for adequate protections for 
children in these programs. In the late 1980s, when there was concern 
about the marketing practices of private for-profit psychiatric 
hospitals, a Resolution on Advertising by Private Hospitals was issued 
by APA's Division of Child, Youth, and Family Services (1986). Such 
action is needed again in the face of multiple, publicized reports that 
families are being exploited and children are being mistreated and 
abused in unregulated and unmonitored facilities, and youth have no 
mechanism to report abuse.
    It would certainly be easier to take a strong stand if there were 
an abundance of carefully and systematically collected data describing 
who is served in these programs, how they are served, how often abuse 
and mistreatment takes place, and what the overall outcomes are for the 
programs and youth. Given the fact that the programs of such great 
concern are not accountable to the public, these data are unavailable 
now and not likely to become available in the near future. In the face 
of multiple reports in the media, and multiple interviews with 
children, parents, and former staff of such programs, is there not now 
sufficient information to take action to protect children from abuse 
and families from exploitation? We strongly believe that the answer to 
that question is a resounding ``Yes!'' We cannot continue to look the 
other way or use the absence of data as an excuse for inaction. The 
time for action is now.
                               references
Aitkenhead, D. (2003, June 29). The last resort. The Observer Magazine. 
        Retrieved December 16, 2004 from http://observer.guardian.co.uk
American Psychological Association. (2002). Ethical principles of 
        psychologists and code of conduct. Retrieved May 20, 2005 from 
        http://www.apa.org
Associated Press. (2004, September 20). Investigation shows troubled 
        school may be buying interest with lawmakers. The Daily Herald. 
        Retrieved April 15, 2005 from http://harktheherald.com
Bryson, A. J. (2005, April 21). Utah-based group under fire--
        legislation targets association of schools for troubled youths. 
        Deseret Morning News. Retrieved April 21, 2005 from http://
        deseretnews.com
Bryson, A. J. (2005, February 8). Tighter control of youth programs 
        sought in Utah. Deseret Morning News. Retrieved April 15, 2005 
        from http://deseretnews.com
Bryson, A. J. (2004, April 17). Problems plaguing program for youths. 
        Deseret Morning News. Retrieved April 15, 2005 from http://
        deseretnews.com
Bryson, A. J. (2004, April 9). Youth programs in Utah targeted. Deseret 
        Morning News. Retrieved April 15, 2005 from http://
        deseretnews.com
Capitol Advantage LLC (n.d.) Legislation Details `To assure the safety 
        of American children in foreign-based and domestic 
        institutions, and for other purposes.' Retrieved May 20, 2005 
        from http://www.congress.org/congressorg/
        bill.xc?billnum=H.R.1738&congress=109
Cole, W. (2004, November 22). How to save a troubled kid? Time 
        Magazine. Retrieved April 15, 2005 from http://www.time.com
Dibble, S. (2005, January 10). Scrutiny increased on centers for teens. 
        The San Diego Union Tribune. Retrieved April 15, 2005 from 
        http://signonsandiego.com
Dukes, L. (2005, March 26). Financial troubles shut down CEDU schools. 
        Bonner County Daily Bee. Retrieved April 15, 2005 from http://
        bonnercountydailybee.com
Garifo, C. (2005, February 16). State agencies probe Ivy Ridge. 
        Watertown Daily Times. Retrieved February 16, 2005 from http://
        www.wdtimes.com
Gehrke, R. (2005, February 11). New push for camp regulation. The Salt 
        Lake Tribune. Retrieved April 15, 2005 from http://
        www.sltrib.com
Harrie, D. & Gehrke, R. (2004, September 21). Teen-help operators have 
        clout--Family behind schools with checkered record
calls in political favors, critics say. The Salt Lake Tribune. 
        Retrieved February 17, 2005 from http://www.sltrib.com
Hayes, T. (2003, June 18). Boarding schools go unchecked in Utah. 
        Deseret Morning News. Retrieved April 18, 2005 from http:// 
        deseretnews.com
Hechinger, J. & Chaker, A. M. (2005, March 31). Boarding-school options 
        shift for troubled teens--shutdown of Brown schools shows 
        challenge of selecting a `therapeutic' program. The Wall Street 
        Journal. Retrieved April 7, 2005 from http://online.wsj.com
Huang, L., Stroul, B., Friedman, R., Mrazek, P., Friesen, B., Pires, 
        S., & Mayberg, S. (in press). Transforming mental healthcare 
        for children and their families. American Psychologist.
Kilzer, L. (1999, July 18). Desperate Measures. Denver Rocky Mountain 
        News. Retrieved December 28, 2004 from http://www.denver-
        rmn.com
Labi, N. (2004, July/August). Want your kid to disappear? Legal 
        Affairs. Retrieved January 19, 2005 from http://
        www.legalaffairs. org
Licensure and Regulation of Programs and Facilities, S.B. 107, General 
        Session State of Utah, (2005). Retrieved May 20, 2005 from 
        http://bb.utahsenate.org/perl/bb/bb find.pl
Montana Department of Public Health and Human Services. (2003). 
        Unregulated youth residential care programs in Montana. Helena, 
        MT: Author.
New Freedom Commission on Mental Health, Achieving the Promise: 
        Transforming Mental Health Care in America. Final Report. DHHS 
        Pub. No. SMA-03-3832. Rockville, MD: 2003.
Rimer, S. (2001, September 10). Desperate Measures. The New York Times. 
        Retrieved January 4, 2005 from http://www.nytimes.com
Rock, S. (2005, March 21). Boonville looks to sell old academy. The 
        Kansas City Star. Retrieved April 15, 2005 from http://
        www.kansascity.com
Rock, S. (2005, January 23). Referral agency's connection to boot camp 
        angers parents. The Kansas City Star. Retrieved April 15, 2005 
        from http://kansascity.com
Rock, S. (2004, December 19). Teen's death raises concerns. The Kansas 
        City Star. Retrieved May 20, 2005 from http://kansascity.com
Romboy, D. (2005, March 6). Utah boarding school under fire. Deseret 
        Morning News. Retrieved April 15, 2005 from http://
        deseretnews.com
Rowe, R. (2004, December 7). Tranquility Bay: The last resort. BBC 
        News--World Edition. Retrieved January 4, 2005 from http://
        news.bbc.co.uk
Rubin, B. M. (2004, January 14). The last resort; Therapeutic education 
        industry booms as parents seek programs for their troubled 
        children. Chicago Tribune. Retrieved April 15, 2005 from http:/
        /www.chicagotribune.com
Stewart, K. (2005, March 1). State's oversight of school lambasted. The 
        Salt Lake Tribune. Retrieved April 15, 2005 from http://
        www.sltrib.com
Stewart, K. (2005, Febrary 5). Licensing for ``therapeutic schools''? 
        The Salt Lake Tribune. Retrieved April 15, 2005 from http://
        www.sltrib.com
The National Association of Therapeutic Schools and Programs, Inc. 
        (2005). NATSAP 2005 Directory. Tampa, Florida: Author.
Weiner, T. (2003, September 6). Program to help youths has troubles of 
        its own. The New York Times. Retrieved January 27, 2005 from 
        http://www.nytimes.com
Weiner, T. (2003, June 17). Parents divided over Jamaica disciplinary 
        academy. The New York Times. Retrieved January 19, 2005 from 
        http://nytimes.com
Weiner, T. (2003, May 24). Owner of private discipline academy in Costa 
        Rica is arrested. The New York Times. Retrieved January 19, 
        2005 from http://www.nytimes.com
Weiner, T. (2003, May 9). Parents, shopping for discipline, turn to 
        harsh programs abroad. The New York Times. Retrieved May 9, 
        2003 from http://www.nytimes.com
                                 ______
                                 

    Protecting Youth Placed in Unlicensed, Unregulated Residential 
                        ``Treatment'' Facilities

 Lenore Behar, Robert Friedman, Allison Pinto, Judith Katz-Leavy, and 
                         Hon. William G. Jones

    Throughout the country, there is considerable inconsistency in how 
states regulate residential treatment programs for youth. In states 
with little oversight, the health and safety of youth are unprotected 
and they may be subject to substandard treatment, rights violations, 
and/or abuse. Three initiatives to address this issue are reported:
    (1) an Internet survey of youth who are former residents, (2) a 
four-state pilot study of how states regulate and monitor residential 
programs, and (3) a bridge-building conference between residential 
treatment providers and mental health leaders. Recommendations address 
the next steps for lawmakers, lawyers, judges, mental health and 
education professionals, and parents.

                                KEYWORDS

residential treatment for youth; licensure/regulation of residential 
treatment for youth; abuse in residential treatment; state 
responsibility for residential treatment of youth
Introduction
    I did not know where I was going when two strangers came to my room 
at home at 3 in the morning, handcuffed me and dragged me down the 
stairs into a car. While I was at ``name deleted,'' the program used 
forced labor, excessive exercise, sleep deprivation, nutritional 
deprivation, physical aggression from staff, and threats. We had work 
sanctions like carrying rocks, digging holes, in both extreme heat and 
in cold and snow/rain. Staff punched kids when restraining them; 
restraints were done using duct tape and blankets. Now it is hard to 
have lasting relationships, and I don't trust many people. I learned to 
``play their game'' * * * make up things and admit anything to get them 
off your back.
    Quotation from a 20-year-old about treatment that occurred 3 years 
before I found this program on the Internet and it looked like it was 
perfect for our son, who argued all the time, skipped school and was 
disrespectful to me and my wife. We were afraid he would smoke pot and 
become a juvenile delinquent. They helped us to get a mortgage on our 
house to pay for the care. They told us to lie to him about where we 
were taking him, so we did. They told us he would lie to us about what 
was going on at the school to manipulate us; they told us to ignore his 
letters. We were not allowed to talk to him on the phone. We never knew 
what his treatment plan was, but didn't realize that we had the right 
to know.
    When he ran away and was picked up by a shelter program, we were 
ready to send him back but the woman at the shelter told us she knew 
from other kids that the stories were true. We found out later that 
they used outhouses that they dug themselves. They were punished by 
being forced to eat with the hogs, down on their knees, like animals. 
There were many punishments that involved isolation or whippings by 
staff. They had forced marches and had to carry rocks in their 
backpacks. Medical problems, like infections, were untreated. We talked 
to other parents who had kids there and got the same stories. We were 
horrified about what we did to our son. It has taken years of family 
therapy to get past this.

                                   Quotation from a parent.

    A parent's decision to place a child in a residential treatment 
center is a serious one, usually fraught with anxiety and based on 
serious concerns about the child's difficulties, emotional stability, 
and/or behavioral problems. The decision is frequently guided by the 
recommendations of a mental health professional, school counselor, 
juvenile probation officer, or judge. In many cases, the decision comes 
after other, nonresidential treatments have failed. The choice of a 
residential treatment program is a complicated one, and in the best of 
circumstances, the decision is made by matching the child's needs to 
the program's strengths and based on the assumption that the program 
provides quality treatment, education, medical care, and honors the 
rights of children and parents.
    As seen in the opening quotations, substantial problems can arise 
when placements are made without verifying that these important 
elements of residential care are in place. A very basic source of 
verification of program quality is that the program is licensed by the 
state in which it is located; a higher source of verification is 
accreditation by a national organization. Neither is foolproof and 
questionable programs may exist with one or both of these seals of 
approval. Alternatively, good programs may exist with neither of these 
approvals. Thus, the issue of program quality is complex, but extremely 
important to the well-being and safety of children entering these 
programs and precedes any consideration of treatment effectiveness. 
This article addresses the most basic measure of quality--how states 
handle the issue of licensure; how they review or monitor the programs 
they license; and how they address problems that arise when the 
requirements for good child care, good treatment, and good education 
are deficient.
Uncovering a problem
    One of the strongest reports in the media regarding exploitation, 
mistreatment, and abuse of minors in unregulated, private residential 
treatment facilities appeared in July 1999 by Lou Kilzer in the Denver 
Rocky Mountain News. Over the past 4 years, there have been additional 
important and shocking media reports. Most notable are a series of 
articles by Tim Weiner, The New York Times (May through September 
2003); Bonnie Miller Rubin, ``The Last Resort: Therapeutic Education 
Industry Booms as Parents Seek Programs for Troubled Children,'' 
Chicago Tribune (January 14, 2004); and Maia Szalavitz, ``The Trouble 
with Tough Love,'' Washington Post (January 29, 2006). Szalavitz has 
further captured the unsavory tactics of some programs in her recent 
book, Help at Any Cost (Szalavitz, 2006). Youth who attended such 
programs, parents, and former staff have also made powerful public 
statements about abusive experiences with some of these facilities. 
These issues have been discussed in publications of the American 
Psychological Association: Public Interest Directorate (Pinto, 
Friedman, & Epstein, 2005) and the American Journal of Orthopsychiatry 
(Friedman et al., 2006b) and in presentations at meetings of the 
American Bar Association (American Bar Association, 2006), American 
Psychological Association (Pinto, Epstein, Lewis, & Whitehead, 2006), 
and Research and Training Center for Children's Mental Health (Friedman 
et al., 2006a).
    Collectively, these reports describe:
    <bullet> basic human rights violations including (1) youth deaths; 
(2) inhumane, degrading discipline; (3) inappropriate, often dangerous, 
use of seclusion and restraint; (4) medical and nutritional neglect; 
(5) severe restrictions of communication with parents, lawyers, and 
advocates;
    <bullet> substandard psychotherapeutic interventions and education 
by unqualified staff;
    <bullet> failure to assess individual needs of residents;
    <bullet> denial of full access by parents to their children in 
residence;
    <bullet> financial opportunism and misrepresentations to parents by 
program operators; and
    <bullet> financial incentives to educational consultants who serve 
as case finders and recruiters of families.
    Investigations have been conducted of abuse and neglect at several 
private unregulated residential programs and lawsuits have been filed 
as a result; some lawsuits have led to criminal convictions of the 
programs' officials or expensive civil case settlements (Hechinger & 
Chaker, 2005; Dukes, 2005; Rock, 2005; Rock, 2004).
    Some of the unregulated programs mislead parents to believe that 
creative programming that rises above regulation and above sound 
medical and psychological practices is necessary for their difficult 
children. Attractive advertisements, particularly on the Internet, are 
aimed at parents who are struggling to find help for their troubled 
children. Some parents make these placements at their own expense, 
without first seeking professional evaluations of the youth's problems, 
and the programs do not require professional assessment prior to 
placement. Some programs offer to connect the family with an escort 
service to transport a child whom parents anticipate would not 
otherwise choose to go to the program, which essentially means that two 
or more strong adults physically control the youth and force him or her 
to go along, either by car or by plane, to the treatment facility. In 
some cases, the parents have not seen the programs, which may be 
hundreds if not thousands of miles away from home, and they have no 
independent data, other than promotional material, to attest to the 
effectiveness of the programs. Many programs severely limit parental 
contact, by phone and visits, sometimes for as long as a year 
(Szalavitz, 2006). Last year, the American Bar Association Center on 
Children and the Law, using data reported by Rubin and Szalavitz, 
reported an annual estimate of 10 to 15 thousand American youth being 
placed by their parents in these privately run, unregulated residential 
facilities, which may also include boot camps or wilderness programs 
(American Bar Association, 2006).
Regulation of residential programs
    Policies regarding regulation of both public and private 
residential facilities are the responsibility of each state. These 
policies may be implemented by state legislation, regulation, or other 
administrative action. Although many states do oversee residential 
programs, in some states private residential treatment facilities for 
minors are not subject to regulation, or monitoring either as mental 
health facilities or educational facilities. Yet states regulate other 
private facilities, such as nursing homes, day care centers, hospitals, 
and restaurants. Depending on the state, failure to provide state 
oversight of residential programs for minors may occur because these 
programs (1) do not accept public funds; (2) are affiliated with 
religious organizations; or (3) describe themselves (inappropriately) 
as outdoor programs, boarding schools, or other types of nontreatment 
programs. In some cases, strong lobbying efforts by interested parties 
have contributed to creating and maintaining these exclusions. An 
additional problem in some states is that, although regulations exist, 
there is ineffective monitoring of programs for compliance; this may be 
an issue of insufficient resources being assigned to monitoring, which 
ultimately is an issue of insufficient priority.
    If a residential program advertises that it addresses behavior 
problems and calls itself a ``therapeutic boarding school,'' 
``emotional growth academy,'' ``behavior modification facility,'' 
``wilderness program,'' ``boot camp,'' or other similar terms, then it 
most likely should be considered a treatment program because it targets 
the social, emotional, and/or behavioral functioning of the children. 
Certainly some unregulated residential programs are reputable and 
likely could meet licensure requirements. However, other programs do 
not adequately provide for the safety and well-being of their residents 
and cannot meet such requirements, and it is these programs that are 
most concerning.
    Another aspect of the problem is which state agency is responsible 
for the licensing and monitoring of residential programs for youth. In 
most states these oversight responsibilities are placed in a health 
and/or human services or education agency, where there is considerable 
understanding of protection, treatment, and education issues and of the 
developmental issues of youth. However, in some states, the oversight 
responsibility rests with law enforcement, where tendencies to accept a 
more punitive view of corrective programs may prevail.
Beginning to address the problem
    The Alliance for the Safe, Therapeutic and Appropriate Use of 
Residential Treatment (A START) was initiated by the Louis de la Parte 
Florida Mental Health Institute at the University of South Florida to 
call attention to this problem and seek solutions that will protect 
children in these programs. A START now includes advisors who are 
leaders in psychology, psychiatry, nursing, mental health law, policy, 
and family advocacy, as well as people with direct experience as 
director, evaluator, parent, or participant in such programs. A START 
worked with the office of Representative George Miller, now Chair of 
the House Committee on Education and the Workforce, to host a press 
conference regarding these programs at the U.S. Capitol Building on 
October 22, 2005. Major national organizations which endorsed A START's 
concerns include the American Psychological Association, American 
Association of Community Psychiatrists, American Orthopsychiatric 
Association, Child Welfare League of America, Federation of Families 
for Children's Mental Health, National Alliance for the Mentally Ill, 
and National Mental Health Association. The National Conference of 
State Legislatures (NCSL) shares the belief that state policy is 
central to addressing this problem and has distributed information, 
prepared by A START, to the chairs of relevant state legislative 
committees to inform them of the issues (Herman, 2005).
    In the past year, A START has highlighted the problems of private, 
unregulated residential treatment facilities through presentations at 
major conferences of professional and parent organizations (Friedman et 
al., 2006a; Pinto et al., 2006) and published papers in key 
professional journals (Pinto et al., 2005; Friedman et al., 2006b). To 
clarify, the focus has been on facilities that are not licensed and not 
operated by public or governmental systems but operate private, 
residential facilities for troubled or difficult children or youth 
under the age of 18. The focus therefore has not included public or 
private boarding schools that provide only education, nor has A START 
addressed concerns related to publicly run psychiatric facilities or 
private facilities that are licensed and regulated.
    The American Bar Association, recognizing the failure of regulation 
in some states to cover all residential programs in the state, has 
passed a resolution (by the Association's House of Delegates at their 
February 2007 meeting) concerning the use of unregulated residential 
treatment facilities. The resolution ``urges state, territorial, and 
tribal legislatures to pass laws that require the licensing, 
regulation, and monitoring of residential treatment facilities that are 
not funded by public or government systems, but are otherwise privately 
operated overnight facilities for troubled and at-risk youth under the 
age of 18'' (see text following this article).
    Bringing the problem into focus has been the first step. Efforts 
currently underway are described below. These include (1) an Internet-
based survey of youth who have attended residential treatment programs 
and a similar survey for parents, (2) a pilot study of four states to 
gain understanding of the licensure issues and serve as a basis for a 
national, state-by-state study, and (3) a bridge-building task force of 
leaders in the child mental health field and directors of residential 
treatment centers to develop agreement about important elements in 
residential treatment programs.
Youth perspectives on residential programs for troubled teens
    In response to reports of institutionalized abuse, one question 
that parents, professionals, and residential program operators often 
ask is, ``How do you know that these are not just a few isolated 
incidents that have been blown way out of proportion?'' Sometimes the 
question asked is, ``Yes, but how do you know that these are not just 
the complaints of disturbed youth who have already tried to manipulate 
their families and the residential programs and now are trying to 
manipulate the public?''
    As a means of getting better information, an online survey has been 
developed and posted to gather firsthand reports from young adults who 
attended residential specialty programs when they were adolescents. The 
survey is still active, so reports continue to be received. It has 
provided an opportunity for hundreds of former program participants to 
share their experiences and express their concerns. It is important 
that we listen to what they have to say. What follows is only a brief 
description of the preliminary findings.
Survey methodology
    Participants were recruited to participate in the survey through e-
mail correspondence; links to the survey were posted on various Web 
sites. E-mail and Web site addresses were identified based upon 
previous contacts to gain understanding about services provided to 
youth in unregulated residential facilities for youth (Pinto et al., 
2006). Prospective participants were directed to a description of the 
study on surveymonkey.com, and if they then consented online to 
participate, they were directed to the survey itself. Participants were 
informed that their responses would be anonymous and they would not be 
linked to their e-mail addresses. The survey was programmed such that 
it would only accept one completed survey from a given e-mail address. 
It is recognized that this may not be a representative sample of former 
program participants; however, it was not possible to identify such a 
representative sample in this type of survey. This sampling procedure 
did permit A START to gather information directly from many former 
program participants. Participants who had attended more than one 
alternative residential program were instructed to choose one program 
they had attended and to focus their responses on their experiences in 
this particular program. At the end of the survey, participants were 
provided with contact information for the National Disability Rights 
Network as an available resource and were provided with the principal 
investigator's contact information in case they wanted to follow up 
with questions or concerns.
    The survey comprised 194 questions regarding direct experience in 
residential mental health treatment programs. Questions were organized 
into sections focused on: (1) basic demographics and program 
identifying information, (2) the process leading up to program entry, 
(3) program participation, and (4) program effects. Questions were 
designed to gather information regarding the various aspects of 
residential care that have been highlighted as problematic in public 
media accounts, but efforts were made to ensure that questions were not 
framed in ways that would bias responses. The survey included a 
combination of forced choice and free-response questions.
Survey findings
    The survey was posted online in July 2006. The findings reported 
are for the first 3-month period and include responses of 500 
individuals. For the purposes of the current analyses, individuals were 
included if they provided the name of the program they attended (N = 
376), and the program named was an unregulated therapeutic boarding 
school, emotional growth academy, or residential treatment program (N = 
298), rather than a licensed residential treatment center or a program 
of unidentifiable type. Of these individuals, only 5 reported that they 
had received the phone number of an advocacy organization to contact if 
they had any questions or concerns while participating in the program 
and 63 individuals provided no response to the question about access to 
an advocate. Responses from these individuals were removed as well, so 
that the sample for the current analyses included 230 individuals who 
attended a residential specialty program and who reported no or unknown 
access to an advocate while attending the program. This group of 
participants represents a group of especially vulnerable youth, as they 
were attending the types of programs that are likely to have no state 
oversight, and the youth were not formally advised about seeking help 
if they perceived themselves to be in danger while attending the 
program.
Who are these youth?
    The majority of the 230 respondents are White (87% Caucasian, 6% 
biracial/bicultural, 3% Latino/Hispanic, 3% Asian or other cultural 
identities) and the majority are female (68.6%). Half reported that 
their family income was $100,000 or greater. Half reported that they 
had received a psychiatric diagnosis prior to admission to the program 
(50.4%). Almost a third reported that they had also been prescribed 
psychotropic medications prior to attending the program (31.3%). 
Slightly over half (57.6%) reported that they had tried services and 
supports in their home community before attending the residential 
specialty program. At the time when they were sent away, youth were 
most commonly living in the states of California (26.9%), Florida 
(7.3%), New York (6.9%), Texas (5.2%), Michigan (4.3%), or Washington 
(4.3%). Almost half reported that they were transported to the program 
by an escort service (47.6%) that involved strong adults who forced the 
youth to leave home and then, using force or the threat of force, 
accompanied the youth to the residential program.
What about the programs?
    Respondents identified 58 programs in 21 states. Survey 
participants most frequently reported that they had attended a program 
in Utah (15.7%), Montana (13%), New York (10.8%), California (7%), or 
Georgia (5.7%). There were also a number of individuals who reported 
that they attended a program outside the United States in Jamaica 
(12.2%) or Mexico (7%), and 4% reported attending programs in the 
Dominican Republic, Western Samoa, or Costa Rica. Lengths of stay in 
both the U.S.-based and foreign-based programs were extended; slightly 
over two-thirds (69.1%) reported that they attended the program for a 
year or longer.
Concerns that emerged in the reports from young adults
            Violations of patient's rights
    Many participants reported that they experienced patient rights 
violations. In addition to having no access to advocacy contact 
information, the majority reported that their mail was monitored (93%) 
and their calls were monitored (96%). Furthermore, the majority also 
reported that their letters or conversations were filtered, restricted, 
or interrupted (86%). As one participant explained, ``They isolated you 
from your family back home. You had no way to freely contact anyone. 
They also enacted arbitrary bans to isolate you from friends/ peers.'' 
Another reported, ``I never spoke to my mom, or even touched a phone 
once during the 6 month stay in [program name deleted]. On Christmas 
you got to speak with your parents for 5 minutes and I did not get to 
talk to my mother because she was never informed of the call.'' And 
another: ``As for the e-mails and letters, they read them as they came 
in, and before you sent them out. I wrote 7 letters to my mom before 
they would send one. It ended up being one big lie, because I could not 
tell her I was upset or that I hated it there. At the time, that was 
all I was feeling.''
            Misuse of seclusion and restraint
    Many reported firsthand experience in seclusion (57%) or restraints 
(34%), and a number of participants witnessed their peers being placed 
in seclusion (45%) or restrained (60%). While the most commonly 
reported trigger for seclusion or restraint was aggressive behavior, 
especially aggression toward staff (87%), a number of behaviors that 
would never warrant seclusion or restraint in a licensed or accredited 
residential treatment center were endorsed as well, including breaking 
a program rule (67%), saying something disrespectful (52%), cursing 
(48%), or making a face (30%).
    Many responses were similar to these:
    They had a room with tile flooring where the kids went at 6:00 am 
until 10:00 pm, where each hour you would rotate positions. One hour 
would be lying on your stomach with your chin on the ground, the next 
position was standing on your knees for an hour and the next one was 
standing for an hour with your nose to the wall.
    When participants were being ``restrained'', they were in fact 
being tortured. They would be forced face down on the hard tile floor 
by 3--6 staff members. One staff would ``hold'' your legs down, which 
usually meant they spent their time grinding your ankles into the 
floor. One or two other staff held your arms out at your sides, 
``held'' in the same way the ankles were. The last staff would keep his 
knee in your back as he pulled up one or both arms behind your back to 
the point where you could literally touch your ear with the opposite 
hand from behind your back.
    They would duct tape your hands behind your back then your legs 
together then wrap you up in a blanket like a burrito and duct tape 
that tighter so you couldn't move or get out. Sometimes it would be so 
tight kids would be screaming that they couldn't breathe and really 
start panicking. They made the students do this to other students.
    Isolation is where you didn't see the sun or other people for weeks 
at a time, were given even more unrealistic exercise expectations, were 
more easily restrained, given less time to shower, and you were forced 
to lay on your face all day unless exercising, for 16 hours each day.
    Note that none of these treatments or punishments are acceptable at 
any level in regulated programs.
            Reports of inhumane treatment
    Beyond seclusion and restraint, there were multiple reports of 
various forms of inhumane treatment and abuse. Many participants 
reported that they had been required to participate in forced labor 
(71%), restricted access to the bathroom (68%), scare tactics (63%), 
and exposure to harsh elements like extreme heat, snow, or rain (60%). 
In addition, participants described experiences of excessive exercise 
(58%), food/nutritional deprivation (43%), sleep deprivation (41%), and 
physical punishment (31%). When asked whether they were ever 
emotionally, physically, or sexually abused by staff, a number of 
individuals reported that was often or sometimes true (45%). It should 
be noted that, although each of these practices violates current U.S. 
standards regarding the treatment of adults who are prisoners of war 
and detainees, they are occurring in youth residential facilities 
across the country, without oversight or accountability.
    Here is one description that typifies the experiences reported by 
participants:
    We would be forced to do pushups until some boys got hernias. We 
would be put into an `iso' box exposed to extreme heat. We would be 
deprived of meals as a punishment. They used stress positions. They 
beat people with sticks and their fists and feet. They made kids carry 
trash and building supplies up and down the hill above the program. 
They made kids move piles of rocks for no reason. They would keep you 
up as a way to `break' you.
            The distress and suffering
    Youth were clearly distressed and suffering. When participants were 
asked to rate how much they experienced a variety of feelings while 
attending the program (where responses included ``not at all,'' ``a 
little bit,'' ``some,'' ``a lot,'' and ``don't know''), the majority 
endorsed ``a lot'' of feeling sad, stressed, angry, confused, hopeless, 
and scared; most participants reported feeling happy, loved, hopeful, 
and proud only ``a little bit'' or ``not at all.'' In response to the 
question, ``Would you recommend the program to others?,'' participants' 
responses included: ``I still have bad dreams about it. I wake up 
shaking and nervous that I am there again. It has scarred me 
emotionally and I don't know if I will ever get over it;'' ``The 
program helped me realize what a sick sad world we live in;'' ``It was 
terrible. I was and still am horrified by the whole experience;'' ``It 
was a terrible place. Mentally scarring. I would hope NO ONE would ever 
have to go to a place like that. It's worse than jail;'' ``They abused 
me. That's what they do. They abuse people;'' ``I don't ever want 
another child to be so abjectly hopeless or so horribly abused. I don't 
ever want another family to be torn up when there is the possibility of 
being reunited and healed;'' ``There are better ways to deal with a 
troubled teen than send them to a school that abuses kids.''
What can we conclude?
    Recognizing that the reports provided are retrospective and fully 
acknowledging that these accounts are not necessarily a representative 
sample of all youth who have attended residential specialty programs, 
these findings nonetheless provide compelling evidence that widespread 
mistreatment is occurring and that youth are suffering in programs 
across the country. As for the question that parents, professionals, 
and program operators ask, here is a direct answer from one program 
participant:
    Okay * * * I have a good idea of what you may or may not be 
thinking at this point. `This guy's just some defiant little bastard 
who hates the world, and sees everyone and everything negatively!' 
Understandable, but whether you'll believe it or not, I'm not making 
this stuff up. I'm not just some pissed off kid who wants to whine. I'm 
a highly intelligent, well-educated, and responsible citizen, and as 
such a person, I know very well that my rights were totally and 
completely denied.
A study of four states
    A study of four states was undertaken as a pilot effort for a 
larger, national state-by-state study through a partnership of four 
organizations: A START, based at the Florida Mental Health Institute; 
the American Bar Association Center on Children and the Law; the 
National Disability Rights Network; and the Federation of Families for 
Children's Mental Health. The 2-year study will involve (1) an in-depth 
review of state laws, policies, and practices regarding regulation and 
oversight of residential programs; (2) education of and technical 
assistance to state lawmakers and leaders to bring about needed policy 
reform; and (3) guidance for parents about placing children in 
residential centers. The preliminary findings from the pilot study are 
presented because, even with such a small number, it is clear that 
there are problems of state policy that contribute to the problem of 
mistreatment of children and their families.
Study methodology
    While we acknowledge that there are several approaches to remedying 
the problems that are described above, we believe the wisest course of 
action is to first systematically gather information about how states 
handle the issue of licensure and regulation of residential treatment 
programs for minors, as well as information on monitoring and quality 
assurance requirements. In order to begin this process, we developed a 
brief protocol designed to elicit the desired information from state 
administrators responsible for licensure of these programs and for 
ensuring quality of care, state child mental health administrators, and 
other key stakeholders such as the protection and advocacy 
administrators. The protocol was designed as a telephone interview and 
was expected to take between 45 minutes and 1 hour to complete.
    The study was conducted in Connecticut, Missouri, Utah, and 
California. These states were selected in order to achieve geographic 
diversity as well as diversity in size and history/experience in 
regulating residential programs for minors. Respondents were from the 
Protection and Advocacy agency, child welfare, education, juvenile 
justice, and mental health. We intended to assess: (1) the degree to 
which respondents were knowledgeable of the regulations and the 
monitoring process and the degree to which they agreed with each other 
and (2) the extent to which there were laws, regulations, and policies 
in place to address this issue. As the intent was to get an overview of 
what problems might exist regarding regulation, rather than to 
determine which states did this well or badly, the findings are not 
reported by specific state.
Study findings
    Most respondents deferred to the individual who was in charge of 
licensing for the state. In some states, representatives from other 
agencies did not seem to have a working knowledge of how programs were 
regulated. The person with this responsibility was variously located in 
child welfare, social services, or human services. In general, the 
child mental health administrators were less familiar with the state 
regulations governing licensure and monitoring and did not see this as 
part of their domain. Representatives from the Protection and Advocacy 
agency saw this as an important issue, but had not become directly 
involved.
    All four states had legislation requiring the executive branch to 
issue rules/regulations regarding the operation of residential 
treatment facilities for minors. However, there was variance as to 
which kinds of programs the regulations applied. In one state, the 
rules applied only to facilities in which a governmental agency placed 
youngsters. In some states, there was an attempt to define levels of 
residential care, with more stringent treatment standards applying to 
the most restrictive group homes and community treatment facilities.
    All four states reported that there are several pathways to 
residential placements for minors. Placement could occur through social 
services/mental health (into therapeutic foster care, group homes, 
community treatment facilities, or hospitalization); juvenile justice 
(into boot camps); special education; and private placement. 
Respondents also stated that licensing and monitoring of juvenile 
justice, mental health, and special education residential programs were 
the purview of their respective agencies. None of the states were able 
to report how many children were placed privately by their parents or 
how many children were placed out of state by local agencies or by 
parents, nor was there any attempt to monitor the effectiveness of 
those placements.
    Programs were able to opt out of the licensing requirements 
established for the purpose of providing mental health treatment in 
facilities for minors in several ways. In some states, if the programs 
were considered to be religious institutions, they were exempt. Also, 
in some states, if a program accepted only private placements, it did 
not require licensure. In some states, if a program defined itself as a 
boarding school or educational facility, it could be exempt from 
regulation, even though the services provided were described as 
``emotionally corrective'' or ``therapeutic.''
    Despite the plan to describe the states with anonymity, it is 
important to mention Utah, a state that has had substantial problems 
with questionable programs existing and being exempt from regulation. 
In 2005, the state legislature amended the licensure law to ensure that 
all programs, except legitimate private residential schools, be subject 
to state regulation and monitoring (Utah Legislation, 2005). The rule-
making process took over a year, which is not unusual given the 
importance of public review and comment. Commendably, Utah is now 
implementing its new, more stringent regulations that address how 
programs will be included in licensure requirements and will be 
monitored for compliance with those requirements. Although it is too 
early to understand the impact of new regulations in Utah, this state 
certainly bears watching.
    All four states reported that they have in place regulations 
establishing standards for treatment services, educational services, 
and child care/supervision; however, as noted above, these requirements 
do not apply to all programs in the state. The basic requirements 
included such elements as (1) each child must have an individualized 
treatment plan and
    (2) the provider must be able to meet the needs identified in the 
plan. Monitoring includes assessing (1) the individualized treatment 
plans, (2) the individualized educational plans, and (3) requirements 
to assess quality of services. In some of the states, there were 
requirements related to child care and supervision but these treatment 
aspects were not specified except for the higher end, more restrictive 
programs.
    For programs to which the rules and regulations apply, all four 
states reported that specific rules regarding children's rights, 
parental rights, punishment, and use of seclusion and restraints are in 
place. All four also stated that there are procedures in place for 
reporting abuse. These included reporting abuse to a child welfare 
hotline and requiring that abuse laws be posted in every facility. 
Children must have access to a phone and employees of residential 
programs must be trained about the different kinds of employee 
behaviors that are not permitted.
    While all four states have established licensure requirements and 
standards for at least some types of residential treatment facilities 
providing services to minors, their ability to monitor compliance was 
of concern. Some states monitor compliance with requirements which 
govern such things as staff qualifications, staffing patterns, and 
number of hours of psychotherapeutic service per week per child.
    In some states, following application for licensure, there is an 
on-site review of requirements and interviews with staff and 
management. There may be unannounced licensing monitoring visits, as 
frequently as quarterly. There may also be a requirement for an annual 
inspection, which comes with the renewal process. On-site visits may 
also be made if a complaint is made, either from staff, clients, 
family, or citizens. However, respondents reported that monitoring is 
compromised by the number of staff who do the job. In one state, the 
monitoring agency is staffed to visit a 10% random sample of licensed 
facilities, and this is not as frequent as once per year. States vary 
in whether they provide licensing and monitoring at no cost to the 
program or whether they charge to cover these services.
Study conclusions
    While we recognize that four states are too small a number upon 
which to draw conclusions, it was apparent that there is an absence of 
data about how effective current laws are. Most agency respondents 
deferred to the person who was in charge of licensing and did not see 
licensing or in some cases even the monitoring of quality of care 
delivered as part of their responsibility. There appeared to be an 
assumption that providers will obey the laws, but there were no 
safeguards in place to protect children who are placed privately by 
their parents. Staff from the responsible state agencies is already 
stretched in its ability to monitor the safety and the effectiveness of 
the quality of care delivered for the children already in their 
custody.
Building bridges with residential treatment centers
    The concerns about state policies regarding residential treatment 
have been supported by a related development. The Child, Adolescent, 
and Family Branch of the U.S. Center for Mental Health Services 
convened a meeting in Omaha, Nebraska in June 2006 to address the 
historic split between providers of residential care for children with 
mental health challenges and advocates for home and community-based 
care within systems of care. The meeting brought together 
representatives from the federal, state, and local level, youth and 
family advocates, system of care council members, tribal 
representatives, providers of service, and representatives of national 
associations related to children's mental health and to residential 
care. Although residential programs which lack oversight were not 
represented, the agreements that emerged should serve to inform 
parents, professionals who provide referrals to residential treatment 
programs, and the operators of residential programs--good and 
otherwise--of the expectations that constitute good care and treatment.
    The purposes of the summit were to identify areas of agreement in 
values and philosophies between the different groups, to identify 
emerging best practices in linking and integrating residential services 
with home and community-based services, and to set the stage for 
strengthening relationships and services partly by developing a joint 
statement about the importance of creating a comprehensive and 
integrated service array and partly by creating action steps for the 
future.
    The sponsoring organizations involved with residential care were 
largely representative of well-established not-for-profit licensed 
residential programs rather than the unlicensed and unregulated, for-
profit programs that have been the primary concern of A START (Friedman 
et al., 2006a; Friedman et al., 2006b). However, the summit was of 
direct relevance to the concern of A START about protecting children in 
residential settings and enhancing the availability of a wide range of 
supports and services for children and families.
    The summit did result in the beginnings of a ``joint resolution to 
advance a statement of shared core principles'' which was then 
distributed to participants and modified over a period of several 
months. This resulted in a final product, which was distributed by Dr. 
Gary Blau, Chief of the Child, Adolescent, and Family Branch of the 
Center for Mental Health Services, on September 14, 2006, with a 
request for individual, agency, and/or organizational endorsement. This 
process of securing endorsements is still ongoing.
    As indicated in the preamble to the resolution, the call is for ``a 
comprehensive, flexible, family-driven and youth-guided array of 
culturally competent and community-based services and supports, 
organized in an integrated and coordinated system of care in which 
families, youth, providers, advocates, and policymakers share 
responsibility for decision making and accountability for the care, 
treatment outcomes and well-being of children and youth with mental 
health needs and their families'' (Child, Adolescent, and Family 
Branch, 2006, p. 1). The joint resolution acknowledges the need for 24-
hour out-of-home treatment settings but indicates that within such 
settings children and youth should have a developmentally appropriate 
role in their care and in creating rules and that family members should 
be viewed as partners and have open access to the setting.
    In the section on ``Clinical Excellence and Quality Standards,'' 
the joint resolution calls for ensuring ``that all treatment services 
are licensed and regulated by appropriate agencies, and that monitoring 
is performed by well-trained individuals (including families and 
professionals) whose values are consistent with the principles 
articulated in this resolution'' (Child, Adolescent, and Family Branch, 
2006, p. 5). It also indicates in this section that programs should 
strive to eliminate coercive interventions such as seclusion, 
restraint, and aversive practices and that visits between families and 
children should not be restricted for punitive purposes.
    The document offers a set of values, principles, practices, and 
standards that, if implemented, would go a long way to addressing the 
concerns about the protection of children with mental health challenges 
and the pattern of sending children hundreds if not thousands of miles 
from home to unlicensed programs which reduce their contact with their 
families. The document provides important guidelines for policy makers 
and advocates who are seeking to develop a comprehensive, integrated 
system and also for policy makers who are seeking to develop or 
strengthen licensing and monitoring procedures to ensure that children 
are treated safely, that they and their families have an appropriate 
voice in their treatment, and that the use of coercive and aversive 
practices is eliminated. Over the next several years, if the values and 
principles of this joint resolution are not only endorsed but, more 
importantly, put into practice, they will go a long way toward 
ameliorating the risk that children and families are now encountering 
because of unlicensed and unregulated programs that are highly coercive 
and aversive in their practices.
The importance of action: next steps
    The abusive and deceitful practices described in this article are 
unconscionable and cry out for remedial action. The following actions 
are recommended for questionable practices, to eliminate programs and 
protect against further harm to vulnerable children and families:
    <bullet> Identify programs that engage in the practices described 
above. Monitoring the Internet is one way of identifying them; this 
effort could be undertaken as a project of an organization involved in 
the protection of youth and advocacy for them. An additional way to 
identify programs is by locating children and families who have had 
negative experiences. Several Internet sites, used by youth, provide 
for information exchange with a focus on experiences in residential 
programs. The information collected should be organized to allow for 
systematic review. Similarly, the analysis of data from the current, 
ongoing Internet-based survey of youths' experiences in residential 
programs (Pinto et al., 2006) should continue to include a focus on 
identifying programs that do not meet quality standards for care.
    <bullet> Identify states that do not license or regulate the 
operation of residential programs for youth or that otherwise tolerate 
the existence of programs with questionable practices. The proposed 
national, state-by-state study described above should provide good 
information to help states address needed policy changes. Individual 
state legislators, state legislative committees, and ultimately each 
affected state's legislature must be aware of how their laws and 
policies govern the existence of these programs and take necessary 
actions regarding licensure, regulation, and monitoring to assure 
appropriate care and safety for the youth they purport to serve.
    <bullet> Advocate with the National Conference of State 
Legislatures to address these practices nationally and offer guidance 
to the states to strengthen oversight of residential programs.
    <bullet> Work with Congress to address the existence of these 
programs, including those that operate outside the country, and 
determine whether federal action is appropriate to assure that 
vulnerable children are not harmed and that parents are not paying 
exorbitant prices for programs that are ineffective at best.
    <bullet> Promote the 2006 ``Recommendation from the ABA Youth at 
Risk Initiative Planning Conference'' with all legislative bodies to 
``[p]rohibit operation of unlicensed, unregulated residential treatment 
facilities that operate programs whose efficacy has not been proven 
empirically, such as boot camps, tough love, and `scared straight' 
programs, and require the closing of such facilities. The law should 
provide for such facilities to be replaced with: better access to 
preventative services, with a focus on family involvement and 
community-based resources, wherever possible; and carefully regulated 
`residential treatment facilities' that are reserved for youth whose 
dangerous behavior cannot be controlled except in a secure setting.''
    <bullet> Urge vigilance by juvenile probation officers and other 
court officials, including lawyers and judges, as well as mental 
health, education, substance abuse, and other professionals who 
encounter troubled young people, in identifying youth who are at risk 
of being placed in one of these treatment facilities; encourage them to 
engage the youth and parents in a discussion regarding better options; 
impress upon them the necessity of parental involvement in the youth's 
treatment; and identify to them the safety risks and the costs 
associated with programs that promise a quick fix or an unorthodox fix.
    <bullet> Create a coalition of national advocacy and legal 
organizations, mental health organizations, and professional 
organizations that promote the well-being of children to demand state 
and national action regarding the degrading and demeaning practices to 
which children in these unregulated programs are subjected.
    <bullet> Inform civil rights and tort attorneys of the practices in 
which these programs engage and encourage them to take legal action 
against them.
    <bullet> Also inform attorneys who represent youth in juvenile 
court proceedings of the risks these programs pose to their young 
clients and of more appropriate, evidence-based alternatives. Ensure 
that attorneys have ready access to the National Council of Juvenile 
and Family Court Judges' ``Delinquency Guidelines.''
    <bullet> Ensure that schools are cognizant of the risks that face 
youth who are placed in these programs and that they disseminate 
information to parents about child and adolescent behavior and the best 
available treatment programs for youth whose behaviors require 
intervention. School psychologists, social workers, and counselors must 
likewise be well informed about alternatives, ideally evidence-based 
programs.
    <bullet> Disseminate widely best practices that address diagnostic 
and treatment issues and placement issues with the collaboration of 
state mental health, child welfare, education, and juvenile justice 
agencies and by the U.S. Departments of Health and Human Services and 
Justice to those involved in the care, treatment, and education of 
youth. This information should also be disseminated by parent 
organizations and other sources of information for parents.

                               REFERENCES

American Bar Association, Commission on Youth at Risk. (2007). 
        Recommendations from the ABA youth at risk initiative planning 
        conference. Family Court Review, 45, 366--380.
Child, Adolescent, and Family Branch, U.S. Department of Health and 
        Human Services, Substance Abuse and Mental Health Services 
        Administration, Center for Mental Health Services. (2006, 
        September). Building bridges between residential and community 
        based service delivery providers, families and youth: Joint 
        resolution to advance a statement of shared core principles. 
        Building Bridges Summit, Omaha, NE. Retrieved February 13, 2007 
        from http://www.aacrc-dc.org/public/pdfs/FinalBBResolution.pdf
Dukes, L. (2005, March 26). Financial troubles shut down CEDU schools. 
        Bonner County Daily Bee. Retrieved February 13, 2007 from 
        http://www.bonnercountydailybee.com/articles/2005/03/26/news/
        news01.txt
Friedman, R. M., Pinto, A., Behar, L., Bush, N., Chirolla, A., Epstein, 
        M., et al. (2006a, February). Unregulated residential treatment 
        facilities: A present-day threat to youth, families and the 
        field of children's mental health. 19th Annual Conference of 
        the Research and Training Center for Children's Mental Health, 
        Tampa, FL.
Friedman, R. M., Pinto, A., Behar, L., Bush, N., Chirolla, A., Epstein, 
        M., et al. (2006b). Unlicensed residential programs: The next 
        challenge in protecting youth. American Journal of 
        Orthopsychiatry, 76, 295--303.
Hechinger, J., & Chaker, A. M. (2005, March 31). Boarding-school 
        options shift for troubled teens--shutdown of Brown schools 
        shows challenge of selecting a ``therapeutic'' program. The 
        Wall Street Journal, p. D1.
Herman, M. (2005, September 19). Behavioral health news--When is 
        ``tough love'' too tough? States scrutinize boarding schools. 
        National Conference of State Legislatures State Health Notes: 
        Forum for State Health Policy Leadership, 26(452), 2--6. 
        Retrieved February 13, 2007 from http://www.ncsl.org/print/
        Health/shn/archive/shn452.pdf
Kilzer, L. (1999, July 18). Desperate measures. Denver Rocky Mountain 
        News. Retrieved February 13, 2007 from http://www.denver-
        rmn.com/desperate/site-desperate/mpg2-desperate.shtml
Pinto, A., Epstein, M., Lewis, P., & Whitehead, K. (2006, August 12). 
        Exploitation of youth & families: Perspectives on unregulated 
        residential treatment. American Psychological Association 
        Annual Meeting, New Orleans, LA.
Pinto, A., Friedman, R. M., & Epstein, M. (2005). Exploitation in the 
        name of ``specialty schooling'': What counts as sufficient 
        data? What are psychologists to do? American Psychological 
        Association: Public Interest Directorate, Children, Youth and 
        Families Division News. Retrieved September 29, 2005 from 
        http://www.apa.org/pi/cyf/specialty--schooling.pdf
Rock, S. (2005, January 23). Referral agency's connection to boot camp 
        angers parents. The Kansas City Star. Retrieved February 13, 
        2007 from http://www.isaccorp.org/thayer/thayer-learning-
        center.01.23.05.html
Rock, S. (2004, December 19). Teen's death raises concerns about boot 
        camp--Panel: it may have been prevented. The Kansas City Star. 
        Retrieved February 13, 2007 from http://www.isaccorp.org/
        thayer/thayer-learningcenter.12.19.04.html
Rubin, B. M. (2004, January 14). The last resort: Therapeutic education 
        industry booms as parents seek programs for their troubled 
        children. Chicago Tribune.
Szalavitz, M. (2006, January 29). The trouble with tough love. 
        Washington Post, p. B01. Retrieved October 30, 2006 from http:/
        /www.washingtonpost.com/wp-dyn/content/article/2006/01/28/
        AR2006012800062.html
Szalavitz, M. (2006). Help at any cost: How the troubled-teen industry 
        cons parents and hurts kids. New York: Riverhead.
Utah Legislation ch. 2, Sec.  62A. (2005). Licensure and Regulation of 
        Programs and Facilities. Amendment S.B. 107. Retrieved 
        September 30, 2005 from http://www.le.state.ut.us/?2005/htmdoc/
        sbillhtm/sb0107.htm
Weiner, T. (2003, September 6). Program to help youths has troubles of 
        its own. The New York Times, p. 8. Weiner, T. (2003, June 17). 
        Parents divided over Jamaica disciplinary academy. The New York 
        Times, p. 10. Weiner, T. (2003, May 24). Owner of private 
        discipline academy in Costa Rica is arrested. The New 
        YorkTimes, p. 2. Weiner, T. (2003, May 9). Parents, shopping 
        for discipline, turn to harsh programs abroad. The New 
        YorkTimes, p. 1.

    Lenore B. Behar, Ph.D. is the Director of Child & Family Program 
Strategies in Durham, North Carolina and she is a founding member of A 
START. For 32 years, Dr. Behar served as the director of children's 
mental health for the State of North Carolina and brought about major 
policy changes which put the state in a national leadership position. 
She also served, from 1992 to 2000, on a panel appointed by the federal 
court to oversee systems reform in Hawaii through a settlement 
agreement involving children's rights to education and treatment.

    Robert Friedman, Ph.D. is a Professor and Interim Dean of the Louis 
de la Parte Florida Mental Health Institute (FMHI) and he initiated A 
START in an effort to ensure that children with mental health 
challenges are adequately protected and served and that their parents 
are not misled and exploited. For the past 15 years, Dr. Friedman has 
been Chair of the Department of Child and Family Studies at FMHI, where 
he also has directed one of two federally funded Research and Training 
Centers for Children's Mental Health. Dr. Friedman has been a 
consultant to over 40 states, has served on many national groups, such 
as the Planning Board for the Surgeon General's Report on Mental 
Health, and has given testimony to congressional committees and, more 
recently, President Bush's New Freedom Commission on Mental Health.

    Allison Pinto, Ph.D. is a Research Assistant Professor at the Louis 
de la Parte Florida Mental Health Institute. She has served as Director 
of Clinical Training and Clinical Program Manager in a community mental 
health center and has worked directly with youth and families as a 
licensed clinical psychologist. She has been coordinating the efforts 
of A START since its inception.

    Judith Katz-Leavy, M.Ed. is a consultant in the field of child and 
family mental health. She served for over 30 years in high-level 
positions related to children's mental health services and systems of 
care in the National Institute of Mental Health and the Substance Abuse 
and Mental Health Administration. She served during 1992 and 1993 on 
the President's Health Care Reform Task Force and in 1999 as Section 
Editor for Mental Health: A Report of the Surgeon General, Chapter 3: 
``Children and Mental Health.''

    William G. Jones, J.D. is a retired Chief District Court Judge from 
Charlotte, Mecklenburg County, North Carolina. He is a member of the 
advisory panel of the Katie A. vs. Banta lawsuit in Los Angeles County, 
which addresses the mental health treatment of children in the child 
welfare system. He is a consultant to the American Bar Association 
Center on Children and the Law's National Resource Center on Legal and 
Judicial Issues, and the Family Violence Department of the National 
Council of Juvenile and Family Court Judges.
                                 ______
                                 

                      End Institutional Abuse Wiki

    The following homepage and posts were downloaded by Allison Pinto 
from http://endinstitutionalabuse.wikispaces.com on October 24, 2007 at 
3:21 p.m. EST. This online wiki was created on October 4, 2007, less 
than one week prior to the October 10, 2007 congressional hearing 
titled, ``Cases of Child Neglect and Abuse at Private Residential 
Treatment Facilities.'' It was created in order to provide a virtual 
space for individuals to post letters, accounts and concerns that they 
want to share directly with Congress regarding the abuse of youth in 
residential facilities. The wiki is also an opportunity for individuals 
to provide direct input regarding proposed legislation to address this 
issue. It is intended to serve as a means of participatory 
policymaking.
    All letters and accounts directed to Congress by the person posting 
on this ``End Institutional Abuse'' wiki are included in this document. 
Accounts that were submitted that focus on the experience of someone 
other than the person directly posting on the wiki are not included in 
this document. Newspaper articles posted on the wiki are also not 
included in this document. Finally, wiki participants' responses to one 
another are not included in this document.
    Please note that the accounts included in this document represent 
the views and perspectives of the individuals who posted letters and 
accounts on the End Institutional Abuse wiki, and are not the views or 
opinions of Allison Pinto who created the wiki space. They are spell-
checked but otherwise unedited.
    The wiki will remain active online so that members of Congress can 
continue to visit it in order to directly access accounts about abuse 
of youth in residential facilities as they are submitted.

                 End Institutional Abuse Wiki Homepage

                      HELP END INSTITUTIONAL ABUSE

    We need to raise awareness in our society about the problems of 
institutional abuse and mistreatment. Please help.
    This wiki is a virtual grass roots effort to organize and speak 
out. We've got less than a week * * *
    On October 10, 2007, the Committee on Education and Labor will be 
holding a hearing in Congress entitled, ``Cases of Child Neglect and 
Abuse at Private Residential Treatment Facilities.''
    There will be an opportunity for the presentation of written 
personal accounts and position statements regarding issues of 
mistreatment, abuse and neglect in youth residential programs, to be 
submitted for the record. If you would like to submit a statement, 
letter or story to Congress, please click on the ``discussion'' tab 
above and post your letter or story.
    Please note that this wikispaces site is a public site, so it is 
visible to anyone and everyone. Be careful to include only that 
information that you are comfortable sharing in the public domain.
    Also, please recognize that wiki technology makes it possible for 
individuals to respond to one another's contributions. If you choose to 
respond to someone else's post, please maintain a respectful stance 
that honors the inherent dignity of that individual.
    If you would like to provide input, feedback or suggestions 
regarding the ``End Institutional Abuse Against Children Act,'' please 
click on ``Federal Legislation'' to the left, and submit your ideas on 
the corresponding discussion page. This legislation was proposed in 
2005 and it is expected that it will be revised before it is 
reintroduced in Congress, so your ideas are needed.
    Thanks for any help you can provide in bringing attention to these 
issues, in order to restore the safety and well-being of youth and 
families in our society.
    [Editor's Note.--To see all the entries in this wiki please access 
the following Internet address:]

              http://endinstitutionalabuse.wikispaces.com

                                 ______
                                 
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you very much for your testimony.
    Thank you to all of you for your testimony.
    I cannot think of testimony that we have received in this 
committee that has caused a greater sense of anger or sorrow 
than what we just heard this morning.
    Mr. Kutz, I would direct again my fellow committee members 
to the first couple of paragraphs in your summary. They are 
absolutely astonishing in today's world when you say that ``We 
found thousands of allegations of abuse, some of which involve 
death, at residential treatment programs across the country in 
American-owned and American-operated facilities abroad between 
1990 and 2000.
    ``Allegations include reports of abuse and death recorded 
by state agencies, by the Department of Health and Human 
Services, allegations detailed in pending civil and criminal 
cases with hundreds of plaintiffs, claims of abuse and death 
that were posted on the Internet.
    ``For example, according to the most recent NCANDS data, 
during 2005 alone, 33 states reported 1,619 staff members 
involved in incidents of abuse in residential programs. Because 
there are no specific reporting requirements or definitions of 
private programs in particular, we could not determine what 
percentage of the thousands of allegations we found related to 
such programs.
    ``We also examined in greater detail 10 closed cases where 
teenagers died while enrolled in the private program. We found 
significant evidence of the ineffective management in most of 
these 10 cases with program leaders neglecting the needs of 
program participants and staff. This ineffective management 
compounded the negative consequences and sometimes directly 
resulted in the hiring of untrained staff, lack of adequate 
nourishment, reckless or negligent operating practices, 
including a lack of adequate equipment. These factors played a 
significant role in most of the deaths that we examined.''
    In the 10 facilities that you looked at, Mr. Kutz, where 
these children died, could you name those 10 facilities for the 
committee, please?
    Mr. Kutz. Yes, if you would like me to go on the record 
with that, I would.
    Chairman Miller. Yes.
    Mr. Kutz. We did leave it off, but if you asked that, I 
will.
    Chairman Miller. I will ask you to do that now.
    Mr. Kutz. I will do them one by one.
    Number one was Summit Quest. Number two was Challenger. 
Number three is North Star. Number four is Obsidian Trails. 
Number five is the Aldredge Academy, which was already 
mentioned by one of the parents here. Number six was the 
American Buffalo Soldiers Reenactment Camp. Number seven was 
Red Rock Ranch Academy. Number eight was Catherine Freer 
Wilderness, which was also mentioned. Number nine was Skyline 
Journey. And number 10 was Thayer Learning Center.
    Chairman Miller. Thank you.
    A number of these facilities, if I understand correctly, 
have remained open. Which facilities are those? Some have 
closed either related to these incidents or other reasons, but 
which of these remain open after these children have died?
    Mr. Kutz. That is correct. Some have closed and there are 
five that remain open in some form, and I will go through those 
with you also.
    Again, Aldredge, which was our case number five. The Red 
Rock Canyon School, which was the parents of the Red Rock Ranch 
Academy, our case study number seven, is open. Catherine Freer, 
which was mentioned, is still open, but it is open now in 
Oregon. The Nevada location related to our case study is 
closed. The Skyline Journey from our case number nine is 
closed, but it now operates as something called Distant Drums. 
And then Thayer Learning Center, our case study number 10, is 
still operating.
    Chairman Miller. From your investigation of these 10 deaths 
at these facilities, can you comment as to whether or not these 
deaths at these facilities appear to have been fully 
investigated?
    Mr. Kutz. Not necessarily. I mean, from a criminal 
standpoint, we did not do an in-depth investigation of the 
quality. I would say that they were not done of equal quality 
necessarily, but we did not dig enough into that.
    From a criminal standpoint, there really was not a whole 
lot of result. There was one individual who was prosecuted and 
is serving concurrent 6-and 5-year sentences. The other 
prosecutions or pleas resulted in community service or 
probation, things like that. And in some cases, there were no 
charges at all made at the end of the day.
    So it was a wide variety, but very little criminal result 
for any one involved in these cases.
    Chairman Miller. Thank you.
    Ms. Moss, it is my understanding that three of the 
facilities that Mr. Kutz just mentioned are NATSAP members--is 
that correct--that remain open?
    Ms. Moss. Yes.
    Chairman Miller. And those are which?
    Ms. Moss. Catherine Freer, Red Rock Canyon and Aldredge 
Academy.
    Chairman Miller. Aldredge Academy.
    Mr. Kutz, are there additional members? Were there three, 
or was it five?
    Mr. Kutz. There are three current. There were two that are 
now closed that were NATSAP members. The Obsidian and Skyline 
were NATSAP members based on our understanding.
    Chairman Miller. Okay, but they are now closed, as I 
understand it.
    Mr. Kutz. Correct.
    Chairman Miller. Let me just ask Mr. Lewis, Ms. Clark 
Harvey or Mr. Bacon, in a sense, what would you say to parents 
who are considering this alternative for their child, and I 
think we all recognize that very often parents are considering 
these alternatives because they do not know quite what else to 
do. It is not that they have not tried a lot of things with 
their children, but they have not worked out the way they had 
hoped or had become more difficult or what-have-you. So it is a 
very difficult time for parents, but you have been there 
tragically. What would you recommend to parents?
    Mr. Lewis?
    Mr. Lewis. In hindsight, I would not let my son out of my 
hand, out of my sight. Nobody loves your children like we do, 
and to turn your child over to somebody else and hope that they 
are going to love and protect your child, I think, was very 
naive on our part.
    I think what we need to do as a society and a community is 
provide much stronger home-based programs for children that are 
struggling so they stay with their families, and they stay with 
the community that they know and loves them.
    You know, hindsight is a wonderful thing. We thought 
Aldredge was an answer to our prayers, and it turned out to be 
a living nightmare for us, and I cannot imagine the nightmare 
it was for my son.
    Chairman Miller. Ms. Clark? Ms. Clark, what do you think?
    Ms. Harvey. I would have to agree. There is absolutely no 
way for any family to be certain of any of the claims that are 
made by these programs. There is just no way to do the amount 
of research and to determine whether it is appropriate or not, 
so I would make a blanket statement of do not send your child 
to a residential treatment program far away from your home 
because, as things stand right now, you have no absolutely no 
assurance that they will be taken care of.
    Chairman Miller. Mr. Bacon?
    Mr. Bacon. I would like all of the parents to understand 
that the risks involved in sending your child to one of these 
programs are far greater than what you can imagine. In our 
case, we were weighing the risks of what we thought was an 
unhealthy environment in the public high school that our son 
attended, whether it was drug use and peer pressure. The risks 
that we assumed, and the risk that I think every parent assumes 
when they send their child to a residential program, is much 
higher than probably any risk that they can face near home.
    Chairman Miller. Thank you.
    Mr. Kutz, you mentioned one of your discussions was a 
question of misleading advertising or marketing or assurances 
to parents.
    Last night and early this morning, I was on the Internet 
and sort of scooting around some of these sites, and it is a 
very seductive introduction to parents who are distraught, who 
are stressed, who have been dealing with this maybe for 
multiple years.
    They generally list a series of problems that children 
have--bipolar, schizophrenia, depression, drug and substance 
abuse, ADD--and the suggestion is that the staff can deal with 
all of these. Any one of those is a career for a professional, 
and all of my work in mental health and my wife's work in 
mental health and involvement with kids, and the idea that you 
can just insert a problem and this counselor can take care of 
any number of these problems in an effective way is----
    I have not seen a practice that way except in these 
representations, the suggestion that they are trained effective 
counselors for each one of these disorders, and, of course, 
most parents in that situation would identify with one or more 
on that list, and I just wondered if you might address that.
    Mr. Kutz. Yes. And I can speak to the 10 cases in depth, 
but the parents were pretty much told what they wanted to hear. 
As you said, it almost did not matter what the circumstances 
were for the child. The programs were purported to be experts 
for those kids.
    And it went far beyond that. You had cases where you had no 
one that knew CPR in the entire program, you know, just 
something basic like that where you are having kids out in the 
wilderness or at a boot camp or whatever and no one knows CPR.
    And they market to the desperate parents. You heard these 
parents today. I mean, they were in a desperate situation. They 
were looking for something, and they were probably vulnerable 
at the time. I do not want to speak for them, but I think they 
probably were. I am a father. I could see how that could 
happen.
    And I just think what you mentioned earlier and what the 
parents mentioned here for parents looking today, it is buyer 
beware. Buyer beware. I mean, these are programs, especially 
where they are unregulated programs in certain states, you 
really do not know what you are getting.
    Could I go back to the criminal also? The fact is there 
were not a lot of criminal prosecutions and documented evidence 
that the people that are dealing with these programs have a 
background. When parents are doing due diligence on these 
programs, an interesting point here is how do they know that 
some of the people who were involved in the abuses and the 
cases that we talked about here are not dealing in the current 
programs today. The answer is they will not know, and so it is 
a very difficult environment out there for parents.
    Chairman Miller. Could you elaborate on the Thayer case, 
number 10, the 10th case in your item?
    Mr. Kutz. Yes. And that is the most recent case from 
Missouri. Yes, that was a case I mentioned. That was one where 
we believe that there was certainly abuse, and I read the 
autopsy report myself in depth twice, and I really could not 
believe it actually.
    I mean, this kid had bruises, abrasions and kind of signs 
of abuse from head to toe, from his head down to the bottom of 
his legs, and there were reports that he had been dragged 
around, and the other kids at the program had been forced to 
drag him around when he was unable to exercise.
    And I mentioned to you in the opening statement that when 
he was unable to exercise, then the penalty was not medical 
treatment, but to put a 20-pound sandbag around his neck and 
make him wear it around. So that is a case of absolutely clear 
abuse, in my judgment.
    Chairman Miller. You know, Dr. Pinto made the point--and I 
think it probably strikes all of us here--had any parent 
engaged in any of this behavior against a child, they would be 
in jail. Almost any singular incident of numerous incidents and 
ongoing activities against these children--a parent, a 
schoolteacher, a coach--they would all be gone.
    I will get into it later because I have a second round of 
questioning here, but, you know, my concern is that these 
people sort of reinvent themselves. They leave Nevada. They 
show up in Oregon. They leave this program. They rename 
themselves.
    I followed some of these programs now longer than it took 
to cross the West by walking. I mean, you know, these people 
constantly are morphing themselves, and your point is you do 
not know who is ``counseling'' your kid, whether there is 
criminal behavior, whether they have their own problems.
    But, you know, one of the things that stuns me is the 
marketing of the wilderness and the outdoors and nature and 
then to take people into the outdoors and the wilderness and 
nature and brutalize them in the name of the nature. I do not 
get it.
    I have backpacked for 30 years. I was on a trip this 
weekend in the high rims above Lake Tahoe in the aftermath of a 
snowstorm, and in that trip, we must have stopped six or seven 
times and checked everybody, saying, ``Are we okay? Can you 
proceed? Do you think we should go back? We are this many hours 
into it. We have this many hours of daylight. Is everybody 
drinking water? Is everybody snacking, because we are burning a 
lot of energy because it is really cold?''
    For 30 years, I have hiked in that fashion with kids. I 
have had kids come into our camp in the middle of the night on 
different wilderness programs, but all of them were schooled in 
how to deal with the program. They were all given challenges, 
massive hikes, really quite stunning what they accomplished, 
with a guide, with full education with the dangers of how to 
take care of yourself, how to respond, how to handle the worst, 
and then the challenge is laid out, and I kind of understand 
that. I can see why that is used as a tool.
    But the idea that you take a person and you have her walk 
out in 100-degree weather and somehow this is good for you and 
nobody is paying attention to dehydration and nobody is 
paying--in the name of the wilderness that--this is 
therapeutic? No, this is abuse.
    And back to your point on mismarketing, it is a wonderful 
thing for parents to think, ``Gee, maybe I can get my kid out 
of this neighborhood, and we can start over, and they can go 
out there and, you know, they will be fishing and they will be 
swimming and they will be doing all these things,'' you know. 
It is just outrageous that they would suggest that somehow you 
can have a positive outcome with these children by using the 
outdoor experience as an abusive action against children.
    It is stunning to me, and it is contrary to any norm of 
anybody who has been out in those situations, especially when 
you have young people with you in terms of learning about the 
outdoors.
    I mean, as I went on these Web sites one after another--and 
then when you look at the cost--I do not know, Mr. Kutz. I have 
about 30 seconds. If you would just outline what you saw in 
terms of some of the costs----
    Mr. Kutz. Yes, the cost is fairly interesting. I mean, this 
is all in 2007 dollars, but the range was $131 to about $450, 
and the average was $300 per day, which is about $2,000 a week, 
and so the cost of this is very significant, and that is for 
the 10 cases that we looked at, certainly. We have looked at 
other ones that are in that kind of price range. So $300 a day 
was the average cost.
    Chairman Miller. Thank you.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    I would just ask the chairman kind of what he plans on 
doing about this. It is the first I have heard of these abuses 
going on. I have a couple of friends that have sent their 
children away to schools and did not have any of these kind of 
problems, but one death is more than should be tolerated.
    Question: Ms. Moss, in your report, you talk about a joint 
commission, 15,000 programs. Was that correct?
    Ms. Moss. The joint commission accredits over 15,000 health 
care----
    Mr. McKeon. Programs such as these?
    Ms. Moss. Yes. They are not all like these. There are 
psychiatric hospitals----
    Mr. McKeon. What is the point----
    Ms. Moss [continuing]. Medical hospitals. So it is over 
15,000 that they accredit.
    Mr. McKeon. How many of these programs are in your 
association?
    Ms. Moss. That are accredited by joint commission?
    Mr. McKeon. Well, just how many are in your program?
    Ms. Moss. We have 180 programs, sir, as members of our 
organization.
    Mr. McKeon. And do you know how many children are enrolled 
in these programs, these 180?
    Ms. Moss. The information that I received last year when we 
did our 2006 annual renewal is that there were approximately 
16,000 children served in our in our member programs during 
2006.
    Mr. McKeon. Sixteen thousand. Do you have any idea how many 
deaths have come from those 180 programs or out of those 16,000 
youth?
    Ms. Moss. In 2006, sir, I do not recall immediately. Our 
organization has grown from a starting point of six programs to 
the 180 this year. I am sorry I do not have that information at 
my hand right now.
    Mr. McKeon. Mr. Kutz, do you have any idea from your 
investigation how many deaths have resulted from these 
programs?
    Mr. Kutz. No, we do not. We just know that there are 
thousands of cases of reported death and abuse. There is no 
real central repository.
    Mr. McKeon. Excuse me again. Thousands of----
    Mr. Kutz. Death and abuse. Mostly abuse, but there are 
other reports of death. There is just no way to quantify. There 
is no good centralized source in the federal or state 
governments to quantify this.
    Mr. McKeon. It is amazing to me. As the chairman said, if a 
parent just were reported abusing a child, the children would 
be taken away from them, they would probably go to jail, and 
they would have to prove their innocence, and yet we have just 
from the witnesses here today three deaths, and it looks to me 
like there is no criminal action taken, except in the case 
where we had a $5,000 penalty and some kind of probation or 
something. What are the police doing about this? I mean, deaths 
are pretty serious, and nobody is taking any action?
    Mr. Kutz. Well, I can just answer this for the 10 cases. We 
did look at police reports. There were extensive investigations 
done in most of the cases, and, again, only one person is 
serving time today, from case study number six, for 
manslaughter and I believe another charge, concurrent 6-and 5-
year sentences. Everyone else, as I mentioned, either was 
prosecuted or pled, either got community service or time served 
or some lesser charge.
    So there were really no teeth behind the investigation. It 
does not mean they were not good investigations. We did not 
really evaluate the quality of the investigations, but there 
was really no action on the criminal side here.
    Mr. McKeon. This just boggles my mind. I cannot even 
imagine how this----
    Mr. Bacon?
    Mr. Bacon. In the case of our son and North Star 
Expeditions, it was a program licensed in the State of Utah. It 
was owned by two gentlemen who were previously field counselors 
in the Challenger program where a young woman died. In the 
investigation on the former death, these two people turned 
state's evidence against that owner in exchange for assisting 
the State of Utah in writing the regulations for the State of 
Utah and a license to operate their own program.
    So, when our son died, there was an immediate investigation 
that was brought about by the county attorney in Garfield 
County. We were very fortunate that in the sheriff's office, 
there was an experienced homicide investigator who arrived at 
the scene first. From the evidence that she collected, it 
became clear very quickly to the county attorney that this was 
a very suspicious case, and he called in to the State of Utah, 
to the attorney general's office, and asked them to assist in 
the investigation.
    As a result, both owners--I believe that there were seven 
people. I am not sure about the exact numbers--counselors and 
EMTs were charged with felony child abuse and neglect to report 
child abuse, among other misdemeanor charges. All of them pled 
guilty to lesser charges, were given probation and community 
service, and told that they could not work in child programs 
after this.
    There was one counselor who decided that a felony did not 
mean that much to him. So, despite the fact that the plea 
agreements were supposed to prevent us from the agony of going 
through the trial procedure, we had to do that anyway. He was 
found guilty of felony child abuse.
    The judge sentenced him to 1 year in jail and community 
service, he was out in 2 months, and we were informed that at 
that point it was no longer about Aaron Bacon, it was about 
what was good for Craig Fisher. The judge told us it was no 
longer about what was right for Aaron Bacon, it was what was 
right for Craig Fisher, and he got off with 2 months and 
community service.
    Mr. McKeon. I would like to yield to Mr. Platts some of my 
time at this time.
    Mr. Platts. Thank you, Mr. Chairman and Ranking Member 
McKeon.
    First, I certainly add my words of sympathy on the loss of 
loved ones of our family members here today and thank all our 
witnesses, especially you, for your courage in sharing your 
family stories that we may do our best to see that they are not 
repeated and the tragedy that your families have suffered are 
not repeated in other families.
    Mr. Kutz, in your investigation, it seems that your focus 
was private programs, not public, but you do reference an 
ongoing investigation that is going to be more comprehensive. 
Is that correct?
    Mr. Kutz. Yes, a more comprehensive look at the----
    Mr. Platts. Would that include public and private to give 
us an understanding of maybe what is better?
    Mr. Kutz. Yes, it will include both.
    Mr. Platts. What is the timeframe for us getting that 
information?
    Mr. Kutz. I believe early next year.
    Mr. Platts. Okay. In the 10 cases specific that you did 
investigate, how many, if any of those, were cases in states 
where there was state licensing in place?
    Mr. Kutz. Several were, and several were not. It was mixed.
    Mr. Platts. And the ones where there was, was the response 
then more appropriate?
    I mean, I agree with the chairman and the ranking member. 
When you read these cases and Mr. Bacon just citing the example 
of his son's, the repercussions, the consequences are 
unbelievable. There were not any. I mean, lives were taken in a 
horrific manner, and was it any better in any sense with those 
with state licensing?
    Mr. Kutz. With respect to that, where there was state 
licensing, there were several cases where the licenses were 
revoked, and so there was some action on the license. Again, I 
mentioned not much on the criminal side, but on the licensing 
side, licenses were revoked or possibly permits on federal 
lands. Some of these did that on federal land also, and the 
permits were revoked there also.
    Mr. Platts. You reference in your written testimony that 
the states while they do not often regulate the private that 
they more often regulate publicly funded programs. Did you get 
in detail in what way they regulate the public funding in this 
report?
    Mr. Kutz. No, I do not have any direct knowledge of the 
public.
    Mr. Platts. Okay. Of those that are privately regulated, 
private entities that are regulated by states, was there a 
state that you would point to us as the best model for us to 
look at to say this state seems to be doing it better than 
anyone else?
    Mr. Kutz. I think that that will be probably in our report 
next year, but I know that talking to my staff, Utah has gone 
through several revisions because a lot of the cases here 
happened in Utah. There have been increases in the requirements 
in Utah, I think several iterations of that. Whether that is 
the model or not, I cannot speak to that, but there has been a 
lot of activity from a legislative standpoint in the State of 
Utah.
    Mr. Platts. I think that would be helpful.
    Chairman Miller. If the gentleman would just yield for 1 
second, I just want to inform the members of the committee that 
I think there is a little less than 5 minutes now on the roll 
call vote. We will recess for the votes, and we will come back 
immediately after. Hopefully, that is in 20 minutes or so.
    The gentleman is free to go ahead now.
    Mr. Platts. Thank you, Mr. Chairman. I will try to wrap up 
quickly or give the ranking member back----
    Of that ongoing study, I think it would be very helpful if 
part of that investigation is kind of the best models out there 
that we can learn from to then try to look at how to replicate 
elsewhere.
    A final question, Ms. Moss. You mentioned 180 programs that 
are currently members, and in your testimony, you talked about 
they have to have a state license or an accreditation from the 
joint commission----
    Ms. Moss. Yes. Mental health accreditation. Yes, sir.
    Mr. Platts. So all 180 of your programs have that?
    Ms. Moss. The board ruling went into effect the 1st of May, 
where all new members have to be licensed and-or accredited, 
and they also have to have oversight by a licensed clinician, 
in other words, somebody that has a state licensure.
    The current members, for those that have been members of 
our organization, have until January of 2009 to obtain that 
licensure and-or that accreditation, and the organization is 
working with other states as well as with other accrediting 
agencies to make sure that those accreditations are available.
    In 2009, if we have a current member, whether it is a 
founding member or any other member that has not received that 
licensure or accreditation, they will not be a member of our 
organization.
    Mr. Platts. Okay. Thank you, Ms. Moss.
    And to our family members, I especially want to thank you 
again. As a parent of an 8-year-old and an 11-year-old, I 
cannot imagine the anguish that you have gone through, and your 
willingness to be here today is going to help save the lives of 
other children in the future, and I sincerely thank you.
    I yield back to the ranking member.
    Chairman Miller. The gentleman has 2 minutes.
    Mr. McKeon. Again, I would like to thank you for being 
here.
    I would like to thank you, Mr. Kutz, Mr. O'Connell, from 
the GAO for this study.
    I hope as we move forward on this issue that it does not 
become a partisan issue, that this is something that we can 
work together on to better the situation. I am sure that there 
are young people that have gone to some of these programs that 
have benefited, I would imagine out of that many people, but I 
think it is something we really need to look at.
    What concern I have is, apparently, law enforcement just 
does not get involved in these things, so if you can have a bad 
actor--and it seems like whatever field you are in, you can 
find bad actors. We could find doctors that have had real 
problems in their lives. So I think it seems like people just 
gravitate to wherever they can do the bad things they want to 
do.
    My concern is that if there is an incident, such as these, 
where deaths occur and abuse and there is some attention 
brought to them and maybe there is some slight action taken, as 
we have seen here, it might shut them down. They might move to 
another state and start all over again, and nobody has any way 
of knowing the problems. So that is something that I think that 
we really need to look at.
    I am generally opposed--as Mr. Bacon maybe pointed out in 
his opening comments--I do not like to see federal legislation, 
but there are some times where it has to happen, and if you 
have a situation like this where people can go from one state 
to another to avoid prosecution, it might be that federal 
legislation is needed.
    I appreciate, Ms. Moss, what your organization is trying to 
do where you say if some way you can clean up some of the bad 
apples. I have seen it in other organizations that we deal 
with, where it has been effective, but sometimes it is not 
enough, and I think that is something that we need to address.
    And I appreciate the chairman holding this hearing.
    Chairman Miller. Thank you very much. We will recess, and, 
hopefully, we will be back here in about 20 minutes. Thank you 
very much, and thanks for sticking with us because we have a 
few more questions we would like to ask you. Thank you.
    [Recess.]
    Chairman Miller. Thank you very much for bearing with us 
here and our busy congressional schedule.
    I would like now to recognize Congresswoman McCarthy from 
New York for questioning.
    Mrs. McCarthy. Thank you, Mr. Chairman, and thank you for 
bringing this to everybody's attention.
    To the family members, I know it has been a very troubling 
journey for all of you, but with you being here today, you are 
bringing this to national attention, and with all the pain and 
suffering that your families have gone through, you can make a 
difference and, hopefully, prevent another family going through 
what you have all suffered these last several years, and my 
heart goes out to you.
    With that, Mr. Kutz and Ms. Moss, many parents put their 
children into these programs based on snazzy and, in some 
cases, according to your report, misleading marketing products. 
I imagine these marketing tools do not include any information 
on incidents of crime, violence, accidents or deaths.
    In 1990, Congress passed the Clery Act which requires 
colleges to notify parents about campus crime annually. I am 
shocked that there is no similar requirement for children in 
these residential programs who are arguably even more 
vulnerable than our college students.
    I am also shocked that owners and program leaders are not 
required to disclose if they have previously had to shut down a 
program and under what circumstances. It is totally 
unacceptable that parents are not informed, and families 
involved in these programs should have a parents' bill of 
rights.
    Do you think these residential treatment facilities should 
have to disclose violent incidents, accidents and deaths in 
their marketing materials or to the parents of enrolled 
children on an annual basis?
    Mr. Kutz?
    Mr. Kutz. Well, I would say that they did not do that, and 
with respect to disclosure to the parents of what was actually 
going on, not only did they not tell them what was going on, I 
believe in many cases we saw that they lied to the parents, and 
they misrepresented what was actually happening.
    Certainly, it would seem that that has merit, having some 
disclosure requirements here, and, again, you have to have 
teeth behind that somehow. I do not know how you get that, but 
some teeth behind disclosure of what is going on would have 
some merit.
    Mrs. McCarthy. In your report, did you find that even those 
that were hired into these particular programs--did anybody do 
any background checks on them?
    Mr. Kutz. I think there were some that did and some that 
did not. We did have one case where there was an ex-con that 
was handling kids. So somehow that person got through, but I do 
not even know what the requirements were. There were no 
licensing requirements. There were not any real standards 
there, so I do not even know what the criteria was they were 
using to bring people in. I believe in some of the states now 
that have licensing requirements a background check is one of 
the thing that is required in some states.
    Mrs. McCarthy. Ms. Moss?
    Ms. Moss. On the question of disclosure, one of the things 
that we always recommend when a parent calls is they need to 
check with the state licensing agency to see if there is 
anything in the background of that program. We also stress the 
fact that if there is no licensing agency, they need to contact 
the attorney general's office to make sure that there is 
nothing in that background.
    Mrs. McCarthy. But how do we get this information to these 
parents? I mean, obviously, usually, the parents are so 
distressed by the time they even come to this situation where 
they are trying to find the best treatment for their child, and 
there are so many programs out there. Half of them are not even 
registered with the state. It is kind of hard to guide these 
parents.
    Ms. Moss. It is very difficult.
    Mrs. McCarthy. They did due diligence. They asked the right 
questions, and yet they ended up with, unfortunately, their 
children dying.
    Ms. Moss. I do not think any of our NATSAP programs would 
be opposed to disclosure on that.
    Mrs. McCarthy. What do you think about having some data 
where we can, you know, have data like where parents could go 
on to the Web site when they would be looking?
    I am sorry. Did you want to ask----
    Mr. Lewis. Yes. About 3 or 4 months after the criminal case 
was resolved in relation to our son, I had called the people at 
Aldredge Academy, and I talked to the woman that we had 
originally talked to when we placed Ryan, and I presented 
myself as a parent that was looking into the program.
    I said, ``I understand you have some legal issues that I 
have read about a little bit online, and I am concerned about 
it,'' and her response was, ``Well, that has all been taken of, 
and the family is very happy with the result,'' and that could 
not have been further from the truth.
    So that is the information that they were telling people, 
if they were to call them and ask about my son's death. They 
clearly misrepresented our position on the whole matter.
    Mrs. McCarthy. Thank you.
    Mr. Bacon, you mentioned earlier in your opening statement 
that you were talking about we here have a responsibility 
certainly for taking care of and looking to make sure our 
children are safe. One of the things that I was thinking of as 
you said it, you know, right now we have a mortgage crisis 
going on. One of the problems was that those that unfortunately 
were doing predatory lending might have been kicked out of the 
state, that did not stop them from going into another state and 
doing the same thing.
    I see that we seem to have the same case where one 
particular program was closed, reopened up into another program 
in another state. So, again, this is where data and the 
collection of data from state to state so the states would also 
have that information--do you have any comments on that?
    Mr. Kutz. Yes. It is not just the programs moving from 
state to state. It is really the people. Because you can change 
the name of--we have seen that in a lot of the investigations 
we do in many different things. It is easy to start up a new 
entity and to shuffle the deck and reemerge somewhere. So that 
appears to be a real issue here.
    Mrs. McCarthy. I am looking forward to your second report 
in February. Appreciate it.
    I thank again everybody for their testimony.
    Mr. Chairman?
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Ms. Moss, you mentioned that when you get a complaint that 
you look into that complaint case by case. How many have you 
proceeded on case-by-case complaints?
    Ms. Moss. Could you clarify proceeded on?
    Mr. Kildee. Yes. You stated that when you get a complaint 
about an organization, an entity that belongs to your 
organization, that you examine that complaint and proceed on a 
case-by-case basis. That was your words.
    Ms. Moss. Right.
    Mr. Kildee. How many have you proceeded on?
    Ms. Moss. As far as closing down, canceling their 
membership, sir, the two that we would have canceled their 
membership were closed prior to cancellation of the membership.
    Mr. Kildee. So have you proceeded on any of these 
complaints case by case?
    Ms. Moss. We did evaluate the Catherine Freer and the 
Aldredge Academy cases. There was no criminal negligence found 
and no wrongdoing found, sir. Therefore, they remained members.
    Mr. Kildee. So there is one or two then that you have 
proceeded on a case-by-case basis about?
    Ms. Moss. On the ones that had been reported to us, yes, 
sir. And in this case in the deaths, yes.
    Mr. Kildee. There has only been one or two reported to you?
    Ms. Moss. Right. On the deaths. The others that have 
occurred, sir, we have received the reports on those and also 
have found no negligence, no wrongdoing, no criminal action 
found.
    Mr. Kildee. So, again, you have only received one or two 
complaints, and you have stated that you proceed on a case-by-
case basis. It did not take you very long then if there is only 
one or two of those.
    Ms. Moss. Sir, I misunderstood the question. I thought you 
were referring to the ones here in this hearing. There have 
been others.
    Mr. Kildee. No. I am referring----
    Ms. Moss. Yes, sir. There have been others. I do not have 
the numbers that we have----
    Mr. Kildee. Do you have any idea about how many you have 
proceeded on a case----
    Ms. Moss. During my tenure, sir, there has probably been 
about five or six.
    Mr. Kildee. Could you supply the records of those case-by-
case interviews to this committee?
    Ms. Moss. I can certainly try to do that, sir, yes.
    Mr. Kildee. Well, I think more than try.
    Ms. Moss. Okay. Yes, sir, I can do that.
    Mr. Kildee. All right. Because if we do not, Mr. Chairman, 
I would suggest that we subpoena the records then. But if you--
--
    Ms. Moss. I will provide them to you, sir.
    Mr. Kildee. Thank you very much.
    Chairman Miller. I thank the gentleman.
    Mr. Kutz, let me take you back to the Thayer Learning 
Center, if I might. Is it correct that the cause of death to 
date is a spider bite?
    Mr. Kutz. Yes, Mr. Chairman.
    Chairman Miller. And this is the incident which you talked 
about earlier where in reading the autopsy report and going 
over the autopsy, this was a child that was badly bruised?
    Mr. Kutz. Thirty bruises and contusions from head to toe, 
yes.
    Chairman Miller. So what is your thinking in reconciling 
the spider bite as the cause of death and what appears to be 
very substantial physical abuse?
    Mr. Kutz. Well, I think there were two things going on. 
There was the abuse going on, and then there were the signs of 
other things related to the spider bite. So there was a medical 
issue and then at the same time they were misinterpreting the 
medical that he was faking it or for some other reason. So they 
were abusing him because he appeared to be lazy or appeared to 
not be actually exercising. So I think a lot of the abuse came 
because of the spider bite because he was exhibiting symptoms 
that, again, they misinterpreted as faking it.
    Chairman Miller. And what is the status of that 
investigation?
    Mr. Kutz. There is no ongoing investigation there that we 
are aware of.
    Chairman Miller. What is the status of the--is it a closed 
case or----
    Mr. Kutz. There were no charges filed in that case. There 
was a civil settlement for $1 million in that case.
    Chairman Miller. And Thayer remains open. Is that correct?
    Mr. Kutz. Yes.
    Chairman Miller. Well, I do not know. We will have to look 
at that. I think there is something glaring in this case, and, 
you know, I have previously asked the Justice Department to 
look at this business. They have refused, but maybe on a 
specific case, they can find new interest. When you have a 
child that appears, as you represent the autopsy, to be this 
badly and systematically abused, there has to be some other 
interest here.
    Mr. O'Connell. Mr. Chairman, if I could add something to 
the Thayer case?
    Chairman Miller. Yes.
    Mr. O'Connell. We talked to the prosecutors who said there 
was not evidence to prosecute. However, the state's family 
services division did find that there were patterns of neglect 
and abuse at Thayer.
    Chairman Miller. Yes, I think, as you said, if you walked 
in in the middle of this testimony, you would think we were 
talking about human rights abuses in Third World countries. I 
have to believe that there is, in fact, a federal interest in 
this in the treatment of these children, and I think that at a 
minimum in a particular case we might very well be on solid 
ground asking for oversight by the Justice Department of the 
death of that individual.
    You also mentioned, Mr. Kutz, Aldredge Academy is operating 
on federal lands. There with the Bureau of Land Management or 
what? Forest Service? Bureau of----
    Mr. Kutz. That one is Forest Service, Mr. Chairman.
    Chairman Miller. That is Forest Service?
    Mr. Kutz. Yes.
    Chairman Miller. And they have been on that land how long?
    Mr. Kutz. About 10 years, I understand.
    Chairman Miller. My understanding is they are in arrears on 
their rent?
    Mr. Kutz. Correct. They have not filed usage reports for, I 
believe, 8 years, and they will owe the federal government tens 
of thousands of dollars. So their permit is invalid basically.
    Chairman Miller. Would that send you a signal as a trade 
association, Ms. Moss, that something might be amiss if people 
had not paid their rent for years?
    Ms. Moss. Yes, sir.
    Chairman Miller. So what have you done in that situation?
    Ms. Moss. Haven't paid their rent?
    Chairman Miller. Yes.
    Ms. Moss. For the federal land?
    Chairman Miller. Yes.
    Ms. Moss. We are not familiar with what programs operate on 
federal land or not, sir. So if they did not pay their 
membership dues, their membership is canceled.
    Chairman Miller. So it is all about the membership dues?
    Ms. Moss. No, sir, it is not. It is not.
    Chairman Miller. Well, I am trying to figure out what else 
it is about because you cannot find any evidence of abuse, you 
do not know the financial situations. I am just trying to 
figure out what your association is about.
    Ms. Moss. If there is findings of wrongdoing, sir, or 
criminal action taken or ethical violations----
    Chairman Miller. By outside organizations?
    Ms. Moss. Yes, sir. We do not do the----
    Chairman Miller. So you do not do your own investigations?
    Ms. Moss. We do not do our own investigations, sir.
    Chairman Miller. You do not do your own looking at the 
quality of these organizations?
    Ms. Moss. No, sir, we do not.
    Chairman Miller. They essentially self-certify?
    Ms. Moss. They are not certified by our organization. We 
are not an accrediting agency. We are not a licensing agency.
    Chairman Miller. What the hell do you do?
    Ms. Moss. We are a trade organization, sir, that is focused 
on improving the field of therapeutic schools and programs.
    Chairman Miller. But, as I read your testimony, and correct 
me where I am wrong, you say that ``we proceed on a case-by-
case basis either requiring a program to implement change''--
where have you done that?
    Ms. Moss. There have been ethical violations that have been 
filed with us, ethical complaints that have been filed with us. 
In one case, there was a marketing issue that there was a 
misstatement on their Web site. We researched it, talked to 
them, and they removed that false advertising on their Web 
site. So they did make the corrective action.
    Chairman Miller. Okay. Anything else on that Web site, on 
that marketing thing set off any bells and whistles for you?
    Ms. Moss. I do not evaluate their marketing, sir.
    Chairman Miller. And you have canceled memberships?
    Ms. Moss. Counseled them, sir?
    Chairman Miller. Canceled?
    Ms. Moss. Yes, we have, sir.
    Chairman Miller. For what purposes?
    Ms. Moss. For an ethical violation. Primarily, most of the 
cancellations have come after they have lost their license.
    Chairman Miller. Okay. So this would be a violation of your 
principles and best practices that you testified to in your 
statement? Is that what it is?
    Ms. Moss. Yes. I am sorry, sir. I am not understanding the 
question.
    Chairman Miller. Well, I am trying to figure out what the 
ethical violation is. Kids are dying and being abused in a 
rather wholesale fashion, and you say that there has been a 
cancellation or somebody had something wrong on their Web site 
and that violated the ethical standards. I just wonder where 
abuse of children falls in those ethical standards.
    Ms. Moss. Sir, we look to the third-party investigators to 
advise us as to what actions were taken, what their findings 
were on these investigations.
    Chairman Miller. So, essentially, you are an organization 
where these people self-certify that they will adhere to the 
principles of your best practices, which are based on 12 
ethical principles which were formulated using the standards of 
the joint commission. So it is not like they are adhering to 
the joint commission. They are self-certifying that they will 
adhere to 12 ethical principles that were formulated with those 
standards in mind.
    Ms. Moss. Yes, sir, but we also require the licensure and 
accreditation. I have to have the license on file. We look to 
the states, sir, not to this association.
    Chairman Miller. What kind of license do you have to have 
on file?
    Ms. Moss. We have to have a mental health agency license on 
file or an accrediting agency which is a mental health 
accrediting agency.
    Chairman Miller. But you----
    Ms. Moss. Those are our new membership requirements.
    Chairman Miller. Are there schools in your program that are 
members of your trade association that do not have those 
requirements because they are not required by the state?
    Ms. Moss. At this time, that is true, sir. That will not be 
true in 2009, as of January 1 of 2009. That is why we have been 
working so hard with----
    Chairman Miller. So, if they are not in a state that does 
not require this, they will no longer be eligible for 
membership.
    Ms. Moss. They will no longer be eligible for membership.
    Chairman Miller. Do they have to have also a license from 
the Department of Education?
    Ms. Moss. Could you state that again?
    Chairman Miller. Some of these programs represent that they 
are also doing schooling at the same time. Do they have a 
license from the Department of Education?
    Ms. Moss. Most of them do, sir, that do offer high school 
credits or high school diplomas, but that will on longer be 
accepted as an accreditation or a licensure within our 
organization.
    Chairman Miller. Would they have to then have both? Would 
they have to have mental health and education?
    Ms. Moss. If they offer high school credits and a high 
school diploma, they will have to be accredited by an academic 
accrediting body. The licensing will depend upon the state, 
sir. I am not familiar with all of the educational licensing, 
so I believe that would happen on a state-by-state basis. Some 
states require that the private schools are licensed. Others do 
not.
    Chairman Miller. Mr. Kutz, what did you find in the 
universe of licensing here? Who was licensed, what were they 
licensed to do, and was it relevant to what they were doing?
    Mr. Kutz. Some of our 10 case studies were licensed, and 
other ones--there was no licensing requirement. As I mentioned 
in one of the other earlier questions, in some cases, where 
there were entities who had deaths and there were violations of 
licensing requirements, their license was revoked in the state, 
but it was only after a death had occurred that that happened, 
which raises questions about what kind of due diligence is 
being done absent a death or significant abuse at these places. 
I think our broader study is probably going to look at that.
    Chairman Miller. But let me ask you this. Are all of the 
licenses that they have related to their activities, or do they 
also have activities that are not licensed?
    Mr. Kutz. There are some activities they were doing that 
they were not licensed for, yes. We did see that. I cannot 
remember specifics, but----
    Chairman Miller. And, again, I do not mean to hold NATSAP 
responsible for all of this activity or the industry 
responsible for all the activity, but when I look at these 
sites, it is very interesting. Sometimes they will tell you, 
you know, they are licensed with the State Department of 
Education, but they list a whole series of mental health 
treatment activities, and there is no mention of accreditation, 
licensing or anything, and that would not be true in NATSAP as 
of 2009.
    But what would a parent rely on? I mean, the words 
``accreditation'' and ``training'' are thrown around in these 
marketing paragraphs. You know, you would think you were 
dealing with Johns Hopkins, okay, but you are not. But they 
constantly, you know, intersperse those words in the marketing, 
and so you do not know if ``accreditation,'' ``licensing'' 
pertains to the mental health services, to the educational 
services, to the medical services because it--I mean, they are 
pretty clever pieces of writing.
    Mr. Kutz. It is very difficult. I could not have said it 
better than you just said it. I mean, it is very difficult for 
a parent to wade through this and figure out what exactly is 
going on, and something that might appear to be there that 
looks like you said, Johns Hopkins, or something like that, 
there might be nothing there. I mean, in some cases, the 
medical officer was also running the kitchen, and when you 
looked behind the medical officer, they had no medical 
training. They were not a licensed anything. So they were self-
proclaimed, in many cases, experts in things with no 
credentials behind them.
    Chairman Miller. Well, I mean, that is why I worry. Again, 
you know, I look, Ms. Moss, at your testimony that you are 
holding these people to ethical principles and so forth, and 
yet when you look at how a number of these children died--
dehydration, heat exhaustion, dehydration, head trauma which 
was probably maybe caused to dehydration, loss of 
consciousness, dehydration, heat stroke, hyperthermia, another 
form of dehydration--you do not get very far in training before 
you tell people how dangerous and fatal dehydration can be, 
especially if you have a program that is designed to be in the 
desert.
    I mean, I do not get the ethical standards here or the 
professional standards of the training where people would not 
recognize and prevent--in fact, prevent--the dangers and the 
fatalities related to dehydration. I mean, this is like Care 
101.
    Ms. Moss. Sir, this is the first we have heard of the 
circumstances of these deaths. We will take these back to the 
board, and we will review them in depth.
    Chairman Miller. Mr. McKeon said there is a lot of room 
here for something in terms of oversight.
    I also serve on the Resources Committee, so is the Forest 
Service looking at their arrears payment?
    Mr. Kutz. That is something that we would refer to them, 
certainly. We do referrals of various things, and we will make 
sure there is an official----
    Chairman Miller. We will do a referral along with you.
    Mr. Kutz [continuing]. Notice to them of what we 
identified, yes.
    Chairman Miller. One of my concerns is, again, my 
experience with some of these organizations is, in some cases, 
you know, there is a substantial investment being made. In 
other cases, there is not much investment at all, and you are 
wandering around on federal land. We have had Conestoga wagons 
wandering around in the Southwest for a number of years, and 
there is really no investment, and when they had trouble in 
Arizona, they simply moved north into Nevada and continued 
their activities. So, if somebody is not paying their rent, 
bells and whistles might go off on whether they are paying 
properly trained people and skilled people to watch after these 
young people.
    Mr. Kutz. Well, in the case here of the Forest Service, 
they were not aware that for 8 years they had not been 
receiving reports from Aldredge and that the fees had not been 
paid until we actually talked to them, and then they were like, 
``Oops. Looks like we have a problem.'' So that raises 
questions--we did not look at that--on both sides.
    Chairman Miller. If you knew how they treated holders on 
some federal, you would wonder what they are thinking.
    Let me stop there and see if Mr. McKeon or Mr. Kildee----
    Mr. Kildee?
    Mr. Kildee. Just another question to Ms. Moss. And I do 
look forward to some documentation that you will supply us as 
to how you responded on a case-by-case basis to the complaints 
or information you had received. But what do your members gain 
by joining NATSAP?
    Ms. Moss. They gain continuing education with our 
conferences. They gain the journal. They gain access to others 
in this profession. They gain insight into the newest clinical 
studies. There are many clinicians in our organizations that 
present at our conferences. It is basically an education type 
of benefit.
    With the new research initiative, they will gain from that. 
They will be able to----
    Mr. Kildee. Not what they will, what have they. How many 
conferences do you have a year?
    Ms. Moss. We have one national conference a year, and we 
have six regional conferences a year.
    Mr. Kildee. It would seem that much of what they may gain--
and this is what I worry about--is that they may gain a certain 
credibility that to belong to, you know, this Good Housekeeping 
group. I do not think your group exactly is comparable to the 
Good Housekeeping seal of approval, but I think that can be 
used as an advertising thing, ``We belong to NATSAP, and, 
obviously, we are good.''
    I think you have something to prove to this committee and 
to the American public that you are supplying more than just 
credibility to these groups that belong to you, and I worry 
about that. I think very often people see a national 
organization and feel it is something like the Good 
Housekeeping seal of approval. I think you have a long ways to 
go before you ever approach that.
    I think what I worry about is that you supply them just 
credibility.
    Ms. Moss. Sir, that is why we are here asking for your help 
in state licensure and regulation. We do not want to be the 
Good Housekeeping seal of approval. We want to supply services 
to our members so that they can improve the care that they give 
to children and families.
    Mr. Kutz. Congressman, could I add one thing?
    Mr. Kildee. Yes.
    Mr. Kutz. In the marketing materials--and, again, this is 
not NATSAP's responsibility--these entities do market 
themselves as being members of NATSAP, and it does provide some 
credentials for them, even though they are a trade association 
so they are not really required to do due diligence 
necessarily. So that is something we saw in the marketing 
materials for many of our case studies that were NATSAP members 
or other members of other associations or whatever the case may 
be.
    Mr. Kildee. But an organization could use that in their 
advertising, ``We are a member of NATSAP,'' right?
    Mr. Kutz. They did. That is not could. They did.
    Mr. Kildee. So it is used and it does give them a certain 
credibility perhaps to----
    Mr. Kutz. Someone who might not be aware of what it exactly 
means, yes.
    Mr. Kildee. But it sounds good, right, that they belong to 
this national organization?
    Dr. Pinto. If I could comment because I do receive calls 
from families on a weekly basis at this point, and this point 
is absolutely what I am hearing from families, that they are 
having such difficulty because there is not a place that they 
can go on the Web or some kind of a clearinghouse where they 
can get information about programs, both good programs and 
programs of concern, and so they are desperately trying to make 
sense based on the information that is out there.
    And absolutely when you have a seal on a Web site that is 
the joint commission seal and right next to it you have a 
NATSAP logo seal, I have heard multiple parents saying, ``Yes, 
but it is a NATSAP-affiliated program. It is a NATSAP-
accredited program.'' So, even though NATSAP says, ``We are not 
about accreditation,'' that is how parents are making sense of 
it.
    I am seriously concerned about the mixed messages that are 
going to families, because although NATSAP is saying that they 
are trying to help families, I do not understand why, when 
NATSAP attended a presentation that Paul Lewis, myself and 
several other individuals made last year at the American 
Psychological Association Conference, where we indicated that 
there were hundreds of reports of mistreatment and abuse in 
these kinds of facilities, after that presentation, NATSAP 
representatives came up and expressed such concern and said 
something very similar to what Ms. Moss just said when she just 
said, ``Well, we will take these back to our board and review 
them in depth,'' that was the same kind of language that we got 
last year.
    And what was the response? The response was the open letter 
to critics that now is on the NATSAP Web site that describes 
the concerns that we have reported in these presentations at 
the APA and elsewhere as ``the noisy complaints of a few 
individuals.'' So that is not sending a message to families 
that NATSAP takes these reports of abuse seriously, and I have 
not seen evidence that they have done anything in response to 
what we have made very clear in the presentations that we have 
done over the last 2 years that this is something that is a 
great concern to them.
    Mr. Kildee. I really think we are all concerned up here. We 
are all parents up here, and I cannot imagine the pain that you 
parents have suffered. But really, you know, if you belong to 
an organization that deals with the most vulnerable in our 
society, the youth, you should be part of the solution and not 
part of the problem.
    Ms. Moss. Sir, that is why we are here.
    Mr. Kildee. After----
    Ms. Moss. We want to be a part of the solution.
    Mr. Kildee. Go ahead.
    Ms. Moss. We want to be a part of the solution. That is why 
we are here.
    Mr. Kildee. I hope then if you supply us the information I 
requested.
    I yield back the balance of my time, Mr. Chairman.
    Chairman Miller. Thank you.
    Either Mr. Kutz or Ms. Clark Harvey, have there been 
additional deaths at the program since your daughter died?
    Ms. Harvey. Yes, there were two deaths in Catherine Freer 
programs after Erica died, one occurred in Nevada close, I 
believe, in the same wilderness area that Erica died in, and 
that occurred in October of 2002, and then there was a death in 
Oregon in, I believe, March of 2003.
    Mr. Kutz. That is correct.
    Chairman Miller. That is correct with the information you 
have?
    Mr. Kutz. Yes.
    Chairman Miller. Again, I mean, this is not to make this 
NATSAP's problem, but you have five out of 10 deaths here that 
are facilities that belong to your organization. Two of the 
five have been closed. One has had additional deaths since 
Erica Harvey. I mean, this is like Casa Blanca. You are shocked 
that gambling is going on here.
    Something is very wrong inside a trade organization--you 
know, one of the things trade organizations have to decide is 
you have to get rid of the frauds, and if you want to survive, 
and somehow something is wrong here in the review or the 
applications or the self-certification or something that people 
can bring this kind of history and just continue on.
    Now maybe that is fine. You are obviously making a 
determination or you are leading this committee to believe you 
are making changes, but I just say that there is, you know, a 
period of years here when somebody was asleep at the switch 
here.
    You know, I appreciate the three testimonies that were 
attached, Ms. Moss, to your testimony, three statements by 
people who had been through different programs, and their 
success, and that is what every parent would wish for. I find 
that terribly interesting, but not terribly relevant because 
that would be the expectation of people who signed up for these 
programs.
    That would be their hope, not that every kid is going to 
come back successful as they have cited--they have gone on with 
their lives, they have become productive, and they have done 
those things--but that your child would get treatment. At a 
minimum, you would expect them to be safely kept while they 
were in care, and that minimum was breached here time and time 
and time--in fact, thousands of times that that has been 
breached by people taking care of these children.
    So I guess that, you know, we are here when things go 
terribly wrong, and I think Dr. Pinto has pointed out being 
subjected to this, people do not lightly disgorge others that 
they were abused or that they could not cut it or they could 
not do these things, and so I think to have people come back 
now in the numbers that they have and talk about it, this 
cannot be dismissed as noise.
    Ms. Moss. No, sir, it cannot be dismissed as noise, and I 
agree with that. NATSAP would benefit from a clearinghouse of 
information as much as a parent and family would. We do not 
want to be the Good Housekeeping seal of approval. We do want 
to raise the bar in the industry. We are a young organization 
learning as we are going. We have made mistakes in the past. We 
recognize that.
    Chairman Miller. There is some duty of care here, which I 
think you are missing.
    Ms. Moss. Absolutely, sir. I agree with that.
    Chairman Miller. I think you are missing it, with all due 
respect. You can decide for the moment, but I think you are 
missing it. There is some duty of care here, ``as a trade 
organization,'' about what happens in your name.
    Ms. Moss. I will take that back to the board, sir, very 
definitely.
    Chairman Miller. It is going to be a very busy board. You 
are taking things back that----
    Ms. Moss. Yes, sir. Very busy.
    Chairman Miller. Thank you for doing that.
    Dr. Pinto, you raised the question. I am trying to figure 
out what it means, when these are individuals who have gone 
through the program, for them to come forward, and what weight 
we give that.
    Dr. Pinto. Again, I think it is easy for people to presume 
that there must be something wrong with these young adults, you 
know, ``Well, they were troubled teens to begin with, so they 
are probably just still messed up, and that is why they are 
describing this and they have it. They are trying to get the 
programs.''
    However, if you read the accounts--and I was really 
surprised when we created this online survey with over a 
hundred questions and many free response opportunities--it is 
over a thousand pages. Just trying to print out all of the 
responses that came back--this is definitely a group of folks 
who have not had an opportunity to speak to their experience, 
and when you read the accounts, when you hear what people have 
to say, there really is a level of detail and coherence to 
their accounts--any given account--but then also across 
accounts that makes it clear that there is a phenomenon 
occurring, a phenomenon of mistreatment and abuse.
    And it is not the case that everybody is experiencing this, 
but it is the case that there are far more than just a few 
cases, and, again, if we heard this from a teenager who was in 
their own home or in a public school or in a licensed mental 
health care facility, immediately, there would be a response 
and it would be an investigation to ensure that that just did 
not go overlooked, and that is not happening at this point.
    Chairman Miller. In fact, there is an affirmative duty to 
report.
    Dr. Pinto. Absolutely. In fact, I am a licensed 
psychologist, and as such, I am a mandated reporter of 
suspected child abuse, and when I first started getting these 
reports, I thought, ``My gosh, as a mandated reporter, I need 
to follow up with this.''
    So I called several states' suspected child-abuse-hotlines, 
and I described the situation to them, and they said, ``Well, 
can you give us the name of the particular staff member who was 
the one to conduct this suspected abuse?'' And I said, ``Well, 
no, but I can give you the name of the program.'' And they 
said, ``If you cannot give us the name of the individual, then 
it needs to go to the agency at the state level that monitors 
those kinds of programs. We cannot take a report unless you 
give us the name of the individual.''
    But then when I would call those agencies, Department of 
Education, Department of Health and Human Services, in the 
given state, they would say, ``Well, we do not have any 
authority over those kinds of programs.'' And so it is a 
complete black hole at this point.
    Chairman Miller. Well, thank you very much. And I think 
that is a problem also that exists between public programs. I 
mean, that is one of the reason I fought very hard over the 
years to return children to their own states because once you 
have crossed the state line, one, whether you have any 
authority and, two, getting other people to respond, it just 
becomes a huge barrier, and our states now have changed the law 
so the kids are placed differently now than they were 20 years 
ago, 15 years ago with kids' placement.
    Carolyn, do you have additional questions?
    Mrs. McCarthy. Actually, she just answered it because we 
are giving federal money to the states, and yet they do not 
seem to have any control over what that money is doing as far 
as these residential programs. So that might be an area we will 
look into.
    Chairman Miller. Let me follow up on that, Mr. Kutz, if I 
might. You were not looking at the question of whether there is 
federal money for some of these programs. Do you have any sense 
of--you know, we have IV-B maintenance money for children, out-
of-home placements and foster care and whatever. We know in the 
past some out-of-state placements were made with IV-B money. We 
have juvenile justice money that goes to placement. I do not 
know whether some of these contract with school districts to 
receive funding within their state or not. Is there any reason 
to suspect that there is some federal involvement in the 
placement of--I mean, federal dollars?
    Mr. Kutz. Not in the cases we looked at.
    Chairman Miller. Not in the cases----
    Mr. Kutz. They were funded primarily by parents, and in one 
case, health insurance paid for maybe $10,000 of the fees.
    Chairman Miller. So, as far as you can tell, they are 
operating essentially on a tuition----
    Mr. Kutz. Yes.
    Chairman Miller [continuing]. Payment by parents.
    Dr. Pinto. If I could add to that just briefly, I do--if 
that is okay?
    Chairman Miller. Yes.
    Dr. Pinto. It does seem like primarily the parents I have 
spoken to are paying out of pocket as well. However, there are 
times where a family makes a case, for instance through their 
IEP, that the publicly available programs or the nonpublic 
schools that are part of that district's list of available 
services are not a good fit for their child and they advocate 
to have their child sent to one of these kinds of private 
programs, and there are districts, I do recall from my clinical 
work in California, where that does occur, and therapeutic 
boarding schools are paid for through the IEP process.
    Chairman Miller. Thank you.
    Mrs. McCarthy. Mr. Chairman?
    Chairman Miller. Yes?
    Mrs. McCarthy. May I follow up with a question?
    Chairman Miller. Yes.
    Mrs. McCarthy. As we have heard all the testimonies, 
especially the data areas where I would like to see if we can 
concentrate that in the future if we do legislation, right now, 
apparently, HHS does have money that is given to the National 
Child Abuse and Neglect Data System. With what we see, where do 
you think is--some states will call the child abuse centers. 
Some will call the state agencies. As we go forward, what would 
be the best area to collect the data and not have several 
agencies go through it, but one agency so it is a better 
clearinghouse and not a confusion to parents when they need to 
know that data? Do you have any idea, or does that come in the 
next study?
    Mr. Kutz. No, but the data that was collected nationally 
was a self-reporting, so it is more than likely very 
incomplete. There were 30-some states, I think, that reported, 
not that every state has these programs. I do not know whether 
they do or do not, but, certainly, some central reliable 
repository would be useful, whether it is at the federal level 
or not. I mean, maybe from a reporting standpoint, that would 
make the most sense. States could report to the federal 
government. But, again, that current database that was used--
that is why we cannot say how many thousand or whatever--was 
self-reporting.
    Mrs. McCarthy. Okay.
    And, Ms. Moss, just to finish off with one thing. One thing 
I have learned since being here in Congress--I also sit on 
Financial Services--is when a trade organization puts their 
name out and gives the seal of approval of a corporation or an 
entity that they are supporting, the only thing they have is 
their reputation, and if you are supporting that reputation, 
those clients or family members usually will look at that and 
think that you have already done the investigation. So, whether 
it is your fault or not, I think you need to look at your 
organization and maybe possibly decide that you might be doing 
some of your own investigation if you want to keep your 
reputation.
    With that, I yield back.
    Chairman Miller. Thank you.
    Any further questions?
    Well, let me thank all of you for your time and your 
testimony and your expertise in this area. I think it has been 
very helpful to us.
    Mr. McKeon and I will put our heads together and think 
where we go from here. We have a follow-on study from GAO, and, 
as you can see, there is considerable interest by the members 
of the committee that we somehow get a handle on what is taking 
place here and get about trying to keep it from happening. We 
will have to figure out what the right vehicle is, but we will 
figure that out, I want to tell you that, and with your help. I 
hope that you will continue to stay involved with us.
    To the family members, thank you for your testimony. I know 
this was not easy for you, and thank you, though, for sharing 
it with us.
    And, Ms. Moss, Dr. Pinto, thank you for your expertise.
    And, Mr. Kutz, and Mr. O'Connell, I know this was not an 
easy study for you to do, but we appreciate it and appreciate 
your frankness in dealing with the committee.
    Members will have the ability to submit statements for the 
next 14 days.
    And with that, the committee will stand adjourned.
    Thank you again.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing on cases of child 
neglect and abuse at residential treatment facilities.
    Hundreds of residential treatment facilities operate throughout the 
United States. These facilities typically serve children with severe 
emotional and behavioral issues, however, vary greatly both in the 
needs addressed and in the interventions used. Currently, there is no 
federal law that specifically addresses residential treatment 
facilities. Most of the regulation for these facilities is at the state 
level, each with their own way of licensing and monitoring residential 
treatment facilities, and some with no regulation at all.
    Today, we will hear from three parents whose children were subject 
to abuse and neglect at residential treatment facilities. The outcome 
in each of these cases was the worst imaginable, the death of the 
child. I want to thank all of you for testifying today and extend my 
condolences for your loss.
    Thank you again, Mr. Chairman, for holding this important hearing. 
I yield back the balance of my time.
                                 ______
                                 
    [Statement for the record from the Alliance for the Safe, 
Therapeutic, and Appropriate Use of Residential Treatment 
(ASTART) follow:]

                                                  October 24, 2007.
Hon. George Miller, Chairman,
Committee on Education and Labor, Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am writing to thank you, your staff, and 
the entire Committee on Education and Labor for conducting the 
investigative hearing on ``Child Neglect and Abuse in Private 
Residential Facilities.'' This is a very important and serious issue 
that deserves attention at a federal level, and I am delighted that you 
and your Committee are giving it the attention it deserves.
    I am a psychologist at the University of South Florida who 
specializes in children's mental health. About three years ago, after 
hearing both from media people and parents about this problem, I began 
doing some research to try to understand its scope. I was struck then 
by how little is known about the problem, and how silent my mental 
health colleagues have been about it, despite fairly widespread 
coverage in the general media.
    In response both to the seriousness of the problem of abuse, 
neglect, and exploitation within private residential facilities, and 
the absence of voices within the mental health field that were speaking 
up about it, I invited several colleagues to join me in deciding how we 
can best help address it. We formed a small group called the ``Alliance 
for the Safe, Therapeutic, and Appropriate Use of Residential 
Treatment'' (A START--http://astart.fmhi.usf.edu)
    Our group held a press briefing, with the support of your office, 
in Washington about two years ago, has been involved in several 
research and public education efforts, and has prepared some of the 
first professional articles about this troubling problem. One of our 
members, Dr. Allison Pinto, provided testimony as part of your 
hearings.
    We have found that the abusive practices are most likely to occur 
in for-profit, unlicensed, and unregulated facilities. Although it 
certainly does occur as well in licensed and non-profit programs, the 
most serious problems of abuse and misleading marketing occur in the 
for-profit and unlicensed sector.
    We recognize that there is a role for high quality, responsible 
residential care within a children's mental health system, but we 
believe strongly that there must be proper licensing, regulation, and 
accreditation in order to increase the likelihood that youth will be 
kept safe and will be provided with effective services. We believe that 
proper licensing, regulation, and accreditation will only serve to 
improve the quality of programs, and will be of benefit to all. We do 
worry, however, that if licensing is not accompanied by adequate 
monitoring and regulation, it can give the appearance of credibility to 
programs that do not deserve it, and so we would strongly support any 
proposal to provide resources to help ensure that there is strong 
monitoring and regulation to accompany licensing laws.
    We believe that it is unconscionable that within our country there 
is no systematic data collection to tell us how many children are 
served in residential programs each year, or even how many die or are 
seriously injured in such programs. We believe that such data 
collection is essential to allow us to understand the scope of the 
situation, track it over time, and develop sound policy to provide 
appropriate care for youth while at the same time protecting them from 
abuse and their families from exploitation.
    We recognize that there are many families who are desperate for 
help, and that this desperation is partly due to the absence of 
adequate services in their own communities, the stigma that is attached 
to mental health issues, and the lack of information for parents and 
professionals about just what is available. We would strongly encourage 
any effort to strengthen community systems of care for children with 
special mental health challenge and their families, and to provide 
families and professionals with access to complete and accurate 
information about alternatives that are available to them.
    We also have spoken to parents and youth who describe situations 
that are clearly not serious enough to merit residential placement. 
However, it has been reported to us that when parents make inquiry 
about services, the programs often create a sense of heightened 
desperation in order to generate an immediate referral. At this point 
it is not possible to know how many youth within these programs are 
genuinely experiencing a serious challenge, and how many have ended up 
there because programs have created a sense of unwarranted crisis in 
their parents.
    Our A START group is more than happy to assist you and the 
Committee in any way that we can. We include mental health 
professionals from a variety of disciplines, former staff of programs, 
young adults who were formerly in one or more of these programs, 
parents, and advocates. We have prepared a summary of the hearings and 
the accompanying GAO report and are circulating this widely through our 
own networks in order to better educate professionals and the general 
public about this problem. I am enclosing a copy of that summary for 
you.
    Thank you again for your outstanding leadership on this issue. It 
is clearly a reflection on our society that we allow our youth to be 
exposed to such cruel treatment rather than providing them and their 
families with more humane, supportive, and effective interventions.
            Respectfully,
                                 Robert M. Friedman, Ph.D.,
                                                         Professor.
                                 ______
                                 

Statement of Alliance for the Safe, Therapeutic, and Appropriate Use of 
                     Residential Treatment (ASTART)

    Now is the time to stop using violence, abuse, isolation, and fear 
tactics to adolescents whose family and friends want them to get 
better. Now is the time to prevent death and trauma in the name of a 
place to get better. Now is the time to provide systems of care that 
will help the youth with drug, alcohol, eating disorders, mental health 
issues and behavior problems with proven therapies that protect the 
youth's human rights and work to repair family units.
    We are here today to ask your help to stop physical and emotional 
abuse, and even preventable deaths, in places that promise to ``turn 
kids with behavioral difficulties around.'' All over this country, 
there are young people being held against their wills and coerced to do 
and say self destructive things simply to survive. We are speaking of 
abuse and neglect in programs across the USA, and in programs around 
the world with US ownership. Even the families of those abused youth 
are often dragged into unbeneficial and coerced involvement, in efforts 
to salvage hope for their children's future. The abuse and neglect must 
be stopped at these facilities!
    It is a great honor to be a citizen of a nation that provides for 
our elected leaders to call for independent investigations by the 
Government Accounting Office when a member of Congress believes those 
he or she represents are not being appropriately protected under the 
U.S. Constitution. This hearing by the U.S. House Education and Labor 
Committee is welcomed by those of us who have been working so hard to 
bring awareness and justice to the youth and families who struggle to 
find effective help.
    Thank you for your leadership and making this hearing happen.
    In the fall of 2004 a parent asked my aid in getting her son out of 
a facility in another state that she believed was hurting him. This boy 
was put in an orange jump suit, stripped of his shoes and the 
medication his psychiatrist had prescribed, locked in a dorm at night 
with no adult supervision. His mail was censored and he was not allowed 
contact with his parent until those who had done these things to him 
thought it was time. He was constantly shadowed within three feet by 
another youth, and denied access to a library, or the use of his 
musical instrument. All the while this boy and his family were being 
made promises that were rarely kept. The cost to the boy's grandparents 
was $85,000 over 12 months. The professional counselor, who had been 
working with their grandson in his home city, suggested a place out of 
state that he said he, ``didn't think this one is as harmful as some'' 
and it has a school attached to the drug and alcohol classes. But he 
had never been there and didn't actually know about it personally. 
While he was in that place the boy was taught to blindly follow orders 
and was punished for speaking out. Now, he is finding it difficult to 
be independent and think for himself. The trained and experienced 
professionals I've talked with are genuinely amazed that places like 
this, pretending to do good for the young people under their care, 
could be so abusive.
    I too was amazed, but also enraged, because I had spent my adult 
life working to build systems of care in the United States that would 
help youth and their families cope with mental health challenges. As a 
Mental Health Assoc executive director, child advocate and educator, I 
have visited many of the psychiatric hospitals, group homes and day 
treatment programs in the US and Japan, and have seen effective care. 
For over 20 years I have served as a member and chair of the advisory 
board for the Research and Training Center for Children's Mental Health 
at the University of S. FL and turned to my colleagues for help. Our 
action was to form the Alliance for the Safe, therapeutic, and 
Appropriate Use of Residential Treatment, (A START). We have spent the 
past two years studying, investigating and asking for help to educate 
families and authorities about this billion dollar industry. We wrote 
guidelines for families and set up a website (http://
astart.fmhi.usf.edu).
    I worked with another non-custodial family member to help her 
daughter get out of a licensed facility that believed in five-point 
restraint, and isolation, where employees called the girl a whore when 
she wouldn't admit to things that didn't happen to her and prevented 
her from speaking to her mother when they learned of her mother's 
efforts to get her out. She spent 7 months there and the cost was in 
excess of $100,000. The place now calls for a $17,000 deposit for new 
admissions. This place told the parents not to believe anything their 
child said as the child would be lying and manipulating their family. 
The family used all their savings for attorney fees to free her and has 
become bitter and untrusting of the judicial system. They asked me to 
spread this message: ``Do not to take someone's word that it is a good 
place or has a high rate of success.'' The parents told me the place 
just trampled all over the child and families rights'' They too ask, 
``where is the proof that violence, restraint, and seclusion works''?
    Another mom is fighting for her son to get out of an abusive state 
run facility. When she asked for his medication for severe bi-polar 
disorder to be given back to him, she was given a choice in court to 
serve 3-8 hour days of community service or 10 days in jail, and a gag-
ordered against talking about the program or questioning the juvenile 
justice system. The judge said to the mom ``You are not the parent 
anymore, I am.'' Please help us stop these injustices.
    As a child and family advocate I often speak out for those who 
can't speak for themselves. The families and youth who face serious 
decisions about selecting services for helping the young persons to 
change their behaviors, need assurances that they will have options for 
safe, high quality and effective treatment NOT exploitation, abuse, 
mistreatment, and even death. They deserve child centered and family 
focused services that are based on the individual youth's needs and 
provided by properly trained professionals. Many parents have reported 
feeling desperate and that the sense of urgency in their situation 
makes them settle for less. Many parents are also paying huge sums of 
money for escort services to transport the child from their home in 
handcuffs and for substandard solutions that further alienate them from 
their child. The marketing brochures for these facilities don't match 
with reality. When our youth go to get their hair, nails done, or teeth 
cared for the technician is licensed and trained by law. Why isn't all 
the staff in residential facilities also required to be licensed, 
regulated, and monitored, and overseen so they are prevented from 
abusing their customers, especially in those misguided times when they 
appear to believe abuse is appropriate treatment?
    For our youth and our families I and others like me will continue 
to advocate for safe and appropriate programs. We ask your help in our 
efforts. We need your help to prevent even one youth from being 
snatched out of their bed and transported to a place of harm. Please 
help us prevent more death and life long suffering for youth and 
families who need help not abuse. Our youth deserve just and 
appropriate care.
    Thank you.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
    [Whereupon, at 1:27 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
